<html>
<title> - RIO ARRIBA COUNTY STRATEGY TO COMBAT HEROIN ADDICTION</title>
<body><pre>[Senate Hearing 106-74]
[From the U.S. Government Printing Office]


                                                         S. Hrg. 106-74

 
         RIO ARRIBA COUNTY STRATEGY TO COMBAT HEROIN ADDICTION

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

                      U.S. GOVERNMENT PRINTING OFFICE
57-116 cc                     WASHINGTON : 1999

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402
                      ISBN 0-16-058704-2<BClinton>
                     



                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             FRANK R. LAUTENBERG, New Jersey
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

   Subcommittee on Commerce, Justice, and State, the Judiciary, and 
                            Related Agencies

                  JUDD GREGG, New Hampshire, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
KAY BAILEY HUTCHISON, Texas          BARBARA A. MIKULSKI, Maryland
BEN NIGHTHORSE CAMPBELL, Colorado    PATRICK J. LEAHY, Vermont
                                     ROBERT C. BYRD, West Virginia
                                       (ex officio)
                           Subcommittee Staff
                              Jim Morhard
                             Kevin Linskey
                               Paddy Link
                               Dana Quam
                              Clayton Heil

                         Lila Helms (Minority)
                          Emelie East<greek-l>
                           




                           C O N T E N T S

                              ----------                              
                                                                   Page

Statement of Laurie O. Robinson, Assistant Attorney General, 
  Office of Justice Programs, Department of Justice..............     1
Statement of Joseph H. Autry, III, M.D., Acting Deputy 
  Administrator, Substance Abuse and Mental Health Services 
  Administration, Department of Health and Human Services........     1
Statement of Timothy P. Condon, Ph.D., Associate Director, 
  National Institute on Drug Abuse, National Institutes of 
  Health, Department of Health and Human Services................     1
Opening statement of Pete V. Domenici............................     1
Statement of OJP Administrator Laurie O. Robinson................     5
OJP initiatives..................................................     6
OJJDP block and formula grant programs...........................     7
Prepared statement of Laurie O. Robinson.........................     8
Technical assistance team........................................    12
Statement of Dr. Joseph H. Autry.................................    12
    Prepared statement...........................................    17
Prepared statement of Timothy P. Condon, Ph.D....................    24
Trigger for coordinated response.................................    26

                       NONDEPARTMENTAL WITNESSES

Statement of Alfredo Montoya, Chairman, Rio Arriba County 
  Commission.....................................................    31
Statement of Lorenzo Valdez, county manager......................    31
Statement of Lauran Reichelt, director, health and human services 
  department, Rio Arriba County..................................    31
Rio Arriba County Maternal Child & Health Council Substance Abuse 
  Related Detention Costs........................................    35
Letter from the Rio Arriba Board of County Commissioners, 
  Espanola Branch Office.........................................    35
A Report on Substance Abuse, Mental Health and Related Medical 
  Costs for Individuals Incarcerated at the Rio Arriba County 
  Detention Center, Tierra Amarilla, New Mexico..................    36
Adoption of Rio Arriba Strategic Plan for Substance and Alcohol 
  Abuse and Treatment............................................    47
Rio Arriba Strategic Plan for Substance and Alcohol Abuse 
  Prevention and Treatment.......................................    49
Rationale for a County-Wide Substance Abuse Prevention and 
  Treatment Plan in Rio Arriba County, New Mexico................    49
Current Substance Abuse Reduction Activities in Rio Arriba 
  County, New Mexico.............................................    53
Youth Development as Primary Prevention..........................    55
The Participatory Planning Process...............................    59
Statement of Darren White, cabinet secretary, New Mexico 
  Department of Public Safety....................................    60
Statement of Dorian Dodson, deputy secretary, New Mexico 
  Children, Youth and Families Department........................    60
Statement of Alex Valdez, cabinet secretary, New Mexico 
  Department of Health and Human Services........................    60
Prepared statement of Darren White...............................    62
Prepared statement of Alex Valdez................................    70
Prepared statement of Dorian Dodson..............................    75
Statement of Dr. Fernando Bayardo, M.D., chief of staff and 
  medical director of the emergency room, Presbyterian Hospital, 
  Espanola.......................................................    77
Statement of Bruce Richardson, president, Chimayo Crime 
  Prevention Organization........................................    77
Statement of Tess Cassados, executive director, La Clinica del 
  Pueblo.........................................................    77
Statement of S.S. Mukta Kaur Khalsa, secretary of foreign 
  affairs, Chief Religious and Administrative Authority for Sikh 
  Dharma for the Western Hemisphere..............................    77
Prepared statement of Fernando Bayardo...........................    81
Prepared statement of Bruce Richardson...........................    86
Prepared statement of Tess Cassados..............................    93
3HO SuperHealth Drugless Addiction Treatment Program........98<greek-l>

                               (iii) deg.


         RIO ARRIBA COUNTY STRATEGY TO COMBAT HEROIN ADDICTION

                              ----------                              


                        TUESDAY, MARCH 30, 1999

                           U.S. Senate,    
    Subcommittee on Commerce, Justice, and 
                                     State,
               the Judiciary, and Related Agencies,
                               Committee on Appropriations,
                                                      Espanola, NM.
    The subcommittee met at 9:38 a.m., in the auditorium, Nick 
Salazar Center for the Arts, Northern New Mexico Community 
College, 921 Paseo De Onate, Espanola, NM, Senator Domenici 
presiding.
    Present: Senator Domenici.

                         DEPARTMENT OF JUSTICE

                       Office of Justice Programs

STATEMENT OF LAURIE O. ROBINSON, ASSISTANT ATTORNEY 
            GENERAL

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

STATEMENTS OF:
        JOSEPH H. AUTRY, III, M.D., ACTING DEPUTY ADMINISTRATOR, 
            SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION
        TIMOTHY P. CONDON, Ph.D., ASSOCIATE DIRECTOR, NATIONAL 
            INSTITUTE ON DRUG ABUSE, NATIONAL INSTITUTES OF HEALTH


                 opening statement of pete v. domenici


    Senator Domenici. The hearing will please come to order. 
Thank you, everyone. This is actually an official meeting of 
the Subcommittee on Commerce, Justice, State, and Judiciary. 
It's chaired by Senator Judd Gregg of New Hampshire, and he 
authorized this subcommittee to meet here in Espanola and Rio 
Arriba County to take testimony regarding the serious problem 
that we have with reference to heroin and heroin addiction in 
and around Rio Arriba County.
    Let me thank all those in Rio Arriba County, from the 
Chairman of the County Commission, Mr. Alfredo Montoya, who has 
been very helpful in permitting us to arrange this and helping 
us work with the various people in the community to see that 
the Senate gets a very good taste by way of witnesses and 
testimony of what's going on.
    We brought some witnesses both from the state level and the 
Federal level who will tell us what they think can be done, and 
I'm very hopeful that at the end of the day, there would be 
some hope in the community that we're on the way to putting 
together something very meaningful that will make the lives of 
average New Mexicans who live here a better life and a better 
place to live.
    Having said that, let me also thank the Mayor of Espanola 
for his cooperation, and I don't know how many of you read the 
paper about the Mayor praying for rain, but the last time I 
read a little article that he prayed for rain and it rained, 
and he did that twice, and the Mayor is here somewhere, so they 
asked him, ``Since you are a good friend of Senator Domenici, 
who is your better friend, Senator Domenici or God?'' And he 
quite appropriately, although for wrong reasons, quite 
appropriately said God because, he said, ``Senator Domenici, 
I've asked him for rain twice, and it never came.'' And so he 
chose God.
    I wrote him a letter, and said, ``Mayor, you have made your 
choice. Therefore I won't see you for about 4 years, and we'll 
find out whether you continue to choose God for the entire 4 
years, or whether you find it necessary to call your friend the 
Senator during that time.''
    Having said that, let me give you a little overview 
quickly, for those who are present and for the media, about 
what's happened since the last meeting that I had here. It is 
very significant. So that everybody will understand, I've had 
an opportunity to speak with the following people and received 
unequivocal and absolute commitment from them, that they are 
going to help us and work with this community to put together 
what must be put together to alleviate this crisis. First, I 
spoke with Janet Reno, the Attorney General of the United 
States, in an open hearing. She listened to me, and I told her 
of the facts about the dangerous situation bordering on an 
epidemic that existed here; and how it was affecting the lives 
of many, many people here, even beyond those who are addicted 
and using drugs; how there was an insecurity about the 
community because of all of the serious crimes that are 
committed when people pursue a habit of this magnitude. She 
instantly, on the spot, said, ``We are going to do whatever we 
can, and we will send somebody out to New Mexico who will tell 
you what can be done, and tell the people there what the 
Department of Justice can do.''
    Now, you should know that justice is an omnibus sort of 
word, and you might think it all has to do with law 
enforcement. Well, that isn't the case, although law 
enforcement is a part of this problem. The Justice Department 
has most of the U.S. Government's prevention programs, most of 
the United States Government's programs to help the community 
get better action and do things that cause the drug addiction 
to recede. They have a myriad of programs which you will hear 
about, and you will hear a pledge to do something with those 
programs with you, under your leadership locally, and the 
Attorney General has lived up to that commitment, and has sent 
to us today a woman who will be our first witness. She is the 
Assistant Attorney General, Office of the Justice Programs, 
Laurie Robinson.
    The next thing that's different from the last meeting is 
that I spoke to the Federal Bureau of Investigation's Director, 
Louis Freeh, in person over breakfast regarding the problem, 
and he and the Drug Enforcement Administration's chief officer, 
Mr. Constantine, who I spoke with in my office, have all 
pledged a cooperative effort with the New Mexico law 
enforcement officials to do something about the rampant sellers 
and purveyors of this drug who are selling it in this 
community, including the fact that there are many illegals from 
Mexico who are part of this incredible situation, and obviously 
some attention will be directed to that kind of problem also.
    So let me say good morning to everyone. It's certainly a 
pleasure to be back in Espanola. I wish it were a couple of 
years from now and that we could look back and say we are 
having some great success. But that's not true, although I 
believe in 2 years when we come back, we will have a very 
different community, not that I would wait 2 years, but I 
believe we will have many things change, and many people here 
will be living a much better life, feeling much more secure, 
and there will be less and less people addicted to this very 
foul 70 percent black heroin from Mexico.
    It was a little over a month ago when I first came to the 
community with some Federal and local officials and gathered 
some information about the situation. Today, as I indicated, 
marks a historic opportunity for us to use this community as a 
model to achieve a comprehensive solution to the drug problem. 
In the long run, what we accomplish here will not only assist 
Rio Arriba, but also serve as an example for other rural 
communities in distress throughout our Nation. I hope that the 
work we begin might ultimately serve as such a model for other 
areas around the United States which face the devastating 
problems of drugs. Since we are devastated by it and it is at 
such a high level of use, clearly some very comprehensive 
approach is necessary.
    After our last meeting, as I indicated, I spoke to the 
Attorney General, and she indicated on the spot that she would 
send her best person here, and I think we have Laurie here 
right now. However, even though there is a growing cooperation, 
I'm very pleased to welcome Laurie Robinson, the U.S. Assistant 
Attorney General, to Northern New Mexico today. I look forward 
to hearing how this community can pull itself together, and 
with Federal programs that fit the problem, with local 
participation and broad community support, that we would begin 
to see some real changes.
    The Department of Justice also awards and administers the 
millions of Federal dollars that are spent each year on 
important anti-drug education and prevention programs. I am 
very hopeful in the not too distant future that we will see an 
evaluation of what we are doing already and try to improve it 
and make it as good a prevention program as exists anywhere in 
the country, that will have to be tailor made to the problems 
that are here. And while a lot is going on in that area, it's 
obvious to everyone that we need to do better, and the Federal 
experts will come with resources to try to evaluate what ought 
to be done that will make this a more effective activity.
    I also hope that Ms. Robinson will speak a little bit about 
other Department of Justice programs, like Weed and Seed, drug 
courts and a multitude of prevention initiatives funded by the 
Department of Justice.
    There are several goals which I believe are essential 
ingredients in developing such a comprehensive workable 
program. First, all together, we must identify available 
resources, and that will be done very soon, and some of it is 
being done now. We will foster greater coordination and 
increase community involvement. I believe we have to all work 
together, and I think this can be done with the multitude of 
available resources. We just have to make sure that our goal is 
clear and that the commitment is an appropriate commitment and 
everyone is on the same wavelength in trying to rid this 
community of heroin use so that we get back to some kind of 
normalcy of living. But I submit, all the resources in the 
world aren't going to be effective unless there is a will in 
this community, and there is a coordination to insure these 
resources are delivered in the most efficient manner.
    The final component that I've mentioned is the community 
involvement, and I firmly believe that the heroin problem 
currently gripping this area cannot be solved without 
involvement. In fact, I believe that is the most crucial piece 
of this puzzle.
    There is one bit of news that I would share with you. You 
have perhaps heard that the Senate approved an amendment for 
$750,000 in new funding which will be achieved in a bill within 
the next 2 weeks, in an urgent supplemental bill. I submitted 
the amendment, and it would permit the expansion of the high 
intensity trafficking area that would bring together all law 
enforcement, a concerted effort, and use all of their 
collective resources on the law enforcement. This will 
designate Rio Arriba, Santa Fe, and San Juan Counties as new 
counties that will now come under the high intensity drug 
trafficking designation.
    Building upon what I have just indicated, I would like to 
mention two other very excellent Federal witnesses, Dr. Joseph 
Autry, the acting Deputy Administrator of Substance Abuse and 
Mental Health Services Administration, and Tim Condon, both of 
whom are with us this morning. He is the Associate Director of 
the National Institute of Drug Abuse. I believe these two 
witnesses can address the problem from the prevention and 
treatment perspective, which is also very critical. And while 
the Department of Justice is involved, some of these very 
specialized agencies are involved also. We have an excellent 
panel of state witnesses, including the Department of Safety, 
Darren White, the Department of Health Secretary, your own Alex 
Valdez, and the Department of Children, Youth, and Families, 
Dorian Dodson, the deputy, is with us today.
    I believe all of these witnesses can help us immeasurably 
if we will just get together and accept their services and put 
together a comprehensive effort. We have representatives from 
Rio Arriba County. I have already mentioned one of those is 
Chairman Alfredo Montoya to present the recent countywide plan 
to address this problem, and finally, we are lucky to have 
representatives from the community which will speak out on the 
impact the problem has on the health care system, as well as 
the impact on our schools and neighbors.
    There are two final points that I would like to make 
because I feel they are both extremely important. One, there is 
no magic solution or program that will single-handedly solve 
this problem facing this county in Northern New Mexico. 
Moreover, we must also recognize other problems facing the 
area, like lack of activities for our youth and jobs for area 
residents.
    I believe programs, like the Community Development Block 
Grant administered through the U.S. Department of Housing and 
Urban Development, are a good source of capital funds for 
needed facilities like the treatment centers or youth activity 
centers.
    Second, today does not mark the end of the commitment. 
Rather, today merely marks the next step in a long journey to 
address the problem.
    In closing, again I would like to thank the chairman of the 
full subcommittee, Senator Judd Gregg of New Hampshire, for 
letting me host this hearing at his request. All of you in the 
audience, I thank you for taking time out of your busy 
schedules. I don't believe there is anything more important 
going on in New Mexico than this.
    As a matter of fact, we are all distracted today by things 
going on in some foreign countries, and obviously we worry 
about Americans there, and we worry about the outcome, but 
right here and now, we have somewhat of a war of our own. I 
think we ought to declare war against this heroin addiction, 
and if we do that and decide to use all the resources properly, 
we may also all have a significant increase in hope, and in 
fact, we may achieve some significant results.
    Thank you for listening, and now we will proceed with our 
three witnesses. Let me introduce Laurie O. Robinson, Assistant 
Attorney General for the Office of Justice Programs of the 
United States. I don't think I will go into her background 
other than to tell you she was asked to come here by the 
Attorney General.
    From what I understand, she's the kind of person who likes 
to help solve these problems, and that's who we told the 
Attorney General we wanted, and so she is here. We would start 
with her, and then I will introduce the panelists that follow.
    We would require and ask you to please be quiet while she 
testifies. Your patience will be rewarded, and we will hear 
from some of you as we move through this day, up until 3:00 
this afternoon. Assistant Attorney General Laurie Robinson, 
will you please talk with us this morning?


           statement of ojp administrator laurie o. robinson


    Ms. Robinson. Mr. Chairman, thank you so much for inviting 
me this morning. And for the opportunity to talk about the 
resources that are available through the Justice Department's 
Office of Justice Programs to help this community in addressing 
drugs and drug-related crime. Senator, I would like to 
compliment you as well as the residents of this area for your 
willingness to join together to tackle what clearly are very, 
very difficult issues. I want to assure you that the Justice 
Department and OJP will do everything we can to work with you 
to assist this community.
    OJP has more than three decades of experience in providing 
financial and other assistance to States and local communities 
to help reduce crime and illegal drug use, to prevent and treat 
juvenile delinquency and assist crime victims, and based on 
that experience, we've learned two critical facts.
    First, although smaller towns and rural communities face 
many of the same crime-related problems as large urban areas, 
they also confront unique hurdles that stand in their way to 
effectively addressing crime and drug hurdles like geographic 
isolation, scarce resources, and distance from criminal justice 
services and treatment.
    Second, we've really learned the critical importance of a 
comprehensive response to crime, identifying the problems and 
the local, State, and Federal resources available to address 
them, developing an action plan that involves everyone in the 
community, law enforcement, business, citizens, treatment, 
schools, social services; all of the players who need to work 
together to combat crime, and then establishing partnerships 
among those parties, as well as with Federal and State agencies 
to put the plan into action. I'm pleased to learn that this 
community has already begun that important process.


                            ojp initiatives


    What I would like to highlight today are a number of OJP 
initiatives that county officials may want to consider as they 
develop their crime reduction strategy, and then some other OJP 
resources they may find helpful in this process.
    One program that the Senator mentioned that's had enormous 
success in reducing crime and helping revitalize high crime 
communities throughout the country is Weed and Seed. That's a 
program that was first developed, as you may know, Senator, by 
the Bush Administration, and it involves a two-prong strategy 
combining law enforcement efforts to weed out crime with 
seeding services focusing on prevention, intervention, 
treatment and neighborhood revitalization, and then community 
police providing the bridge that fills the gap between the 
weeding and seeding components. Weed and Seed programs are 
created and operated in cooperation with the local United 
States Attorney. I would strongly encourage Rio Arriba 
officials to contact U.S. Attorney John Kelly here in New 
Mexico about how to begin that process toward seeking the 
funding and other Weed and Seed assistance.
    I went ahead last week and spoke with John about that 
possibility. I know he has two members of his staff here today, 
and John is enthusiastic about working with us on this 
initiative, and he's well-experienced with Weed and Seed 
because he is involved already with two Weed and Seed sites 
here in New Mexico, one in Albuquerque and another in the 
Laguna Pueblo. We look forward to working with you to carry 
that forward.
    Officials here in Rio Arriba County and the surrounding 
counties may also want to take a look at a new Justice 
Department initiative on community prosecution. That builds on 
the successes we've seen around the country with community 
policing and emphasizing partnerships with the communities to 
address drugs and public safety, and we've seen successful 
results with community prosecution already around the country. 
They shift emphasis from solely prosecuting cases to focusing 
on identifying local crime problems, working with the 
community, and finding solutions.
    OJP also provides funding for a broad range of after school 
activities, which we know from our research can reduce crime by 
young people. We know that most juvenile crimes are committed 
in the after school hours between 3 and 8 p.m., and we also 
know that after school activities, like Boys and Girls Clubs, 
and well-defined mentoring programs, like Big Brothers/Big 
Sisters, can actually reduce drug use, improve school 
performance, and keep kids from getting involved in crime.
    Our Juvenile Justice Office within OJP is currently funding 
a number of after school initiatives in New Mexico, including 
statewide prevention projects led by the University of New 
Mexico and the New Mexico Police Athletic League.
    Substance abuse prevention is also clearly a critical part 
of any crime prevention effort. OJP supports several prevention 
programs, including the Drug-Free Community Support Program, 
which funds community coalitions of parents, kids, and 
volunteer organizations to work together to spread the word 
about the dangers of drug use and get the public involved. 
Presbyterian Medical Services in Santa Fe and three other 
community coalitions in New Mexico received funding under this 
program last year, and we are currently accepting applications 
for this year's funding.
    In addition to preventing drug use, it's also critical to 
provide treatment for current users. I know you will be hearing 
in a few minutes from the Associate Director of NIDA, but I 
want to underscore how drug treatment is an important piece of 
our crime control efforts. Last week I spoke with NIDA's 
director, who I know well, Dr. Alan Leschner, to insure that 
our efforts here in New Mexico can be fully collaborated and 
coordinated and our agency outreaches will actually be 
complementary. In particular here, I wanted to mention the role 
of drug courts. That's really the intersection of the criminal 
justice system and drug treatment, and we have seen tremendous 
success around the country with these, for juveniles as well as 
adults, in reducing drug use and recidivism by drug involved 
offenses. They involve treatment, drug testing, and graduated 
sanctions under the authority of the courts, and a number of 
them are currently operating already here in New Mexico.


                 ojjdp block and formula grant programs


    In addition to these discretionary grant programs, OJJDP 
awards formula and block grants funds to States, and it passes 
through to local government. Here in New Mexico it is to the 
Department of Public Safety and, of course, you will be hearing 
from them in a few minutes. There was more than $4 million 
received last year under our Byrne formula grant program. These 
funds can be used for a variety of different things at the 
discretion of the governor.
    As well, the New Mexico Department of Children, Youth, and 
Families also received funds from our Juvenile Justice Office 
to prevent delinquents and improve the juvenile justice system. 
In addition to this funding, OJP also provides a wealth of 
technical assistance in trying to help local communities.

                           prepared statement

    To help Rio Arriba officials actively pursue OJP resources, 
I am very pleased to announce today, Mr. Chairman, that I'll be 
sending a technical assistance team here within the next 
several weeks, which I will be personally tracking, to help 
assist in the kinds of comprehensive collaborative community 
building planning that can be effective in addressing problems 
of drugs and crime in this community. Based on that assessment 
and plan, we would then move ahead to provide whatever 
assistance we can to help this community clean up its problems 
and put a strategic program in place that can work toward the 
future. I look forward very much to continuing to work with 
you, Mr. Chairman, and I would be happy, of course, to respond 
to your questions.
    [The statement follows:]
                Prepared Statement of Laurie O. Robinson
    Good morning, Senator Domenici. I want to thank you for inviting me 
here to discuss the resources the Office of Justice Programs has 
available to assist communities in preventing and controlling crime, 
and how those resources can assist the people of Rio Arriba County and 
the surrounding areas, including Santa Fe County, tackle the problems 
caused by drug trafficking and illegal drug use, particularly the 
recent influx of black tar heroin in the community. I commend you, 
Senator, for your efforts to help Rio Arriba County deal with this 
tragic situation, and I also want to commend the county and state 
officials, as well as individual members of the community themselves, 
who are working with you to rid their neighborhoods of this terrible 
scourge.
    As you know, the Office of Justice Programs (OJP) and its 
predecessor agencies have more than 30 years of experience in providing 
financial and other assistance to states and localities to help reduce 
crime and illegal drug use, prevent and treat juvenile delinquency, and 
assist victims of crime and their families. With the research and 
evaluation results of our National Institute of Justice, the 
statistical analyses of our Bureau of Justice Statistics, and the 
funding and program development initiatives of our Bureau of Justice 
Assistance, Juvenile Justice, Victims of Crime, Violence Against Women, 
Corrections, Drug Courts, and other offices, OJP offers an invaluable 
treasure trove of information, funding, technical assistance, and 
training to states and local communities to address crime-related 
problems.
    After three decades of assistance to states and local communities 
in combating drug-related and other crime, we have learned two 
important things--
  --First, we have learned that although rural communities face many of 
        the same crime-related problems as large, urban areas--such as 
        drugs, gangs, and violent crime--we know that rural areas also 
        often face unique hurdles, such as geographic isolation, scarce 
        resources, and limited access to criminal and civil remedies.
  --Second, we have learned the critical importance of a comprehensive 
        response to local criminal justice problems. This involves 
        identifying the problem and local, state, and federal resources 
        available to address the problems identified; developing an 
        action plan encompassing all the critical components of the 
        criminal justice system, as well as social services, education, 
        and other parts of the community; and then establishing 
        partnerships locally and with federal and state agencies to put 
        that plan into action.
    I am pleased to learn that Rio Arriba has already begun this 
critical process. And I hope that the information I provide today--and 
the assistance OJP will provide in the near future for strategic 
planning and other technical assistance--can help further those 
efforts.
Operation Weed and Seed
    Let me give you an example of one innovative and comprehensive 
multi-agency approach to preventing crime and revitalizing communities 
that has proven to be very effective. Weed and Seed, as you know, is a 
strategy developed during the Bush Administration to prevent, control, 
and reduce violent crime, drug abuse, and gang activity in targeted 
high-crime neighborhoods of all sizes nationwide. Currently, Weed and 
Seed programs are underway in 200 communities all across the country, 
up from 23 when the program first began in the early 1990's. In fact, 
Albuquerque has a Weed and Seed program that has been in operation for 
a little over a year, and the Laguna Pueblo is also implementing Weed 
and Seed.
    The Weed and Seed strategy involves a two-pronged approach to a 
neighborhood's crime problems. Law enforcement agencies and prosecutors 
cooperate in ``weeding out'' criminals participating in violent crime 
and drug abuse, while attempting to prevent offenders from returning to 
the targeted area. Simultaneously, the ``seeding'' aspect brings human 
services to the area focusing on prevention, intervention, treatment, 
and neighborhood revitalization. A community policing component bridges 
the gap between the weeding and seeding components. Residents aid the 
weeding efforts, while police officers help in community restoration.
    Every site is created through the efforts of concerned community 
residents. As a first step, a Steering Committee is created with 
members from the United States Attorney's Office, city or county 
officials, local law enforcement officers, local business people, 
community leaders, and individuals from the targeted sites. They are 
the ones responsible for bringing together the various components of 
the Weed and Seed strategy and for implementing the local plan. OJP 
assists each site through its Executive Office for Weed and Seed 
(EOWS), which provides overall coordination and other assistance.
    I encourage Rio Arriba officials to work with John Kelly, the 
United States Attorney for New Mexico, to consider beginning to develop 
a Weed and Seed strategy and consider applying for Official Recognition 
as a Weed and Seed site. Once a site receives Official Recognition 
status, it becomes eligible to receive funding from participating 
federal agencies, including OJP Weed and Seed funds, and is designated 
a high priority for federally sponsored training and technical 
assistance.
    As U.S. Attorney, John Kelly also convenes the Law Enforcement 
Coordinating Committee (LECC), which coordinates regional law 
enforcement efforts and is comprised of federal, state, and local law 
enforcement officials from throughout New Mexico. I would also urge 
your county law enforcement officers to become involved in the LECC, if 
they are not. Because the LECC involves law enforcement officials from 
throughout your state, as well as federal agents, it can be very 
effective in combating drug kingpins who traffic across regional, 
state, and international borders.
    I would also urge Rio Arriba area officials to look into 
establishing a community prosecution program. This emerging approach 
builds on the success of community policing by emphasizing partnerships 
with the community to solve crime-related problems and improve public 
safety. Under community prosecution, local prosecutors work closely 
with law enforcement, other criminal justice components, and community 
groups to prevent, investigate, and respond to local crime. Community 
prosecutors are based in the community, not at some high-rise, big city 
office building. This year, OJP has $5 million to support efforts to 
plan, implement, or enhance community prosecution programs, and we are 
requesting $200 million in fiscal year 2000 to greatly increase the 
number of local community prosecutors.
After-school Programs
    I understand, Senator Domenici, that Rio Arriba officials are 
particularly interested in providing after-school and other 
opportunities for young people--to keep them from becoming involved in 
the drug trade, either as traffickers or users. A required component of 
every Weed and Seed program is a Safe Haven--usually a school or 
community center that provides a safe place where young people can come 
after school and on weekends to do their homework, participate in 
recreational and educational activities, and obtain community services.
    For example, in Albuquerque the Weed and Seed program is about to 
open a new, state-of-the-art community center in its Trumbull 
neighborhood that is located next to the police substation. The 
community center and the substation are planning to jointly host crime 
prevention fairs and other activities for residents. In addition, 
neighborhood residents are being asked to serve on ``Safe Haven 
Activity Councils'' to help plan and evaluate the educational and 
recreational activities at the Safe Haven.
    Studies show that these kinds of after-school activities greatly 
reduce crime by young people. More than 50 percent of violent juvenile 
crime occurs after school--between 3 p.m. and 8 p.m. By keeping young 
people involved in fun, wholesome activities at Safe Havens or other 
facilities, we can keep them from becoming involved in crime out of 
boredom or peer pressure.
    Studies also show that Boys and Girls Clubs and well-designed 
mentoring programs, such as Big Brothers/Big Sisters, can reduce 
juvenile alcohol and drug use, improve school performance, and prevent 
youth from getting involved in crime and violent behavior. This year, 
our Bureau of Justice Assistance will award Boys and Girls Clubs 
national headquarters $40 million to establish and operate local clubs 
throughout the country. Boys and Girls Clubs provide at-risk boys and 
girls with constructive youth development opportunities and programs in 
supervised, supportive environments. Clubs are staffed by caring adult 
leaders, who provide guidance, discipline, and values. Clubs also 
provide educational support and access to comprehensive, coordinated 
services that meet the complex needs of at-risk youth.
    Through its Juvenile Mentoring Program (JUMP), our Office of 
Juvenile Justice and Delinquency Prevention (OJJDP) supports one-to-one 
mentoring programs for youth at risk of educational failure, dropping 
out of school, or involvement in delinquent activities, including 
gangs. JUMP is administered either by a local education agency or a 
public or private nonprofit organization. In either case, both entities 
must collaborate to achieve the program's goals of improving academic 
performance and reducing the dropout rate. To receive funding, programs 
must target at-risk youth in high-crime areas that have 60 percent or 
more of their youth eligible to receive Chapter I funds under the 
Elementary and Secondary Education Act of 1965 and that have a 
considerable number of youth who drop out of school each year. Last 
month, Albuquerque, Gallup, and the Santo Domingo Pueblo received funds 
for JUMP programs, and we expect that additional funds will be 
available next year under this program.
    OJJDP is also supporting two youth initiatives administered by the 
University of New Mexico and the New Mexico Police Athletic League 
(PAL). PAL is implementing a statewide prevention project consisting of 
recreational, educational, and cultural activities for at-risk youth 
between the ages of 5 and 18 and their families. The Albuquerque PAL is 
serving as the initial model for this program, which will be 
implemented in at least 12 other New Mexico communities.
    The New Mexico PAL is also working with the University of New 
Mexico to develop and evaluate an after-school program to reduce 
juvenile delinquency and increase educational retention in the Gadsden 
Independent School District in Dona Ana County. Through a curriculum of 
hands-on science and reading projects and supervised recreation, the 
Estrella project provides a constructive alternative to afternoons of 
unsupervised free time. Middle school students are trained to mentor 
elementary school students under the program, and the New Mexico PAL 
provides a sports component to round out the program. I would encourage 
Rio Arriba officials to contact New Mexico PAL or the University of New 
Mexico to determine how your county could become involved in these 
initiatives.
Drug Abuse Prevention and Treatment
    OJP also supports two programs that help communities keep young 
people from using illegal drugs. With funds transferred from the Office 
of National Drug Control Policy (ONDCP), OJJDP makes Drug-Free 
Community Support Program grants to community coalitions to reduce 
youth substance abuse. The coalitions include parents, youth, business, 
the media, youth-serving organizations, schools, law enforcement, and 
civic, volunteer, and fraternal organizations. These partners work 
together to reduce youth substance abuse, encourage citizen 
participation in drug abuse reduction efforts, and disseminate 
information about effective programs. Last year under this program, 
grants were awarded to Presbyterian Medical Services in Santa Fe and 
three other community coalitions in New Mexico. The application kit for 
this year's program is currently available, and the deadline for 
applying is April 12, 1999.
    OJJDP also has $10 million available this year under the Drug 
Prevention Demonstration Program for efforts to reduce drug use by 
encouraging young people to pursue healthy lifestyles, by fostering 
decision-making skills to help them choose alternatives to high-risk 
behavior, and by providing them with the motivation and tools to build 
constructive lives.
    In addition to preventing drug use, it is also critical to provide 
treatment--under the supervision of the criminal justice system--for 
juveniles and others who are already involved in drug use and crime. 
Studies show that substance abuse is closely linked to crime. Data from 
our Bureau of Justice Statistics show, for example, that: 1 in 6 
offenders landed in prison for a crime committed just to get money for 
drugs; almost a third of prisoners were using drugs or alcohol at the 
time they committed their crimes; and more than 80 percent of prisoners 
have a history of drug and alcohol use.
    Studies also show that treatment--particularly when it is combined 
with meaningful, graduated sanctions--can reduce recidivism and drug 
use. Our Residential Substance Abuse Treatment program is providing the 
State of New Mexico with over $416,000 this year to implement prison-
based drug treatment programs.
    Drug courts are another example of how combining treatment and 
sanctions is proving effective. Drug courts use the coercive authority 
of the court to combine treatment and graduated sanctions to change the 
behavior of drug-involved offenders. In 1989, a few communities began 
experimenting with an approach to address the needs of substance-
abusing offenders that integrated substance abuse treatment, sanctions, 
and incentives with case processing to place nonviolent drug-involved 
defendants in judicially supervised habilitation programs.
    Now, nationally more than 530 courts have implemented or are 
planning to implement a drug court to address the problems of substance 
abuse and crime. In New Mexico, the Administrative Office of the 
Courts, the Pueblo of Taos, the Eleventh Judicial District Court, 
McKinley County, the Mescalero Apache Tribe, and the San Juan Pueblo 
have all received grants under our Drug Court Grant Program to plan, 
implement, or enhance their drug courts. I would encourage Rio Arriba 
County to look into the merits of drug courts. Our Drug Court Program 
Office would be happy to work with county officials to begin planning 
for a drug court and provide information on how to apply for funding.
Formula Grant Funding
    Under these discretionary grant programs I have just mentioned, OJP 
awards funds directly to local communities and other organizations. 
However, as you know, Senator, the majority of OJP funding is awarded 
to states through our formula grant programs. In New Mexico, the 
Department of Public Safety receives funding under the Edward Byrne 
Memorial State and Local Law Enforcement Assistance Formula Grant 
Program. Last year, the state received more than $4 million in Byrne 
Formula funds, which it can use for any of 26 purpose areas, including 
crime prevention, law enforcement, adjudication, corrections, victims 
assistance, and other initiatives. Under the Byrne program, the state 
decides what state and local programs to support and is required to 
pass-through a percentage of funds to local jurisdictions. If Rio 
Arriba County has not yet done so, it should contact the Department of 
Public Safety to determine what funding might be available for its 
crime control, treatment, and prevention initiatives.
    In addition, the New Mexico Department of Children, Youth, and 
Families last year received $789,000 from OJJDP to support state and 
local efforts to prevent delinquency and improve the juvenile justice 
system. The state also received OJJDP funding under the State Challenge 
Grants, Local Delinquency Prevention, Juvenile Accountability Incentive 
Block Grants, and Combating Underage Drinking programs. Again, Rio 
Arriba officials should contact the state office regarding the 
availability of funding under these programs.
Other Resources
    In addition to funding, OJP also provides a wealth of information 
resources, technical assistance, and training to help local communities 
plan, develop, and implement crime control initiatives. Much 
information is available electronically through the Office of Justice 
Programs site on the World Wide Web. The OJP Website 
(www.ojp.usdoj.gov) provides up-to-date information about OJP grant 
programs and application kits, downloadable applications and 
publications, and links to state formula agencies and other resources. 
For example, the Fiscal Year 1999 OJP Program Plan, which describes all 
the discretionary grant programs for which OJP will provide funds this 
year--including programs open to competition--is available on our 
Website.
    Our Website also links to special E-mail addresses for each of our 
bureaus and offices to answer inquiries about our funding, programs, 
and other resources. In addition, the Department of Justice Response 
Center is staffed by specialists who answer questions and provide 
information about Justice Department funding programs, including all 
OJP and COPS (Community Oriented Policing Services) funding programs. 
The Response Center can be reached by calling toll-free at 1-800/421-
6770.
    OJP also supports the National Criminal Justice Reference Service 
(NCJRS), one of the most extensive sources of information on criminal 
and juvenile justice in the world. NCJRS disseminates OJP research 
reports, statistical bulletins, application kits, program 
announcements, and other materials. Citizens need only call with a 
general request and our specialists can send these materials out. 
Documents can be obtained by calling a toll-free telephone number (1-
800/851-3420) or online at www.ncjrs.org.
    In addition, OJP supports state and local criminal and juvenile 
justice initiatives by providing training and technical assistance. I 
am pleased to announce, Senator Domenici, that I have asked that an OJP 
technical assistance team be assembled to come to Rio Arriba to work 
with community leaders to determine how OJP resources can assist the 
county with its crime prevention and intervention efforts.
Conclusion
    In conclusion, OJP is committed to working with you to provide 
assistance to help the Rio Arriba community clean up its drug abuse 
problem and put a strategic infrastructure in place to prevent and 
respond to future crime. I look forward to working with you, Senator, 
and Rio Arriba County and surrounding area officials, to reduce drug 
use, trafficking, and other crime and to improve the quality of life 
for the residents of the Rio Arriba community. I would be pleased now 
to answer any questions you may have.

    Senator Domenici. Thank you very much. Did you bring a 
number of copies of your speech?
    Ms. Robinson. We certainly have copies of the statement 
here, yes.
    Senator Domenici. For those who might want them, there will 
be a few here, if you want to go through and underscore some of 
these things as you begin to work together. Thank you very much 
for your wonderful remarks. I think Ron Lopez is coordinator of 
the Weed and Seed program. Is Ron here?
    Mr. Lopez. Yes, I am.
    Senator Domenici. I can see the way these lights are 
structured, I can't see you. I can--I got you. I can see a tie 
and shirt. Is it fair to say that as soon as the community can 
begin to work on this, that you will be available to work with 
them on this, Mr. Lopez?
    Mr. Lopez. Yes, sir. We have already begun some meetings 
here with some of the local community action groups, and we'll 
be available.
    Senator Domenici. Great.
    Mr. Lopez. And you-all can get a hold of me. I am here with 
plenty of cards and information.

                       Technical assistance team

    Senator Domenici. Laurie, before I move to the next 
witness, might I ask, this technical assistance team that you 
are going to send, that the members of the community, once they 
decide what they want to do, you could expedite and cut through 
red tape so we aren't waiting 2 years for some of these 
programs.
    Ms. Robinson. Right, I understand you are impatient. The 
Federal Government does not always have a good reputation for 
moving swiftly.
    Senator Domenici. I am more than aware of that.
    Ms. Robinson. And I will tell you, Mr. Chairman, I am an 
impatient person. I will be personally tracking this, and the 
answer to your question is yes, we will try to cut through red 
tape, we will try to use that plan as the means of identifying 
resources that are available, and available now so that we can 
move money forward.
    Senator Domenici. I may have some additional questions, but 
let's move now to Dr. Autry, Acting Deputy Administrator of the 
Substance Abuse and Mental Health Services Administration of 
the U.S. Department of Health and Human Services. Dr. Autry, I 
note, I've seen your prepared remarks, but I wonder if you 
would take a moment before you testify and tell us what you do.

                    Statement of Dr. Joseph H. Autry

    Dr. Autry. Well, Substance Abuse and Mental Health Services 
Administration is the arm of Department of Health and Human 
Services that funds prevention and treatment services for 
substance abuse and for mental illness throughout the Nation. 
We do this primarily through two types of programs. One is a 
block grant program. That's a formal grant to the State and the 
States have a great deal of flexibility in deciding how to 
allocate those funds within the State and local communities.
    Second, is a State incentive grant program which is a 
competitive grant program in which we have target areas to 
improve prevention and treatment services, and also a program 
to get those services and effective strategies out in the 
community for their use.
    Senator Domenici. Would it be fair then to say that as part 
of this comprehensive effort that goes on the discretionary 
program side, that you will also be available as the project 
and program is put together, you will be willing to get 
together to see how you can contribute?
    Dr. Autry. Right. Here in Rio Arriba we have already begun 
discussions with the State on the need for technical assistance 
and training needed. We have encouraged them to submit an 
application for additional identification of those needs 
preliminarily. Discussions so far show that the State has the 
need for funds to transition to the infrastructure for the 
delivery of services for substance abuse, the need to develop 
common data systems, the need to develop performance measures, 
the need to look at women's services and services for current 
illnesses, and also prevention in the continuum of care with 
training-based and science-based modules. We've also had some 
preliminary discussion with people in Rio Arriba County just 
within the past week, and they've identified physical needs 
such as programs for youth, policies for effective resource 
allocation and model programs on self-sufficiency, where I know 
you have some concern.
    Senator Domenici. Please proceed. Thank you so much.
    Dr. Autry. As I begin my formal testimony, I have submitted 
my written testimony and request that it be entered into the 
record.
    Senator Domenici. That will be made a part of the record 
and abbreviate it as you see fit.
    Dr. Autry. Thank you. I am very pleased to be here on 
behalf of Nelba Chavez, who is Administrator of the Substance 
Abuse and Mental Health Services Administration, SAMHSA, as the 
acronym is known. She would love to have been here herself but 
she was already committed to give an address in Atlanta, and 
she has asked me to fill in for her, and I am very glad to do 
that.
    I have talked a little bit about who we are. I also want to 
acknowledge the Senator's work on behalf of mental health 
services, particularly your efforts to enact legislation 
requiring parity for mental health services in insurance 
coverage. We look forward to working together with you on that.
    Senator Domenici. Thank you very much.
    Dr. Autry. In preparing for this hearing, I was fortunate 
that one of our staff members was out here 2 weeks ago 
attending a meeting, and she took the opportunity to visit with 
a number of local people to talk firsthand about some of the 
problems here in Rio Arriba County and in New Mexico, and I am 
stunned to learn that New Mexico is the number one State in the 
nation for drug-induced death and that within New Mexico, Rio 
Arriba is number one for drug-induced death.
    I was also surprised to find out that New Mexico is number 
one in driving under the influence arrests and convictions, so 
I think if we need any testament to the number of problems in 
this county and an argument needed for assistance, we couldn't 
really ask for more than that. I won't go into detail to talk 
about what we do or hear, but will talk about some of the 
programs that we are funding on the ground here.
    Many of you know drug and alcohol abuse ravage the lives of 
Americans. It does fuel crime, as you heard, promote domestic 
violence, disease, and premature death. When you link substance 
abuse to other headline-grabbing problems such as unintended 
pregnancies, HIV, AIDS, and hepatitis for this community, 
crime, welfare, violence, school dropouts, suicide, 
homelessness and injuries, substance abuse is clearly one of 
the most costly public health problems.
    There was a recent survey in which 56 percent of American 
adults listed drugs as the top problem area facing American 
children. Crime was second at 24 percent. The relationship 
between crime and drugs and the cost of drugs and crime is 
clear. More than 1.7 million people are behind bars at an 
annual cost to the taxpayer of about $38 billion. Seventy 
percent or 1.2 million of them have histories of drug and 
alcohol abuse and addiction. We know, as our colleagues at 
Justice do, for hundreds of thousands of these individuals, 
drug abuse and addiction is the core problem that prompted 
their criminal activity. Back here it must be coupled with 
public health programs, such as prevention, treatment and 
resources to reach adult adolescents and children in the field 
of treatment services before they reach the criminal justice 
system, not once they have come into contact with the criminal 
justice system.
    We have recently expanded our national health survey so 
that over the next year, we will be able to give you both 
regional level and State level estimates of drug and alcohol 
abuse in this county. They talk specifically about some of the 
programs that we have here.
    We recently initiated our State Incentive Grant Program, 
which offers technical and financial support to governors in 19 
States to help them deliver research-based substance abuse 
prevention services. Of this money, 85 percent of this must go 
to services, only 15 percent can be used for administrative 
costs, and to date, over the past 12 years, we funded programs 
in 19 States and 500 communities. This program is designed to 
encourage the governors to mobilize and coordinate statewide 
efforts in preventing youth substance abuse, to look at all the 
funding streams focused on preventing substance abuse in their 
State and identify the needs and gaps, to leverage resources to 
reach youth, parents and families in the homes, in their 
schools, and their workplace with proven substance abuse 
strategies. In addition to adapting effective prevention 
models, it must be modified to meet local needs, it requires 
the State to account for, coordinate and strategically manage 
all substance abuse prevention funding streams in the State, 
including the 20 percent prevention set aside for the Substance 
Abuse Prevention and Treatment Block Grant, Safe and Drug Free 
Schools, and Communities Programs and other Federal programs. 
I'm pleased to say that we awarded the State Incentive Grant to 
New Mexico this past year. The first year of funding was $2.8 
million. With these funds, New Mexico will be able to focus on 
its prevention efforts on the 12 to 17-year olds and especially 
girls and ethnic minorities.
    We also established six regional centers for the 
Application of Prevention Technology to look at and translate 
the finding of the National Institute on Drug Abuse, National 
Institute on Alcohol Abuse and Alcoholism, and SAMHSA proven 
and promising research-based substance abuse prevention 
practices, methods and policies to help augment the State 
Incentive Grant funds. These centers will reach out to 
practitioners and programs in the funding State to make sure 
that we have access to the latest science based prevention 
knowledge available to reduce substance abuse at the community 
and individual level.
    We also recently started programs that are focused on age 0 
to 7, called the Starting Early-Starting Smart Program. It's a 
comprehensive program that looks at children who are at risk 
and provides services to the children and their families or 
care givers, in order to avert some of the problems that may 
develop later on with reference to mental health problems and 
substance abuse. The first year of this grant was awarded in 
1997 at the cost of $689,000 per year.
    Recently research has shown that with co-occurring mental 
and addictive disorders, the mental disorder occurs before the 
onset of substance abuse disorders by 5 to 10 years. This gives 
us a window of opportunity to target prevention activities 
before the individual develops substance abuse problems. 
Unfortunately, we know that two-thirds of the young people in 
this country that suffer from this disorder are not receiving 
the services they need. We are making a vigorous effort to help 
families, educators and others who work with children and 
adolescents, as well as young people themselves, to recognize 
mental health problems and seek appropriate services.
    Many of you have also seen the National Youth Anti-Drug 
Media Campaign, which has been launched this past year. They 
have some of the most stunning commercials on television, I 
think, that rival more of the private sector than more costly 
programs. While the corporate ``in kind'' contributions of free 
public service announcements have exceeded expectations, which 
has also exceeded our expectations is the number of people who 
are reaching out after seeing those ads and asking for help. We 
have expanded the hours of our Clearinghouse, the National 
Clearinghouse of Drug and Alcohol Information, it's now in 
operation 7 days a week, 24 hours a day and responds to 
approximately 2,000 calls a day. About half of these calls are 
from parents looking for ways of how to talk to their kids 
about drugs. We have distributed over 600,000 copies of the 
publication ``Keeping Youth Drug Free,'' and in a number of 
these out in the vestibules for those of you who would like to 
have them. This is the primer that goes through and suggests 
the conversations with parents and other care givers to 
increase their confidence and knowledge in talking with their 
children about substance abuse.
    We continue our collaboration with the NIAAA, National 
Institute on Alcohol Abuse and Alcoholism, to look for more 
effective prevention and treatment prevention programs, and I'm 
sure you will hear about those from Dr. Condon later.
    One of the things that we are actually pleased with this 
year is the launching of the Strengthening Families Initiative 
which is implementing random programs aimed at helping 
individuals learn how to be more effective parents, how to be 
more effective adults and how to deal with problems as they 
emerge in their families and head those off at an early age.
    We've also done a number of studies looking at treatment 
effectiveness, and again, I am sure you will hear more about 
those from Dr. Condon, but studies have shown that there is a 
50 percent reduction in drug use following treatment, 1 year 
following treatment.
    We have also shown that people that go into treatment are 
less likely after treatment to be homeless, less likely to be 
involved in criminal activities and risky sexual behavior. 
Studies by NIDA and others have shown that we have made as much 
progress in the drug treatment arena as patients who are 
treated for other diseases such as diabetes, hypertension and 
asthma.
    Let me turn just very briefly to one or two other programs. 
I mentioned earlier that we give block grants to the States 
funding treatment and prevention services in the State that 
allocate those funds that meet the needs within their States. 
That program for substance abuse treatment prevention is about 
$1.6 billion. This year New Mexico is eligible to receive $8.3 
million from that program, an increase of $1.5 million over 
last year.
    We also talk about the need to perform effective and 
efficient practices into prevention and treatment services. One 
of the things that we work collaboratively with others on not 
only generated knowledge about what works and how well it 
works, but also to make sure that that knowledge goes out to 
the practitioners so that they're doing the most effective and 
efficient programs they can to end their studies.
    We have been working with the Department of Justice through 
our national substance abuse treatments by piloting three 
family drug courts to look at alcohol and other drug treatment 
combined with intervention, prevention and support services for 
children and their families as well as the legal processing for 
those cases. Recently we've initiated a program with the 
National Institute of Health and Food and Drug Administration 
to increase access to and improve the quality and 
accountability of methadone and levo-alpha-acetyl-methodol, or 
LAAM, treatment for people with heroin addiction. We look 
forward to continuing to improve access to make heroin 
treatments more widely available to the States.
    Lastly I want to point out that we've involved ourselves 
with discussions with mayors, town and county officials, tribal 
leaders and have developed a program on targeting capacities as 
long as there is a program where treatments services are 
provided and communities that are facing a rising and 
unexpected increase in drug use or where current treatment 
facilities are not adequate to respond to those programs. We 
recently awarded a Target Capacity Expansion Grant to a program 
in Gallup, and I have here an announcement for additional 
targeted grant programs for development programs, as I 
mentioned earlier, for which you may apply and for which you 
are eligible. As I already mentioned, we are currently working 
on a proposal for technical assistance to how to assist the 
problems here in Rio Arriba County.

                           prepared statement

    I look forward to continuing our dialogue, and I would be 
glad to respond to any questions you have and doing everything 
we can to assist the State of New Mexico to deal with the 
problems that you are currently facing.
    [The statement follows:]
             Prepared Statement of Joseph Autry, III, M.D.
    Mr. Chairman, on behalf of Nelba Chavez, Ph.D., Administrator of 
the Substance Abuse and Mental Health Services Administration (SAMHSA) 
I want to thank you for the opportunity for SAMHSA to testify this 
morning here in Espanola, New Mexico. Dr. Chavez would have been here 
herself except that she was already committed to give an address in 
Atlanta when we were notified about the hearing.
    Mr. Chairman, your commitment to a comprehensive response to the 
Nation's drug abuse problem and in particular to the problem of drug 
abuse in New Mexico is much appreciated. We have long noted your 
support for policies and legislation to improve access to quality 
mental health services including your efforts to enact legislation 
requiring parity for mental health services in insurance coverage.
    In preparation for this hearing, I read several articles that 
appeared in local papers and was briefed by my staff on your concern 
for black tar heroin use in northern New Mexico. I wish there were a 
simple way to address this problem, unfortunately there isn't. But I 
can tell you that Federal, State and local governments as well as 
parents and children and businesses across the United States are 
committed to addressing it in a comprehensive fashion involving law 
enforcement, interdiction, prevention, education and treatment. I am 
here today to share with you what SAMHSA is doing to address the issue.
    SAMHSA's mission is to improve access to quality substance abuse 
and mental health services for those in need of such services. The 
importance of our work in substance abuse prevention, addiction 
treatment and mental health services cannot be overstated. Drug and 
alcohol abuse ravage the lives of millions and fuel crime, domestic 
violence, disease and premature death. When the link is made between 
substance abuse and other headline grabbing problems--unintended 
pregnancy, HIV/AIDS, crime, welfare, violence, school drop-out, 
suicide, homelessness, and injuries, substance abuse is clearly one of 
our most costly public health problems.
    As with any other public health problem, we must achieve public 
health solutions. Study after study has shown, drugs are dominating the 
public's concern about the future of children in this country. A survey 
of American adults found 56 percent listed drugs as the top problem 
facing American children. Crime was second, at 24 percent.
    The relationship between crime and drugs and the cost of drugs and 
crime to our country is clear. More than 1.7 million people are behind 
bars in America at an annual cost to the taxpayer of $38 billion. 
Seventy percent or 1.2 million of them have histories of drug and 
alcohol abuse and addiction. For hundreds of thousands of these 
individuals drug abuse and addiction is the core problem that prompted 
their criminal activity. Our prison and punishment approach to 
substance abuse is not sufficient by itself. Instead we need to 
approach drug abuse as a public health issue and invest our resources 
in reaching adults, adolescents, and children in need of substance 
abuse prevention and treatment services before they reach the criminal 
justice system.
    In the area of prevention, our investments seem to be paying off. 
Each year we release SAMHSA's National Household Survey on Drug Use. 
While we are cautiously optimistic that the recent increase in drug use 
may be leveling off among youth, we are concerned that our young people 
continue to use drugs and drink alcohol at an unacceptable rate. To 
ensure our programs are keeping up with current issues and trends, over 
the past three years at SAMHSA we have re-engineered our programs, 
widened our circle of partners and adopted a long term public health 
approach. With this shift in strategy we have redirected our efforts 
from narrowly focused drug prevention efforts to a more comprehensive 
coordinated community approach that identifies and addresses family, 
school, and mental health problems that may lead to substance abuse and 
other destructive behaviors.
    For example our new State Incentive Grant Program offers technical 
and financial support to Governors in 19 states to help them deliver 
research-based substance abuse prevention services. A full 85 percent 
of these funds are being directed to community prevention programs, 
resulting in the funding of approximately 500 community based programs 
in the 19 States. The ``incentive'' nature of the State Incentive 
Grants, encourages Governors to mobilize and coordinate state-wide 
efforts in preventing drug use among youth. In developing this program, 
we asked Governors to take a fresh look at all the funding streams 
focused on preventing substance abuse in their state and identify the 
needs and gaps. Then we asked for innovative plans that leverage 
resources to reach youth, parents and families in their homes, schools, 
and workplaces with proven substance abuse strategies. In addition to 
adapting effective prevention models to local situations and their 
needs the State Incentive Grant program requires states to account for, 
coordinate, and strategically manage all substance abuse prevention 
funding streams in the state, including the 20 percent prevention set-
aside of the Substance Abuse Prevention and Treatment Block Grant, Safe 
and Drug Free Schools and Communities Programs and other Federal 
programs. I am happy to report that last year we awarded a State 
Incentive Grant to New Mexico. Its first year funding was $2,812,042. 
With these funds New Mexico will focus its prevention efforts on 12 to 
17 year olds, especially girls and ethnic/racial minorities.
    We have established 6 Regional Centers for the Application of 
Prevention Technology to focus on the application of National Institute 
on Drug Abuse (NIDA), National Institute on Alcohol Abuse and 
Alcoholism (NIAAA) and SAMHSA proven and promising research-based 
substance abuse prevention practices, methods, and policies in the 
states that receive incentive grants. These regional centers are 
critically important. They will identify and reach out to practitioners 
and programs to ensure they are using the latest science based 
prevention knowledge available to reduce substance abuse at the 
community and individual level.
    To continue to improve services that are available to very young 
children, SAMHSA has initiated the Starting Early-Starting Smart 
collaborative effort. I say collaborative because SAMHSA is 
collaborating with The Casey Family Program, the Department of 
Education and other HHS operating divisions to develop new knowledge, 
demonstrate what works, and create community-based partnerships that 
will sustain improved health and health care services for children from 
birth to age 7 and their families or care givers. SAMHSA initiated the 
Starting Early-Starting Smart program because so many social and 
economic factors impact children's mental health and their potential 
for substance abuse. This interagency collaboration will bring all the 
available resources to bear on providing coordinated, quality services 
for children and their care givers. I clearly see this collaboration as 
just the beginning of a much needed effort to improve the lives of 
children and, ultimately, as our first line of defense in preventing 
drug use. In 1997 we gave such a grant to the University of New Mexico. 
Their award for this year is $689,438.
    Research has shown that with co-occurring mental and addictive 
disorders, the mental disorder often occurs first, during adolescence 
and 5 to 10 years before the addictive disorder. While this provides a 
``window of opportunity'' for targeted substance abuse prevention 
interventions and needed mental health services, two-thirds of young 
people in this country who suffer from a mental disorder are not 
receiving the help they need. Without that help these problems can 
lead, in addition to alcohol and illicit drug abuse, to school failure, 
family discord, violence and even suicide. SAMHSA is leading a vigorous 
effort to help families, educators, and others who work with children 
and adolescents, as well as young people themselves--to recognize 
mental health problems and seek appropriate services. This is a key 
goal of our Children's Mental Health Services Program and our Caring 
for Every Child's Mental Health: Communities Together initiative.
    We are also very pleased with the initial response to the National 
Youth Anti-Drug Media Campaign. While the corporate ``in kind'' 
contributions of free public service announcements have exceeded 
expectations and the goal for reaching target audience members 
continues to be surpassed, the first measures of impact are coming from 
SAMHSA. The national phone number used to obtain more information is 
SAMHSA's National Clearinghouse for Drug and Alcohol Information. In 
cooperation with the Office of National Drug Control Policy (ONDCP), we 
have expanded our hours of operation to 7 days a week, 24 hours a day. 
We are receiving about 2,000 calls a day as a result of the media 
campaign. Approximately half are parents looking for ways to start a 
conversation about drugs with children in their care. Since the 
campaign started to run nationally last July, SAMHSA has distributed 
over 600,000 copies of the publication ``Keeping Youth Drug Free'' 
which includes suggested conversations for parents and other care 
givers to increase their confidence and knowledge.
    SAMHSA's Center for Substance Abuse Prevention (CSAP) is also 
working with other federal agencies on a number of targeted areas, 
including underage drinking, family-focused prevention programs, and 
children of substance-abusing parents to improve system performance and 
service quality. For example, CSAP and NIAAA have a study underway to 
examine the effects of alcohol advertising on underage drinking. We are 
also working with NIAAA to identify, test and develop effective 
interventions to prevent and reduce alcohol-related problems, including 
death, among college students.
    When it comes to our families, there are many effective strategies 
for preventing substance abuse among children in the home. Our efforts 
at SAMHSA are focusing on improved implementation of appropriate family 
strengthening substance abuse prevention strategies. Also of great 
concern are the 8.3 million American children who live with at least 
one parent who is alcoholic or using drugs and in need of substance 
abuse treatment. These children face a significantly higher-than-
average risk for early substance abuse, addiction and the development 
of a variety of physical and mental health problems. To address this 
high risk population, CSAP is developing prevention interventions 
specifically designed for these children and families as part of an 
interagency Strengthening Families Initiative.
    In the area of alcohol and drug treatment SAMHSA has repeatedly 
demonstrated the effectiveness of Federally supported programs. For 
example, an evaluation of treatment programs funded by the Center for 
Substance Abuse Treatment (CSAT) found a 50 percent reduction in drug 
use among their clients one year after treatment. Additional outcomes 
include improved job prospects, increased incomes, and better physical 
and mental health. Clients are less likely after treatment to be 
homeless and less likely to be involved in criminal activity and risky 
sexual behaviors. Our Services Research Outcomes Study, released in 
September 1998, produced similar findings. This national sample of 
substance abuse treatment programs showed that participating 
individuals sustained reductions in substance abuse for at least five 
years following treatment. Similar findings have been produced by NIDA 
and in the States of California, Oregon and Minnesota and by RAND 
corporation. We have achieved successful results that parallel or 
exceed the results of patients receiving treatment for other chronic 
illnesses like diabetes, hypertension and asthma. Yet, we are living in 
an America where substance abuse treatment is stigmatized and private 
insurance coverage for treatment is not equal to coverage for treatment 
of other medical conditions. According to the National Household Survey 
on Drug Abuse (NHSDA) 63 percent of people with a severe drug problem--
about 3.6 million people in need of treatment--did not receive the care 
they needed in 1997. With the Congress's leadership we can help others 
understand that drug abuse is a serious public health issue that must 
be addressed and can be addressed successfully.
    To help support and maintain State substance abuse treatment and 
prevention services, SAMHSA is providing $1.6 billion in funds through 
the Substance Abuse Prevention and Treatment Block Grant in fiscal year 
1999. New Mexico is eligible to receive this year $8,261,541, an 
increase of about $1.5 million over the State's allotment in fiscal 
year 1998. While there are some requirements associated with the use of 
these funds, States have tremendous flexibility to use them to address 
the needs of the State.
    While block grant investments that support and maintain state 
systems are vital, they represent only one part of the comprehensive 
approach needed to improve access to quality substance abuse prevention 
and addiction treatment services in the U.S. To increase access and 
reduce waiting times for services, Federal investments in targeted 
capacity expansion and development and application of new more 
effective and efficient interventions are essential to improve system 
performance and service quality, as well as cultivate a system that is 
responsive to current and emerging needs. These investments help to 
connect the laboratory research funded by the National Institutes for 
Health and others to the needs of our citizens through the delivery of 
everyday health care services. Without the bridge that SAMHSA provides, 
the benefits from Federal investments in bench science and biomedical 
research will not reach our citizens or achieve full potential.
    Wise investments in improving performance and quality of services 
through SAMHSA's Knowledge Development and Application (KD&A) grant 
program stimulate the discovery of new and more cost effective ways to 
deliver services paid for through block grant funding, Medicaid, 
Medicare and private sector insurance. For example, CSAT has launched 
an initiative to determine the effectiveness of available 
methamphetamine addiction treatments for various populations and the 
cost effectiveness of the various treatment approaches. CSAT is also 
investing in improving treatment services available for adolescents and 
adults dependent on marijuana. Additionally, CSAT has also initiated a 
program to identify currently existing and potentially exemplary 
adolescent treatment models and to produce short-term evaluation of 
outcome measures and cost-effectiveness of such models with a special 
emphasis on models that focus on treatment for adolescent heroin 
abusers. Because the effectiveness of current treatment models for 
adolescents is still being developed, CSAT is working with NIAAA to 
identify effective treatment interventions for adolescents who abuse 
alcohol and those who have become alcoholics. CSAT is also working with 
the Department of Justice to support the Drug Court Program and through 
this effort we are piloting three Family Drug Courts projects in which 
alcohol and other drug treatment, combined with intervention and 
support services for child and family, are integrated with the legal 
processing of the family's case. And, SAMHSA is working with the Food 
and Drug Administration and the National Institutes of Health to 
increase access to and improve the quality and accountability of 
methadone and levo-alpha-acetyl-methadol (LAAM) treatment for people 
with heroin addiction. Improving access and quality of treatment will 
be accomplished by moving from the current regulatory environment to a 
system that will combine program accreditation with statutory 
requirements.
    While the drug problem is national in scope, our data provides us 
the ability to gauge the regional nature of emerging trends. In 
addition, mayors, town and county officials, the Congressional Black 
and Hispanic Caucuses and Indian Tribal Governments experiencing the 
effects of drug use in their communities have appreciated Federal 
leadership in helping them address emerging drug trends and the related 
public health problems, including HIV/AIDS. SAMHSA's Targeted Treatment 
Capacity Expansion program is key to these efforts. These grants, 
already in 41 communities, are providing rapid and strategic responses 
to the demand for services that are more regional or local in nature. 
For example, the outbreak of methamphetamine use that has spread across 
the Southwest or dramatic heroin use increases reported in localized 
areas can be more rapidly addressed as a result of this program. Last 
year we awarded a Targeted Capacity Expansion Grant to a program in 
Gallup and I have here an announcement for additional grants to be made 
this year for which State, county and local governments including 
Indian tribes and tribal organizations may apply.
    In conclusion, Mr. Chairman, SAMHSA is very interested in sharing 
with New Mexico the knowledge that it has gained over the years. In 
fact the State is currently working on a proposal for technical 
assistance on how to address the problems here in Rio Arriba County. 
The State is working hard and I want to acknowledge their efforts. 
SAMHSA has had a good working relationship with the States over the 
years and we look forward to assisting New Mexico in any way we can.

    Senator Domenici. Thank you very much. Now, I gather from 
what you have said, Doctor, that a number of the block grant 
programs, at least two that you have mentioned, are working 
through the State, and I think it would probably be the State's 
officials that are going to speak after you, Secretary Alex 
Valdez of Human Services and the head of our law enforcement, 
they would be the ones that would be putting the plan together 
for the governor on that one plan and implementing the other 
programs if they are going to get funding for it; is that 
correct?
    Dr. Autry. The block grant program is coordinated through 
the State and the Targeted Capacity Program, city, counties, 
States can apply. We ask that they coordinate the reference, so 
we only get one coordinated application in, and then our other 
program, individual institutions, cities, counties and States 
apply for those. The information is available to anybody who 
asks for assistance.
    Senator Domenici. So what I am gathering here is, the 
Secretary will speak to us soon on what they were doing, but as 
part of the comprehensive plan, they could further the area, 
further apply for the two programs you have spoken about, in 
addition to the grant; is that correct?
    Dr. Autry. That's correct.
    Senator Domenici. And how much money is available in those 
programs?
    Dr. Autry. Targeted Capacity Program----
    Senator Domenici. Let me ask, that program has already been 
given reasonable effort here in New Mexico, has it not?
    Dr. Autry. Absolutely. That is a program that has been 
very, very, very well supported and we appreciate that, and 
certainly there is adequate money to respond to applications.
    Senator Domenici. Let's move to Dr. Condon. Doctor, first, 
would you please take back to Dr. Leschner my extreme gratitude 
for participating by sending you here. I know him very, very 
well.
    Dr. Condon. Yes, I know.
    Senator Domenici. You are making incredible science 
breakthroughs. You all should know that we are not just relying 
upon people finding a way to avoid drugs or getting off drugs, 
we know it's very difficult. Our best and greatest scientists 
are working on ways to be helpful in terms of finding what it 
is that causes that, why people cannot control this desire and 
this use, and there is some fantastic research, and I know that 
maybe you can share some thoughts with us to give us a little 
hope in our future.
    Dr. Condon. Certainly, thank you, Senator. I believe our 
written testimony for the record is in the back. I will just 
summarize my statement.
    Senator Domenici. The statement will be attached to the 
record. Thank you.
    Dr. Condon. Let me also convey our regards to the community 
here. We have very high regards as well. Mr. Chairman and 
members of the committee, I am pleased to have this opportunity 
today to share with you what science is teaching us about drug 
addiction, abuse and about heroin addiction in particular. We 
so often hear about certain drug use patterns around the 
neighborhoods from the national media, but it really doesn't 
hit home until you see the impact that drugs have within your 
own community.
    Recently, this past fall, having made a number of visits to 
the Midwest, particularly, to Des Moines and to Omaha, I 
witnessed firsthand what methamphetamine is doing to those 
communities, and they were, of course, struggling to figure out 
what to do about that as well. It's now that I am here in Rio 
Arriba County, hearing from you about the impact of black tar 
heroin, and what an impairment it's having on you, on your 
children and your families and your community that I truly 
realize that heroin is a major public health threat that 
affects us all. It brings in its wake a myriad of health, 
social, economic problems, including HIV, AIDS, and other 
infectious diseases and disruptions of families, communities, 
and societies in general.
    The good news is, however, that we do have a strong 
research base that communities can call upon in their efforts 
to combat drug abuse and addiction, and I will talk a little 
bit more directly about some of those efforts in a few minutes, 
and about some of the research-based materials that the 
National Institute on Drug Abuse has developed that can be 
useful for you in this community.
    Let me encourage you to pick up the materials that we 
brought out here, 200 copies of just about everything we have 
produced in the last couple of years in prevention and 
treatment are in the back.
    Let me focus first on the science of heroin. Heroin is an 
illegal, highly addictive drug that is sold in various forms, 
including black tar heroin. Heroin is both the most abused and 
the most rapidly acting of all of the opiates. It is processed 
from morphine, a naturally occurring substance extracted from 
the seed pod of certain poppy varieties. Heroin is actually 3 
times more potent than morphine. Because of its chemical 
structure, heroin is able to rapidly enter the brain where it 
is converted back into morphine. In the brain morphine attaches 
to the natural opioid receptors, also known as endogenous 
endorphin receptors. In fact, thanks to advances in molecular 
biology, we have now cloned at least three of the known opiate 
receptor subtypes, the so-called mu, delta, and kappa opiate 
receptors, and we are studying the mechanism of their action in 
very fine detail. Heroin can initiate its multiple 
physiological effects, including pain reduction for morphine, 
depression of heart rate and slowing of respiration. Heroin 
also acts in those receptors. However, heroin also acts on the 
brain's natural reward circuitry to produce a surge of 
pleasurable sensations. That is, in fact, why people take a 
drug because they like what it does to their brain. It modifies 
their mood, their perception and their emotional state. It 
either makes them feel good or it makes them feel better. 
However, the problem is, that pleasure doesn't last long.
    Prolonged heroin use has been found to cause pervasive 
changes in brain function. The manifestation of these brain 
changes can be seen in the development of tolerance and 
physical dependence. While those two features of heroin 
addiction actually can be managed pretty easily with 
appropriate medications, the most challenging, particularly for 
treatment providers, as you all know, are the cravings and the 
compulsive aspects of heroin addicts after addiction occurs. 
This is why we are continuing to support research that will 
help us develop innovative approaches, both behavioral and 
pharmacological, to what we now believe to be the essence of 
addiction; that is, craving and compulsive drug use.
    We are confident that we can develop even more tools to 
expand our clinical toolbox available to treatment providers. 
We have supported research on two of the most successful 
treatment regimens for heroin addiction to date--methadone and 
LAAM. LAAM is a long-acting methadone. These medications block 
effects of heroin, reduce cravings, eliminate the uncomfortable 
withdrawal symptoms that many patients can experience.
    As good as these treatments may be, however, there is no 
silver bullet for treating heroin addiction. While heroin 
addiction can successfully be treated with or without 
medications, research has shown that integrating medication, 
such as methadone and LAAM, with behavioral-based therapies is 
likely to have the most success. Behavioral therapies such as 
contingency management and cognitive-behavioral interventions 
have been found to increase the effectiveness of these 
medications.
    In an effort to give treatment providers another effective 
tool to combat heroin addiction, NIDA is working in 
collaboration with the Food and Drug Administration to bring to 
market a new medication called buprenorphine. One of the 
advantages of buprenorphine is its ability to be administered, 
with hope, in less traditional environments than methadone, 
thus expanding treatment to populations who either do not have 
access to methadone programs or who, in fact, may not be suited 
for them, such as adolescents. Buprenorphine would not be a 
replacement for methadone or LAAM but would be another 
component or option for treatment providers.
    Buprenorphine is just one of a number of new treatment 
approaches that NIDA will be testing in our soon to be launched 
National Drug Abuse Treatment Clinical Trials Network. The 
network will test new behavioral and pharmacological therapies 
that have been shown to be effective in small-scale laboratory 
studies then evaluate them, in large scale, multi-site clinical 
trials conducted in what we called ``real life settings,'' like 
the community here. Through this network, we hope to more 
rapidly and systematically bring science-based research into 
actual treatment. This community-based network will be able to 
design treatments to meet the specific needs of special 
populations, such as those in your community.
    Ultimately we know that our best treatment is, of course, 
prevention, and 25 years of prevention research has told us 
that communities can, need, and should play an active role in 
preventing drug abuse. We are attempting to provide communities 
with tools that can be used to accomplish this. We realize that 
we cannot just distribute the research, and that's why we have 
translated research from over the last few years in a way that 
is useful for communities. This is the main reason, actually, 
why we developed the first ever science-based prevention guide, 
``Preventing Drug Use Among Children and Adolescents,'' and we 
have 200 copies of that in the back. We call this the ``red 
book.'' It is a very useful manual.
    Senator, we have circulated over 200,000 copies of this 
publication in the last 2 years. We have gotten positive 
reports back. They are incredibly user-friendly documents that 
can be used by just about anyone.
    We have also collaborated with other Federal agencies, such 
as Substance Abuse and Mental Health Services Administration, 
Department of Education, and Laurie Robinson of the Department 
of Justice, the Office of Juvenile Justice and Delinquency 
Prevention, and the Bureau of Justice Assistance to help 
communities combat drug abuse. We also have an active education 
program that develops and disseminates science-based materials 
on a continuous basis. Publications such as our Research Report 
Series and our INFOFAX, which is available both in English and 
Spanish, and available on the worldwide web, provide 
information on drugs of abuse in a concise manner that is 
understandable to all.
    Again, I brought you a copy of the Heroin Research Report 
series that we have developed. There are a number of copies in 
the back as well as the INFOFAX, which has Rolodex cards 
attached to it in both English and Spanish references, because 
it is important that people have accurate, science-based 
information so that they can make healthy lifestyle choices.
    We have developed education programs. For example, we have 
produced the award winning ``Mind Over Matter'' series, and 
have launched a program called ``NIDA Goes to School.'' ``NIDA 
Goes To School,'' Senator, is a science-based drug abuse 
education information kit that can be used in the classroom. 
It's designed for middle school, grades five through nine, and 
we made a decision to send it to every middle school in the 
country, all 18,000, including Espanola Middle School, here in 
New Mexico received a copy of this material. Again it's 
designed for grades five through nine. It's designed to spark 
more than their curiosity about science, but to teach them 
about the effects of drugs on the brain and the body.

                           prepared statement

    In conclusion, it is science that is, in fact, leading the 
way with developing more effective proponents to prevent and to 
treat drug addiction. Research has already brought us a great 
distance, yet we still have a very lengthy journey.
    Thank you for inviting NIDA to participate in this panel, 
Senator, and we would be happy to answer any of your questions.
    [The statement follows:]
             Prepared Statement of Timothy P. Condon, Ph.D.
    Mr. Chairman and Members of the Committee, I am Dr. Timothy P. 
Condon, Associate Director of the National Institute on Drug Abuse 
(NIDA), one of the research institutes at the National Institutes of 
Health. I am pleased to have been invited here today with my colleagues 
to testify at this important hearing to tell you what science has 
taught us about heroin addiction.
    The National Institute on Drug Abuse (NIDA) supports over 85 
percent of the world's research on the health aspects of drug abuse and 
addiction. It does this through a comprehensive research portfolio that 
incorporates many diverse fields of scientific inquiry and addresses 
the most fundamental and essential questions about drug abuse, ranging 
from its causes and consequences to its prevention and treatment. The 
scientific knowledge that is generated through NIDA research is 
providing us with new insights into addiction, and importantly, how to 
both prevent and treat it.
    Today, in the United States, approximately 600,000 people are 
addicted to heroin. Data from several sources suggest that the number 
of people using heroin for the first time continues to escalate with a 
large proportion of these new users being young, with 90 percent being 
under the age of 26. Part of what may be fueling the rising numbers 
seen here in the Southwest is the ready availability of inexpensive 
black tar heroin. Black tar heroin derives its name from its color and 
consistency which results from the crude processing methods used to 
illicitly manufacture heroin in Mexico. Regardless of its form, black 
tar heroin is addictive with street purities ranging from 20 to 80 
percent.
    Heroin addiction is often associated with increased criminal 
activity and human suffering. In addition to the medical consequences 
of collapsed veins, increased risk of bacterial infections in the heart 
and lungs, in the past 10 years, there has been a dramatic increase in 
the prevalence of human immunodeficiency virus (HIV), hepatitis C virus 
(HCV), and tuberculosis among intravenous heroin users. From 1991 to 
1995 in major metropolitan areas, the annual number of heroin-related 
emergency room visits has increased from 36,000 to 76,000, and the 
annual number of heroin-related deaths has increased from 2,300 to 
4,000. The associated morbidity and mortality further underscore the 
enormous human, economic, and societal costs of heroin addiction. This 
is a problem that is widespread and growing and impacting every 
community in America, both rural and urban.
    The good news is that we know more about how opiates such as heroin 
and morphine work to produce their myriad of effects than almost any 
other drug. From this scientific base, researchers have been able to 
develop a number of effective weapons to combat heroin addiction.
    Heroin is chemically derived from morphine and is approximately 
three times more potent than morphine. Because of its chemical 
structure heroin is able to very rapidly enter the brain where it is 
actually converted into morphine. In the brain, morphine attaches to 
the natural opioid receptors also known as, endogenous endorphin 
receptors, where it can initiate its multiple physiological effects, 
including pain reduction, depression of heart rate and the slowing of 
respiration. It is heroin's effects on respiration, in particular, that 
can be lethal in the case of heroin overdose. Heroin also acts on the 
brain's natural reward circuitry to produce a surge of pleasurable 
sensations.
    Advances in molecular biology, are providing scientists with tools 
such as new animal models, to better understand how heroin produces its 
addictive effects at the cellular and molecular levels. For example, we 
have cloned the genes for 3 opiate receptor subtypes, the so-called, 
mu, delta and kappa opiate receptors. In the past two years, using 
state-of-the-art genetic engineering technology, we have been able to 
create new strains of ``knockout'' mice that lack each one of these 
receptor subtypes. A number of studies now point toward the mu opiate 
receptor as being critical in mediating opiates' addictive effects. 
This type of information can be invaluable in designing new, more 
effective treatment medications that can specifically target cellular 
sites relevant to addiction.
    Prolonged opiate use has been found to cause pervasive changes in 
brain function. The manifestation of these brain changes can be seen in 
the development of tolerance and physical dependence. With physical 
dependence, the body adapts to the presence of the drug and withdrawal 
symptoms often occur if use is discontinued or abruptly reduced. The 
first symptoms may occur within a few hours after the last time the 
drug is taken. The major symptoms peak between 24 and 48 hours and 
subside after about a week. However, some people have shown persistent 
withdrawal signs for many months.
    Physical dependence and withdrawal were once believed to be the key 
features of heroin addiction. We now know that this is not the case 
entirely, since craving and relapse can occur weeks and months after 
the withdrawal symptoms are gone.
    Understanding the biology of addiction has led us to develop a 
number of effective tools to treat heroin addiction and to help manage 
the sometimes severe withdrawal syndrome that accompanies sudden 
cessation of drug use. Through NIDA-supported research, for example, 
LAAM (levo-alpha-acetyl-methadol), a new drug for the treatment of 
heroin addiction was developed and is now available as a supplement to 
methadone. Both drugs block the effects of heroin and eliminate 
withdrawal symptoms. Treatment with methadone requires daily dosing. 
LAAM blocks the effects of injected heroin for up to three days. 
Research has demonstrated that, when methadone or LAAM are given 
appropriately, they have the ability to block the euphoria caused by 
heroin, if the individual does in fact try to take heroin. Methadone 
has allowed many heroin addicts to lead a productive life.
    As good as these treatments may be, there is no silver bullet for 
treating heroin addiction. Research has shown, however that integrating 
pharmacological approaches with behavioral therapies is the most 
successful approach to treating drug addiction. Behavioral therapies, 
such as contingency management and cognitive-behavioral interventions 
for example, have both been found to compliment anti-addiction 
medications, such as methadone, successfully.
    In an effort to give treatment providers another effective tool to 
combat heroin addiction, NIDA is working with the Food and Drug 
Administration and the pharmaceutical industry to bring to market a new 
medication called buprenorphine. This medication has the potential for 
administration in less traditional environments, thus expanding 
treatment to populations who either do not have access to methadone 
programs or are unsuited to them, such as adolescents. Buprenorphine 
would not be a replacement for methadone or LAAM, but yet another 
treatment option for both physicians and patients.
    Buprenorphine is just one of a number of new treatment approaches 
that NIDA will be testing in our soon to be launched National Drug 
Abuse Treatment Clinical Trials Network. This Network will serve as 
both the infrastructure for testing science-based treatments in diverse 
patient populations and treatment settings, and the mechanism for 
promoting the rapid translation of new treatment components into 
practice.
    In addition to testing new medications, a number of behavioral 
therapies such as cognitive behavioral therapies, operant therapies, 
family therapies, brief motivational enhancement therapy, and new 
manualized approaches to individual and group drug counseling are ready 
to be evaluated in real life settings. It is important to note that all 
new pharmacological therapies will be tested in conjunction with a 
behavioral therapy.
    This community based Network will enable us to design treatments to 
meet the specific needs of special populations, such as those in rural 
communities.
    Ultimately, we know that our best treatment is prevention. We also 
know that we must provide the public with the necessary tools to play 
an active role in preventing drug use in their own local communities. 
This is likely one of the reasons that the first ever research based 
guide, NIDA's ``Preventing Drug Use Among Children and Adolescents,'' 
has become one of our most popular publications since we debuted it 
almost two years ago. This user-friendly guide of principles summarizes 
our knowledge gleaned from over 20 years of prevention research. Over 
200,000 copies have been circulated to communities throughout the 
country. The prevention booklet is just one example of how we are 
bringing research to local communities, both rural and urban, to reduce 
drug use.
    NIDA is also teaming with other federal agencies, such as two 
components of the Department of Justice, the Bureau of Justice 
Assistance and the Office of Juvenile Justice and Delinquency 
Prevention to help communities combat drug addiction. In conjunction 
with the Department of Justice, we are working to implement science-
based prevention programs into schools and evaluate their 
effectiveness. All of NIDA's prevention activities reflect our 
commitment to target prevention interventions to the specific needs of 
youth at risk for drug abuse, including members of different ethnic 
groups.
    In short, we are interested in providing community's with the tools 
necessary to reduce the Nation's overall drug use. Thus, in addition to 
our research to prevent and treat drug abuse, NIDA is also concerned 
about education on these topics. NIDA has an active information 
dissemination program that develops and disseminates science-based 
materials on a continuous basis. Publications such as our Research 
Report Series and our INFOFAX, which is available on the world wide web 
or by calling an 800 number, present the latest information on drugs of 
abuse in a concise manner that is understandable to members of the 
general public.
    We also have a strong science education program to ensure that our 
Nation's youth have accurate science-based information to make healthy 
lifestyle choices. For example, we have developed award winning 
materials such as our ``Mind Over Matter'' series that was sent to 
every middle school in the Nation. ``Mind Over Matter'' is a series of 
drug education brochures for students in grades five through nine to 
spark their curiosity and to inform them with the most up-to-date 
scientific research findings on the effects of drug abuse.
    In conclusion, I would like to reiterate that 25 years of research 
has provided us with effective prevention and treatment strategies that 
can be used to combat heroin addiction, as well as other drug problems. 
Research has shown that these strategies are effective in reducing not 
only drug use but also in reducing the spread of infections like HIV/
AIDS and in decreasing criminal behavior.
    It is important that there be a sound platform of scientific 
research to build upon as communities around the country develop and 
implement their drug abuse prevention and treatment programs. NIDA 
supported research continues to lead the way in strengthening and 
expanding that platform.
    Thank you once again for inviting me to participate on this panel. 
I will be happy to answer any questions you may have regarding the 
scientific findings I just presented.

                    Trigger for coordinated response

    Senator Domenici. Thank you very much, Doctor. We are going 
to take about 10 more minutes with this panel, and then we will 
stay on time and take a brief recess and put our State 
witnesses up. I have a number of questions, but I think what I 
would prefer to do, rather than ask them, is to seek out some 
discussion with you. Let me be very honest. When the facts 
became public about the degree of addiction and abuse in Rio 
Arriba County with reference to black heroin, I was kind of 
wondering to myself, how could it get so bad without it 
triggering some big red light somewhere that would say, ``State 
government, Federal Government, State programs, Federal 
programs, law enforcement, Federal law enforcement, this is an 
epidemic we ought to be focusing on.'' And I guess I have come 
to the conclusion that we really don't have anyone that's 
supposed to do that, that I know of. If I'm wrong, I wish 
somebody would tell me, but it's only in the last couple of 
months that those who have programs, and no criticism of any of 
those programs, that they've all come to the conclusion that we 
found out about this.
    I think the first thing that kind of disturbs me--I am 
bewildered--is what should trigger a more coordinated response 
when things are so bad, or are we really going to expect the 
local government to bring it to everyone's attention? I am 
amazed at the principal law enforcement agencies that work in 
this area, DEA, which has become very elaborate, and the very 
informed Administrator of the DEA, Constantine, has become a 
primary organization, but there is no red flag set of facts 
that brings them to play in an area such as this. It has to get 
called to their attention.
    Now, having said that, we all know about it now, right? You 
know about it, presumably, and I know the U.S. Attorney knows 
about it. SAMHSA knows about it. Our Attorney General of the 
United States knows about it. We have all these State people 
that know about it. Now, they've known for a while longer, so 
they will come up here and say, ``Senator, what you are talking 
about? We knew about this,'' but that's wonderful. But the 
point is, nothing comprehensive was done by anyone, including 
me. You and I are all in the same boat, but now that we know, 
what really worries me, I do believe the network can be of 
assistance, general assistance, but I don't want to leave today 
without understanding that there's some way that some entity is 
going to pick up the coordination efforts and make sure that, 
be it SAMHSA, NIDA, or clearly it will be, for certain, 
Department of Justice, with its myriad of programs, and that 
leaves aside the law enforcement, which I assume will be doing 
their work. What I would ask, first starting with you, Laurie 
Robinson, if you know, and if there's something you can 
suggest, I think it will not do very much if we don't leave by 
the end of the day with some understanding of how is all this 
going to be put together, and frankly, I say to the local 
people, ``This is not my job. I do not choose to put this 
together over your heads,'' I just don't want to come back in 
six months and have the local people say nothing happened. 
Right, or I would like them to say we tried and maybe it didn't 
work, but I really don't think we ought to keep having hearings 
and keep on discussing what's available. Someone has to take 
this and go.
    Now, maybe I am premature and maybe the State cabinet 
members, including Alex Valdez, can tell me later how that 
would occur, and maybe the very active chairman of the County 
Commission, but could you talk to that a little bit so I feel 
more comfortable that you are not going to fall off the log too 
and not be around doing this kind of thing? Would you start, 
please?
    Ms. Robinson. Certainly, Senator. What we have seen in 
other communities around the country is, of course, and you and 
I talked about this earlier this morning, the importance of 
local engagement. This can never be something that the Federal 
Government comes in and does to the local community or even 
State government comes in, so clearly you have layers--the 
Federal, State and local--that have got to work together on 
this. And at the same time, it's stating the obvious, that the 
pieces of the Federal side have got to be coordinated.
    As I indicated earlier, we work very closely with Dr. Alan 
Leshner at NIDA, with Dr. Chavez at SAMHSA, and my 
recommendation here would be that we would be happy--if that's 
your choice--to have the Justice Department be kind of the 
center of the team, or however my colleagues would like that. 
When we send out our technical assistance team, as I indicated 
in my statement, we would plan ahead of time to coordinate, to 
make sure that the SAMHSA and the NIDA efforts are tied in 
together so that we have a collaborative approach. And then 
part of that has got to be working with the local mayors to 
have everyone at the table--going across the board from local 
law enforcement to social services, education, every piece of 
the team at the local level--to put together what we would call 
the strategic plan. That may not be about individual funding 
programs, per se, but it will identify what the needs are. And 
then what we can do coming back from the Federal side and 
working with our State colleagues, is to see where we can meet 
those needs through existing programs, and to be pretty 
creative about it. But I agree with you, it cannot be done in a 
segmented way. It can't be done in an isolated way. We have got 
to think about it as a whole.
    Senator Domenici. Doctors, in your opinion, do you have any 
comments?
    Dr. Autry. Let me just echo those sentiments. As you heard 
from my earlier comments, we are already working and activated, 
and the State is already, in point of fact, working with the 
County at this point in time to identify what kinds of needs 
there are and what sorts of training and technical assistance 
will be necessary to help meet those needs. You asked the 
question earlier about how much money is in the Targeted 
Capacity Program. There is $133 million in that program that's 
eligible to be competed for, and the knowledge, development, 
and application program is $267 million, and these monies can 
augment the already ongoing State effort.
    I want to compliment the State on having gotten to us early 
on with their concerns and having already started to work in 
looking at what the TA needs are and looking to see if there 
are applications for target capacity expansion that might be 
useful in helping address this problem. I also share Justice's 
concern that this must be done in a coordinated way. We all 
know that our population of interest has a significant overlap, 
and if we don't deal with them vividly and to go, then we are 
certainly going to miss a lot of opportunity. Similarly, as you 
heard from Dr. Condon, having the best effective treatment 
prevention, treatment and working to upgrade those in the 
community, is part of what the technical assistance will focus 
on.
    Dr. Condon. I just echo the same comments, and let me just 
mention that NIDA will be happy to participate with the 
technical assistance team, if not directly by having staff on 
site, we will be able to put the members of the team in contact 
with the NIDA researchers doing the cutting edge research on 
this topic.
    Senator Domenici. I want to thank you very much. I have 
additional questions. I am not even sure I will submit them 
because I know what we heard and what you said is what we have 
got, and I don't think I can make it any better by asking 
questions. I think we all understand our goal, and I thank you 
very much. It would be helpful and I am hopeful that the 
community will avail itself in a coordinated way without 
competition. I hope we can eliminate competition among groups 
here as to what we are doing. We have got to focus in on what 
we are going to do very soon, it seems to me, and I am not 
going to be the arbitrator in that regard. We are going to 
excuse you now, and unless you have meetings scheduled with any 
of the local people, we will not need you anymore as witnesses, 
and you are free to enjoy beautiful New Mexico for whatever 
time you are going to stay here.
                       NONDEPARTMENTAL WITNESSES

STATEMENTS OF:
        ALFREDO MONTOYA, CHAIRMAN, RIO ARRIBA COUNTY COMMISSION
        LORENZO VALDEZ, COUNTY MANAGER
        LAURAN REICHELT, DIRECTOR, HEALTH AND HUMAN SERVICES 
            DEPARTMENT, RIO ARRIBA COUNTY

    Senator Domenici. We have the County witnesses, the County-
wide strategic panel, would you please come to the witness 
table? Alfredo Montoya, Rio Arriba County Commissioner, Lorenzo 
Valdez, County Manager, and Lauran Reichelt, the Director. 
Would you please join us here and talk with us a bit?
    Shall we proceed in the order that we called you, Mr. 
Chairman, going first and then the Manager and then the 
Director. Mr. Chairman, please proceed.
    Mr. Montoya. Senator, thank you very much for your 
involvement in addressing our dilemma here. I don't think you 
quite realize how much everyone here appreciates what you are 
doing at this time, the attention that you have helped us bring 
to the situation we find ourselves in. We are extremely 
appreciative as well as all of the local people that are here 
today, and many of those that couldn't be here.
    I would like to start, Senator, if I may, recognizing some 
leaders in the community that are playing a big role in 
assisting with the epidemic that we find ourselves in. Without 
the leadership of all these individuals and some others that 
aren't here, we couldn't quite get to a solution that we want 
to get to.
    I would like to recognize my colleagues on the commission 
who are Moises Morales and Ray Tafoya. I would also like to 
recognize the President of this fine institution, the Northern 
New Mexico Community College, Sigfredo Maestas, and the Vice 
President Priscilla Trujillo. I would like to recognize also 
the municipal judge for Espanola, Mr. Charles Maestas, who is 
doing a lot in his courtroom to deal with this problem. He 
started teen court and other initiatives. Representative Nick 
Salazar was here. Debbie Rodella and Senator Arthur Rodarte 
were hoping to attend, and I am not sure if they are here, the 
mayor from our fine city, and I believe he was here earlier 
this morning. I believe he is in the audience, members of the 
City Council and members of the Santa Fe County Commission, and 
fellow officials, the people who will be on the State panel. 
They will be recognized a little later. All the other efforts, 
Senator, are dually needed, and we are very happy that they 
have all been willing to be participants in our efforts at 
addressing some of our problems here.
    I would like to start, Senator, by saying that in our role, 
in our responsibility as a county government, we are really not 
in the business of providing treatment or prevention services 
to substance abusers and families, nor are we trained to 
provide law enforcement and detention, and so forth, to the 
level that this current epidemic we find ourselves in requires. 
We have been aware of the extensiveness of the problem and the 
serious negative effects it has on our population, so when we 
were challenged to step up to the plate to provide leadership, 
we responded as local elected officials. We take our 
responsibilities very seriously, and when our families are 
distressed due to all the negative impacts that drugs generate, 
it concerns us a great deal. Locally we feel this is our 
responsibility to mobilize whatever forces are needed to deal 
with this epidemic, and here is where we are extremely grateful 
that you are responding to our call for help. We have no 
intention of being service providers, because there are plenty 
of professional people in the community that are very capable 
and can do this, but we did see a need to draw attention to our 
dilemma. We also have found a need, more than at any other time 
before, to come together as a community and as a county and as 
a region.
    We have a genuine interest, Senator, in gaining control of 
this problem that is costing us the precious lives of our loved 
ones. It's costing us the use of our limited resources that are 
desperately needed elsewhere, and it has given us a reputation 
that we wish we didn't have.
    Senator, we really don't want to be first in the nation in 
all of these negative categories. It would be wonderful if we 
had gathered here to discuss something more pleasant. Our 
community, as the statistics indicate, has a tremendous and 
enormous thirst for illicit drugs, and we all know that if we 
put all our resources into interdiction, it will not work. At 
the previous hearing that you had here, the information 
gathering hearing some weeks ago, we heard Secretary White 
indicate that law enforcement alone could not address this 
problem. So until we deal with that and work on decreasing the 
demand, we will not be successful. We have to have a balanced 
approach between interdiction, prevention, and treatment. That 
is why it's so encouraging, hearing from the previous Federal 
panel's information on all of the programs that are available 
to deal with the treatment and prevention part, as well as 
interdiction for law enforcement.
    Senator, again we are very encouraged with your 
involvement. Thank you for putting together or assembling all 
of the ingredients needed. I believe through the extensive 
resources, through SAMHSA, through NIDA, we will have a 
balanced attack on drug abuse in our area. Our role in local 
government, Senator, is to make efforts to ensure that everyone 
involved in this issue is working with one another. There will 
never be sufficient resources, and if we don't apply them 
wisely, we will not be able to get anywhere. We would like to 
see the providers of treatment working with prevention 
providers. We would like to see how law enforcement 
collaborates with providers to the extent possible. We would 
like to see primary and emergency care providers coordinating 
data and services with others, and we would like to see the 
schools very, very involved, in an effort to ensure that 
precious resources are utilized wisely, that duplication is 
minimized. We all have a game plan, as varied as it might be. 
We have sanctioned the creation of the Rio Arriba Strategic 
Plan for Substance and Alcohol Abuse, Revision and Treatment 
Plan, and my colleagues will speak a little more on that.
    I would like to close, Senator, by saying that the Federal 
panelists before us all spoke about the much needed 
coordination of civic action, that we will greatly need to 
coordinate what we are doing, and I believe that is the intent 
of this plan. I hope we can do that, and we can bring everyone 
to the table and work together on this, Senator. I will allow 
our county manager to speak on our plan.
    Senator Domenici. Please, Mr. County Manager. Glad to have 
you, and will you share some of your thoughts on what you all 
are doing together. It's good to have you with us.
    Mr. Valdez. Thank you, Senator. I have only been privileged 
to address committees one, two or three times in my life, 
actually, and it's always a little overwhelming to be able to 
speak to the government in Washington on these occasions, so 
bear with me as I gather myself for this.
    My task for the Rio Arriba Board of County Commissioners is 
to administer and to manage their directives and their view and 
their plan for Rio Arriba County and to assure that their 
statutory mission is accomplished in this community. That 
mission has four words that motivate the work that we do, and 
that is to maintain the health, safety, welfare and 
conveniences of the residents of Rio Arriba County.
    The reason that we are gathered here today is because that 
mission is being impaired in some form or fashion. The facts 
are that substance abuse that is the focus of today's 
activities impact all of the Commission's responsibilities and 
abilities to provide for the health, safety, welfare and 
convenience of our citizens is being eroded by the reality of 
the substance abuse problems in the community. I remember in 
1978, I was at my home after I had left a situation. I was 
working with youth, at a group home, and a home full of 25 kids 
for which I was a responsible parent, tough job, but the home 
was having some problems. So I left and--it was about a month 
later, a good friend of mine who is now deceased, came to my 
home and said, ``Lorenzo, I have worked with you before. Would 
you please assist me in a project that I want to undertake, 
myself and some other friends,'' that he had already 
contracted. Well, I respect this individual, so I said yes. And 
the project was the Rio Grande Center at Embudo, which is the 
alcoholism treatment facility. At that time, the State had just 
passed a law making funds available for regional alcoholism 
treatment facilities. I eventually became treatment-program 
coordinator for that program. I worked there for 6 years. I 
have maintained contact with the treatment community all along, 
and I have seen the face of substance abuse change in Rio 
Arriba County.
    To say that heroin abuse is a new drug problem in the 
county is not the case. We know that heroin has been in our 
community from the 1940s, the 1950s and has evolved. I remember 
a lot of publicity about Las Vegas during the 1960s and 1970s 
calling it ``Smack City'' and lots of our students went to 
school in that time. We know about the impact that history had 
on this community.
    To say that the Mexico connection is the source of heroin 
is a fact. It was then and is now, because we don't grow 
poppies in New Mexico, so it has to be produced and 
manufactured somewhere else, and it must grow from that site.
    What we have done in Rio Arriba County is to begin the 
planning process that is comprehensive and unified. In the 
effort to do prevention, the possibility is that we will misuse 
or mismanage the meager resources available, so we need 
everyone on board for this plan and process. It's open, it's 
available to everyone. We want everyone at the table, we want 
to ensure we have the maximum impact on the county problem. We 
have sent out notices and had numerous meetings in coming up 
with this plan. We have the expectations that the planning 
efforts will be coordinated not only for use of the resources, 
but the status and modalities that are most effective. It is 
fine to have a million dollars to spend, but then we have to 
come out with ways that are effective and take into 
consideration who we are. It's the only way that we will have a 
desired outcome, and outcome is why we do things. So we must 
really look at outcomes.
    We must also spend time working with State and Federal 
agencies. We must be realistic and look at those outcomes so 
that we know whether we are being successful. We really need to 
investigate what it is that we desire from this process. It is 
the only way that we can manage the resources effectively.
    I remember when I was working with alcohol abusers and 
alcohol addicts, because alcohol is a drug, and I was struck by 
the statement ``mind over matter,'' and the people I had in 
treatment always used to turn it over, ``if you don't mind, it 
doesn't matter.'' So we have to mind because if we don't mind, 
then nothing else will happen. We have to be certain that we 
approach this from the right perspective, and that means each 
individual has to internalize the reasons for why we are 
undertaking this mission.
    I like mission better than war because mission implies 
something religious, and today we are turning into a very 
important period in Northern New Mexico. I want to emphasize 
something that we are taught here, is that at the base of our 
motivation should be compassion, hope, charity, and if we base 
ourselves in that, we will be successful, because those are the 
factors or the virtues that make human endeavors better and 
successful in the long run.
    We need to focus on where our hearts and minds are at. I 
worry a little bit when I was reading an article in an 
interview with general--the person involved with the drug war.
    Senator Domenici. General McCaffrey.
    Mr. Valdez. Right, and how scientific discovery and 
instrumentation can help in the drug war. I was reading about 
techniques for looking through roofs and walls and listening to 
conversations two miles away. I would caution that we be very 
careful about that. Northern New Mexico is a community where 
you don't want to martialize the law here. We are very 
independent. We are very reactionary to those kinds of things, 
and you will find lots of residents. We want cooperation. We 
want people to join us, so I emphasize again that the other 
approach is one that was given to us by the mayor's favorite 
friend, and so I want to defer to that.
    Senator Domenici. Is that God?
    Mr. Valdez. I think so, yeah. Good instructor, but we have 
some good direction from there. I think if we all realize His 
mission, we can solve a lot of these problems. I think that's 
from the perspective in Rio Arriba administration, because I 
have talked to the public officials in this New Mexico county. 
They are very much influenced by those kind of sentiments, and 
like this, it's very much in the mind, and it's very much in 
the hearts. A lot of them are actually going out and isolating 
themselves so they can think about it. We need to think about 
it, and the community needs to think about it, and we need to 
deal with the afflicted, and Spanish here we call it (spoke in 
Spanish), he who is next to us. (Spoke in Spanish) He who is 
identical to us. I think that's where we need to come from in 
terms of dealing with the problem. So thank you very much.
    [The information follows:]
   Rio Arriba County Maternal Child & Health Council Substance Abuse 
                        Related Detention Costs
  Letter From the Rio Arriba Board of County Commissioners, Espanola 
                             Branch Office
                                                    March 23, 1999.

SUBJECT: COST OF ENFORCEMENT FOR SUBSTANCE AND ALCOHOL ABUSE-RELATED 
    CRIMES TO THE TAXPAYERS OF RIO ARRIBA COUNTY

    Dear Taxpayer: The Rio Arriba Maternal Child Health Council 
(RAMCHC) recently became concerned that a significant percentage of the 
County's operating budget was being used to finance the apprehension 
and detention of individuals for substance abuse-related crimes. 
Because these individuals are released into the community without 
proper treatment, they inevitably fall into abuse and crime, and are 
arrested again. Enforcement is the most expensive and least effective 
method of dealing with alcohol and substance abuse.
    The RAMCHC commissioned Shaening and Associates to determine the 
impact of substance and alcohol abuse on the county's enforcement 
budget. We learned that 38.55 percent of all inmate days at the T.A. 
detention center are the direct result of substance/alcohol abuse and 
other behavioral health problems, resulting in a cost to the County of 
$570,814. This does not include administrative costs associated with 
holding these inmates, nor does it include the cost of apprehension. 
The RAMCHC studied the period from June 1, 1997 through May 31, 1998.
    The Rio Arriba County Sheriff's Departmental budget for the current 
fiscal year is $1,108,426. Detention center costs for the current 
fiscal year are $1,857,549. This means that the County is spending a 
total of $2,965,975 out of a total operating budget of $10,186,875 on 
enforcement. In other words, Rio Arriba, an impoverished County, is 
forced to spend 29.1 percent of its total operating budget catching and 
locking up criminals. If we estimate that 38.55 percent of the 
enforcement budget is the result of substance/alcohol abuse, we can say 
conservatively that local taxpayers are spending $1,143,383 or 10 
percent of the County's operational budget holding substance abusers. 
This is money that cannot be used for schools, economic development, 
health care, roads, etc.
    Because this study is preliminary, and we still lack data about 
juveniles, women and offenses such as burglary that are indirectly 
related to substance abuse, it is safe to assume that our figures are 
extremely low. It is likely that the true figure is closer to 20 
percent, or approximately $2.2 million.
    Cost studies indicate that substance abuse is far more expensive 
than treatment. Money can be saved for communities, employers and 
families by providing an effective, comprehensive and coordinated 
substance abuse treatment delivery system.
    A recent report by the California Department of Alcohol and Drug 
Programs showed that for each dollar spent on treatment, seven dollars 
is saved in crime and health care costs. California has spent $209 
million on treatment and has estimated savings of $1.5 billion. Studies 
in Oregon have showed that once treatment was initiated, arrest rates 
dropped, as did use of the welfare and food-stamp systems.
    In fact, the study showed that wages increased by 65 percent as a 
result of treatment. Medical costs decreased simultaneously. Thus, 
every tax dollar spent on treatment produced $5.60 in avoided costs to 
the taxpayer. Similarly, Minnesota found that introduction of substance 
abuse treatment resulted in a 65 percent decrease in cost to the state 
through decreased utilization of health care facilities and prisons.
    A 65 percent decrease in substance abuse expenditures by Rio Arriba 
County could free up $1,430,000 (65 percent of $2.2 million) to benefit 
our community in other ways.
    The RAMCHC and the Rio Arriba Department of Health and Human 
Services would like to suggest that some of these savings be invested 
in our children.
            Sincerely,
                                           Lauren Reichelt,
                               Director, Health and Human Services.
                                             Joann Salazar,
                   Chair, Rio Arriba Maternal Child Health Council.
 A Report on Substance Abuse, Mental Health and Related Medical Costs 
for Individuals Incarcerated at the Rio Arriba County Detention Center, 
                      Tierra Amarilla, New Mexico
       submitted by shaening and associates, inc., june 30, 1998
                              introduction
    Shaening and Associates, Inc., was engaged by Rio Arriba County to 
examine data at the Rio Arriba County Detention Center and other 
facilities that house inmates for the County. The purpose of the study 
was to identify the detention and related costs to Rio Arriba County of 
substance abuse and/or mental health related detention. Shaening and 
Associates was assisted by interns from the Rio Arriba Works project in 
gathering portions of the data included in this report.
                       data collection procedures
    Initial interviews were held with the Administrator of Rio Arriba 
Detention, Anthony Valdez, to determine appropriate sources of data. A 
data collection process was established that included: security of 
confidential information; procedures to access records; and, use of Rio 
Arriba Works interns. At all times the detention center staff were 
cooperative and extremely helpful to this research, especially 
Administrator Valdez, Assistant Administrator Bidal Candelaria, and the 
detention center's Administrative Assistant Margie Atencio.
    Rio Arriba Detention prepares an inmate roster each day that is 
used by staff to verify the inmate population. This check of inmates is 
conducted early each morning, usually around 2 a.m. This roster 
includes name, cell location, charge, date of incarceration, bond and 
sometimes sentencing information. These daily rosters were used to 
collect most of the data in this report. The daily rosters are each 
three to four pages in length. They were examined for the period June 
1, 1997, through May 31, 1998, to create a twelve month profile.
    Daily inmate rosters were examined manually by the researcher with 
assistance at various times from three Rio Arriba Works interns. Manual 
counts were made of substance abuse and mental health related charges 
from 347 daily rosters. Rosters for eighteen additional days were not 
available. Estimates of the charges for these eighteen days were made 
by the researcher using the rosters from the day before and the day 
after each missing day. For example, if there were ten DWI charges 
(inmate days) on April 1, and eight on April 3, an average of nine was 
used to fill in the missing day. In this way a profile of a complete 
year is presented in the data reported here. In the tables of this 
report, these estimates are shown in a separate column to demonstrate 
how the total projected costs are established.
    There are also inmates whose charge status is reported as one of 
several types of warrants. These inmates are held under a warrant for 
arrest and incarceration, usually issued by Magistrate Court. The 
information that describes the underlying charge is usually forwarded 
at a later date to the Detention Center and placed in the inmate file. 
The daily inmate rosters that are created at the time of incarceration 
are not revised later to reflect the underlying charge, as this 
information is not used by the detention center staff in the daily head 
counts, though it is noted in other locations and used for other 
purposes. Therefore the daily rosters were unable to supply the charge 
or offense data for these inmates. There were usually eight to twelve 
inmates in this category on each daily roster. In order to obtain 
charge data or these inmates, the individual inmate files were examined 
to determine the underlying charge. When the charge was included in the 
file, it was recorded. Due to the time consuming nature of this task, 
only six months of data (December 1997 through May 1998) were examined 
in order to complete this report in a timely manner. The totals for 
each category of charge found and counted in this six month period were 
doubled in order to create a twelve month profile. This is reported in 
a separate column to show how total costs were determined. It may be 
appropriate, at some time in the future, to examine the data for the 
remaining six months, depending upon the future use of these data.
    There are no data included in this report for protective custody 
status and 24-hour mental health hold status. This information, which 
involves holds for observation of intoxication or mental crises but no 
criminal charges, is defined by state statute as confidential. Staff 
therefore destroy all information related to these holds. In 
interviews, staff estimate that, on average, there is no more than one 
per month of each of these categories.
    The Rio Arriba County Detention Center held an average of 72 adult 
male inmates per night during the period under study. This is the 
maximum capacity of the physical plant. Rio Arriba County has no 
facility to house female or juvenile inmates. When additional inmates 
must be held, or when there are female inmates, they are transported to 
and held by other detention facilities, including those in Santa Fe 
County, San Miguel County, Colfax County, and the City of Espanola. All 
juvenile inmates are held at the Santa Fe County Detention Center. The 
Rio Arriba County Detention Center is billed for these services.
    Billing records from these detention centers were reviewed during 
this analysis and those aggregate costs as well as estimates of the 
substance abuse and mental health related costs under study in this 
report are included in a later section. They are estimated because the 
billing records do not include information about criminal charges. Male 
inmates are housed in these facilities only due to a lack of space 
locally. There is no known reason why the patterns of criminal charges 
observed at Rio Arriba County Detention would not apply to these other 
adult male inmates. Therefore, for purposes of this report, the same 
percentage of substance abuse and mental health related costs found at 
the Rio Arriba County Detention Center is used to project similar types 
of costs for adult male inmates at these other detention centers.
    This report includes no projections for substance abuse and mental 
health related costs for female and juvenile inmates because there are 
no data on charges supplied with the billing records. Women are 
primarily housed in the Santa Fe County Detention Center, but sometimes 
also in the detention centers in San Miguel County, and Espanola. 
Juveniles from Rio Arriba County are housed in the Santa Fe County 
Detention Center.
    Male and female inmates are combined on a single listing in the 
billings from these detention centers to Rio Arriba County Detention. 
In order to make the estimates about the male inmate population housed 
at these other facilities, and for purposes of this report only, the 
billing rosters were reviewed and, using first names of inmates, gender 
was determined as male or female. This will provide a reasonably 
accurate basis upon which to include these data for this report.
    Cost data for medical care, provided by area clinics to inmates of 
Rio Arriba Detention, were examined when available by reviewing 
billings to the detention center. Though some of this information is 
relatively complete, further research into these costs is warranted in 
the future.
    Costs are segmented by source in the sections that follow, 
including: Rio Arriba County Detention Center inmates; Inmates housed 
in other Detention Facilities; and Medical Procedures provided to 
inmates in Rio Arriba County Detention Center.
                                results
Rio Arriba County Detention Center
    The Rio Arriba County Detention Center houses male inmates only. It 
housed an average of 72 inmates per day during the twelve month period 
under review, with a total of 26,302 inmate days of detention for all 
offenses or charges.
    The table below shows the inmate days for the categories of 
offenses or charges under study. The charges are grouped into five 
categories (which are detailed in five tables that follow this 
aggregate table). Those categories are DWI offenses, narcotics 
offenses, domestic and child abuse offenses, liquor/minor offenses, and 
disorderly conduct offenses.

  RIO ARRIBA COUNTY DETENTION CENTER INMATE DAYS FOR SUBSTANCE ABUSE AND MENTAL HEALTH RELATED OFFENSES AND FOR
                               ALL TYPES OF OFFENSES--JUNE 1, 1997 TO MAY 31, 1998
----------------------------------------------------------------------------------------------------------------
                                                                         Estimated
                                                           Inmate Days  Inmate Days     Projected
                          Charge                            from Daily    for Days     Inmate Days      TOTAL
                                                             Rosters      with No     from Warrant   INMATE DAYS
                                                                           Roster    Incarcerations
----------------------------------------------------------------------------------------------------------------
DWI Offenses.............................................        4,417          210            524         5,151
Narcotics Offenses.......................................        1,377           97            444         1,918
Domestic/Child Abuse Offenses............................        2,104          105            332         2,541
Liquor/Minor Offenses....................................          488           20  ..............          508
Disorderly Conduct.......................................           21  ...........  ..............           21
                                                          ------------------------------------------------------
      TOTAL SUBSTANCE ABUSE & MENTAL HEALTH RELATED              8,407          432          1,300        10,139
       INMATE DAYS.......................................
                                                          ======================================================
TOTAL INMATE DAYS FOR ALL OFFENSES.......................       25,005        1,297             NA        26,302
----------------------------------------------------------------------------------------------------------------
NA: Not available.

    A total of 10,139 inmate days was used to house inmates for the 
charges under study. This represents 38.55 percent of all inmate days 
for the twelve month period under review.
    It was observed during this study, especially from arrest reports, 
that many inmates who were incarcerated for charges not examined in 
this study, were in fact intoxicated or using narcotic drugs at the 
time of arrest, or are admitted drug users or gang members. These types 
of information are also collected by the detention center in 
assessments of inmates. It can confidently be assumed that the 
substance abuse and mental health related issues under study are 
underestimated. Estimates of the fiscal impact are thus also 
understated.
    In order to project the fiscal impact, it was necessary to examine 
the operating budget for the detention center. The total of 
expenditures for the fiscal year that ends June 30, 1998 is $1,688,779 
($1,580,129 budgeted) with some billings still outstanding. Additional 
expense of $98,400 is included in other County budget lines, also with 
outstanding billings (propane, $21,836; electricity, $28,561; $36,119, 
building maintenance; telephone, $10,812; and postage, $1,072). This 
total expense is $1,787,179. $600,000 of this is a line item for 
payment to other detention facilities for housing inmates of Rio Arriba 
County. Therefore the cost of the Tierra Amarilla facility alone is 
$1,187,179 (acknowledging some outstanding billings). This total is 
divided by the total inmate days in the table above, 26,302, for a 
calculated cost per inmate day of $45.14. When this is multiplied by 
the days noted in the table above for substance abuse and mental health 
related charges the resulting projected cost to Rio Arriba County is 
$457,674 for substance abuse and mental health related charges.
            DWI and Related Charges
    DWI and related charges were counted for the twelve month period. 
Inmate days were counted for DWI, Aggravated DWI, Reckless or Careless 
Driving, Open Container Violations, and Party to a Crime (charge levied 
against passenger in DWI vehicle).

    RIO ARRIBA COUNTY DETENTION CENTER INMATE DAYS FOR DWI AND RELATED CHARGES--JUNE 1, 1997 TO MAY 31, 1998
----------------------------------------------------------------------------------------------------------------
                                                                         Estimated
                                                           Inmate Days  Inmate Days     Projected
                          Charge                            from Daily    for Days     Inmate Days      TOTAL
                                                             Rosters      with No     from Warrant   INMATE DAYS
                                                                           Roster    Incarcerations
----------------------------------------------------------------------------------------------------------------
DWI......................................................        2,991          137            524         3,652
Aggravated DWI...........................................        1,250           64  ..............        1,314
Reckless or Careless Driving.............................          132            6  ..............          138
Open Container...........................................           26            3  ..............           29
Party to a Crime.........................................           18  ...........  ..............           18
                                                          ------------------------------------------------------
      SUBTOTAL...........................................           NA           NA             NA         5,151
----------------------------------------------------------------------------------------------------------------
NA: Not available.

            Narcotics Charges
    Narcotics charges include: trafficking in (sale of) a controlled 
substance, usually heroin or cocaine, occasionally marijuana; 
possession of a controlled substance, usually heroin or cocaine; and 
possession of drug paraphernalia.

       RIO ARRIBA COUNTY DETENTION CENTER INMATE DAYS FOR NARCOTICS CHARGES--JUNE 1, 1997 TO MAY 31, 1998
----------------------------------------------------------------------------------------------------------------
                                                                         Estimated
                                                           Inmate Days  Inmate Days     Projected
                          Charge                            from Daily    for Days     Inmate Days      TOTAL
                                                             Rosters      with No     from Warrant   INMATE DAYS
                                                                           Roster    Incarcerations
----------------------------------------------------------------------------------------------------------------
Trafficking in Narcotics.................................          585           52            208           845
Possession of Narcotics..................................          635           37            236           908
Possession of Drug Paraphernalia.........................          157            8  ..............          165
                                                          ------------------------------------------------------
      SUBTOTAL...........................................           NA           NA             NA         1,918
----------------------------------------------------------------------------------------------------------------
NA: Not available.

            Domestic and Child Abuse Charges
    Domestic and Child Abuse Charges, though not specifically substance 
abuse or mental health offenses, are presumed to have a strong 
correlation with substance abuse and mental health behaviors. The 
County has requested that they be included in this study. Domestic and 
Child Abuse Charges include: domestic violence, assault/battery against 
a household member, and violation of a restraining order; child abuse 
and criminal sexual penetration of a minor.

  RIO ARRIBA COUNTY DETENTION CENTER INMATE DAYS FOR DOMESTIC AND CHILD ABUSE CHARGES--JUNE 1, 1997 TO MAY 31,
                                                      1998
----------------------------------------------------------------------------------------------------------------
                                                                         Estimated
                                                           Inmate Days  Inmate Days     Projected
                          Charge                            from Daily    for Days     Inmate Days      TOTAL
                                                             Rosters      with No     from Warrant   INMATE DAYS
                                                                           Roster    Incarcerations
----------------------------------------------------------------------------------------------------------------
Domestic Abuse or Violence, etc..........................        1,619           79            106         1,804
Child Abuse..............................................           46  ...........  ..............           46
Criminal Sexual Penetratn. Minor.........................          439           26            226           691
                                                          ------------------------------------------------------
      SUBTOTAL...........................................           NA           NA             NA         2,541
----------------------------------------------------------------------------------------------------------------
NA: Not available.

            Liquor/Minor Charges
    Liquor/Minor Charges include: contributing to the delinquency of a 
minor; providing liquor to minors; and other liquor violations, usually 
unlawful sale or distribution (not necessarily involving a minor).

      RIO ARRIBA COUNTY DETENTION CENTER INMATE DAYS FOR LIQUOR/MINOR CHARGES--JUNE 1, 1997 TO MAY 31, 1998
----------------------------------------------------------------------------------------------------------------
                                                                         Estimated
                                                           Inmate Days  Inmate Days     Projected
                          Charge                            from Daily    for Days     Inmate Days      TOTAL
                                                             Rosters      with No     from Warrant   INMATE DAYS
                                                                           Roster    Incarcerations
----------------------------------------------------------------------------------------------------------------
Contributing to Delinquen. Minor.........................          410           19  ..............          429
Providing Liquor to Minor................................           31  ...........  ..............           31
Other Liquor Violations..................................           47            1  ..............           48
                                                          ------------------------------------------------------
      SUBTOTAL...........................................           NA           NA             NA           508
----------------------------------------------------------------------------------------------------------------
NA: Not available.

            Disorderly Conduct Charges
    Disorderly Conduct Charges have been found to frequently, if not 
always, be levied against individuals who are intoxicated, mentally ill 
and in crisis or acting out, and/or homeless individuals. For this 
reason they are included in this cost analysis. Disorderly conduct 
charges were not typically detailed on the daily inmate rosters; when 
they were specified they included charges such as fighting or 
trespassing. Other possible causes for a disorderly conduct charge 
include disturbing the peace, creating a public nuisance, loitering, 
prowling, threatening, using abusive or obscene language, reporting a 
false fire, damaging property, refusing to leave private or public 
property when ordered, obstructing an officer, etc.

       RIO ARRIBA COUNTY DETENTION CENTER INMATE DAYS FOR DISORDERLY CONDUCT--JUNE 1, 1997 TO MAY 31, 1998
----------------------------------------------------------------------------------------------------------------
                                                                         Estimated
                                                           Inmate Days  Inmate Days     Projected
                          Charge                            from Daily    for Days     Inmate Days      TOTAL
                                                             Rosters      with No     from Warrant   INMATE DAYS
                                                                           Roster    Incarcerations
----------------------------------------------------------------------------------------------------------------
Disorderly Conduct.......................................           21  ...........  ..............           21
                                                          ------------------------------------------------------
      SUBTOTAL...........................................           NA           NA             NA            21
----------------------------------------------------------------------------------------------------------------
NA: Not available.

Other Detention Facilities
            Santa Fe County Detention Center (Cornell Corrections, 
                    Inc.)
    Billing records were examined from the Santa Fe County Detention 
Center, which is operated by Cornell Corrections, Inc. Before July 
1997, it was operated by Corrections Corporation of America (CCA). 
Records for February 1998 were not available for review. For this 
reason, the review period began with May 1997. In addition, the billing 
records for May 1998 had not been received and processed as of the date 
of this report. The eleven months that were reviewed were totaled and 
annualized to create a twelve month profile.
    Since gender is not included on the rosters, adult male inmates 
were identified from inmate rosters using the first name as an 
indicator. Adult males comprise 58 percent of the population billed, 
and thus 58 percent of the total costs.
    A factor of 38.55 percent, as determined by analysis of the data 
reported above from the Rio Arriba County Detention Center, is then 
used to project a cost for substance abuse and mental health related 
charges for adult male inmates housed in the Santa Fe County Detention 
Center. Charges for inmates are recorded at the Santa Fe County 
Detention Center. These were requested of Cornell Corrections but could 
not be obtained at this time. It is therefore recommended that Rio 
Arriba County request that this information be routinely included as a 
part of the billing records so that this information will be available 
in the future.

Rio Arriba County Costs for Housing Rio Arriba County Adult Male Inmates 
at the Santa Fe County Detention Center with Substance Abuse and Mental 
Health Related Charges

Actual Cost to House Adult Inmates for 11 Months Using 
    Available Billing Data....................................  $158,594
Annualized, 12 Month Projected Cost to House Adult Inmates....  $173,012
Adult Male Inmate Days (from 11 Months' Data, using first 
    names as indicator of gender)............................. \1\ 1,170
Annualized, 12 Month Cost to House Adult Male Inmates 
    ($173,012 <greek-e> 58 percent)...........................  $100,347
Annualized Projected 12 Month Cost for Substance Abuse and 
    Mental Health Related Charges for Adult Males ($100,347 
    <greek-e> 38.55 percent)..................................   $38,684

\1\ 58 percent of total.

    As is shown in the table above, the annualized, projected 12 month 
cost to house Rio Arriba County adult male inmates (who for lack of 
space in the Rio Arriba County Detention Center are held elsewhere) in 
the Santa Fe County Detention Center is $100,347. Of this amount, 
$38,684 is estimated to be for substance abuse and mental health 
related charges.
            San Miguel County Detention Center
    Billing records were examined from the San Miguel County Detention 
Center for the period of June 1997 through May 1998. Records for 
February 1998 were not available for review. Since the February 1998 
billing information was not available, the eleven months that were 
reviewed were totaled and annualized to create a twelve month profile.
    Since gender is not included on the rosters, adult male inmates 
were identified from inmate rosters using the first name as an 
indicator. One of the eleven months of billing information did not have 
inmate rosters attached, so ten months of rosters were used to 
establish these male/female ratios. Adult males comprise 75.5 percent 
of the population billed, and thus 75.5 percent of the total costs.
    A factor of 38.55 percent, as determined by analysis of the data 
reported above from the Rio Arriba County Detention Center, is then 
used to project a cost for substance abuse and mental health related 
charges for adult male inmates housed in the San Miguel County 
Detention Center. As with Santa Fe County, it is also recommended that 
Rio Arriba County request of San Miguel County that criminal charge 
information be routinely included as a part of the billing records so 
that this information will be available in the future.

Rio Arriba County Costs for Housing Rio Arriba County Adult Male Inmates 
at the San Miguel County Detention Center with Substance Abuse and 
Mental Health Related Charges

Actual Cost to House Adult Inmates for 11 Months Using 
    Available Billing Data....................................   $86,269
Annualized, 12 Month Projected Cost to House Adult Inmates....   $94,112
Adult Male Inmate Days (from 10 Months' Data, using first 
    names as indicator of gender).............................   \1\ 695
Annualized, 12 Month Cost to House Adult Male Inmates ($94,112 
    <greek-e> 75.5 percent)...................................   $71,055
Annualized Projected 12 Month Cost for Substance Abuse and 
    Mental Health Related Charges for Adult Males ($71,055 
    <greek-e> 38.55 percent)..................................   $27,392

\1\ 75.5 percent of total.

    As is shown in the table above, the annualized, projected 12 month 
cost to house Rio Arriba County adult male inmates (who for lack of 
space in the Rio Arriba County Detention Center are held elsewhere) in 
the San Miguel County Detention Center is $71,055. Of this amount, 
$27,392 is estimated to be for substance abuse and mental health 
related charges.
            Colfax County Detention Center
    During the period in review, the Colfax County Detention Center 
held one inmate for Rio Arriba County from November 21, 1997 to May 6, 
1998. This inmate was incarcerated for substance abuse charges. The 
total cost was $11,787 as indicated on billing records, which also 
included medical costs for the inmate.
            City of Espanola Detention Facility
    The City of Espanola Detention Center also holds inmates for Rio 
Arriba County. Many of the inmates are held for very short periods of 
time (less than a day) and transported to the Rio Arriba County 
Detention Center for incarceration or to Magistrate Court for 
arraignment. Some female inmates are also held here for short periods 
of time. Billings are therefore not based on inmate days, but on 
various hourly rates. From billing records of four months that could be 
examined, the monthly charges for all inmate categories and charges 
ranges from a low of $1,584 to a high of $8,694, with monthly Rio 
Arriba County inmate totals ranging from 55 to 70.
    The four months of data that could be examined have been annualized 
below. Because of the hourly billing procedures, inmate days are not 
easily determined. However, adult male inmates were identified by first 
name and a ratio used to determine costs prorated for adult male 
inmates for the year. A factor of 38.55 percent, as determined by 
analysis of the data reported above from the Rio Arriba County 
Detention Center, is then used to project a cost for substance abuse 
and mental health related charges for adult male inmates housed in the 
City of Espanola Detention Center. As with Santa Fe County, it is also 
recommended that Rio Arriba County request of the City of Espanola 
Detention Center that criminal charge information be routinely included 
as a part of the billing records so that this information will be 
available in the future.

Rio Arriba County Costs for Housing Rio Arriba County Adult Male Inmates 
at the City of Espanola Detention Center with Substance Abuse and Mental 
Health Related Charges

Actual Cost to House Adult Inmates for 4 Months Using 
    Available Billing Data....................................   $25,398
Annualized, 12 Month Projected Cost to House Adult Inmates....   $76,194
Adult Male Inmates (from 4 Months' Data, using first names as 
    indicator of gender)......................................   \1\ 224
Annualized, 12 Month Cost to House Adult Male Inmates ($76,194 
    <greek-e> 86.8 percent)...................................   $66,136
Annualized Projected 12 Month Cost for Substance Abuse and 
    Mental Health Related Charges for Adult Males ($66,136 
    <greek-e> 38.55 percent)..................................   $25,495

\1\ 86.8 percent of total.

    As is shown in the table above, the annualized, projected 12 month 
cost to house Rio Arriba County adult male inmates (who for lack of 
space in the Rio Arriba County Detention Center are held elsewhere, and 
in the case of Espanola Detention, are housed for short periods of time 
awaiting transport to Tierra Amarilla) in the City of Espanola 
Detention Center is $66,136. Of this amount, $25,495 is estimated to be 
for substance abuse and mental health related charges.
Medical Procedures for Inmates
    Rio Arriba County Detention Center pays for medical care provided 
to its inmates. Calculation of medical costs for substance abuse and 
mental health related incidents has not been done as a part of this 
project because of the complications of dealing with confidential 
medical information. The billings to the detention center do not 
include diagnosis information as this would violate confidentiality 
requirements. It is possible that these data could be tracked by inmate 
and matched with criminal charge, which would allow at least all 
medical care costs to be calculated for inmates incarcerated under one 
of the charges in this study. However, to do this manually is a very 
large research task that falls beyond the scale of the present study. 
It also would not capture substance abuse and mental health care 
provided for other inmates. Clearly, this area requires further study.
    Medical cost data that could be collected within the present 
project are reported below and include overall medical costs to the 
detention center as billed by the clinics who serve these patients. In 
order to project a cost related to substance abuse and mental health 
related inmates, the factor of 38.55 percent (determined above from 
detention center charges) is used to prorate each aggregate medical 
cost. It should be noted that this rate produces a very conservative 
estimate of substance abuse related costs for two reasons. It is known 
that substance users or abusers use a disproportionately high level of 
medical care, both physical and behavioral. In addition, this ratio 
accounts only for projected medical costs of inmates held for substance 
abuse related criminal activity, not for substance abuse related costs 
of other inmates.
            La Clinica del Pueblo de Rio Arriba
    Information on medical costs for inmates of Rio Arriba Detention 
was received from La Clinica del Pueblo de Rio Arriba. The total of all 
charges for June 1, 1997 through May 31, 1998 for medical care of all 
types was $8,378.69 for 182 encounters; 38.55 percent of total medical 
costs: $3,229.98.
            Health Centers of Northern New Mexico (Chama)
    Information on medical costs for inmates of Rio Arriba Detention 
was received from Health Centers of Northern New Mexico. The total of 
all charges for June 1, 1997 through May 31, 1998 for medical care of 
all types was $5,779.23 for 94 encounters, 89 male, 5 female. The male 
prorated amount is $5,471.77 (94.68 percent); 38.55 percent of total 
medical costs: $2,109.36.
    Other Providers.--It is unknown what portion of the costs for other 
providers is related to substance abuse and mental health related 
charges. However, the following amounts were paid or projected for a 
twelve month period:
    Rio Drugs of Chama: information was obtained from year to date 
billings. From calendar year 1997, one half ($5,568.35) of total 
charges ($11,136.69) was used. From calendar year 1998, information on 
costs through June 6 ($4,206.63) was projected as a six month total of 
$4,853.82. The combined total of $5,568.35 and $4,853.82 is $10,422.17.
    Dr. Ray Martin (dental): total charges during the period under 
review: $937.00.
    Dr. Gabriela Munoz: total charges during the period under review: 
$167.35.
    Combined medical costs to Rio Arriba Detention Center from these 
three providers is $11,526.52. As was noted, it is unknown what portion 
of this cost is related to substance abuse and mental health charges or 
reasons. It may be appropriate to study these issues in further detail 
in the future. For substance abuse and mental health related 
projections for this study, 38.55 percent of total medical costs is 
$4,443.47
                      summary and recommendations
Summary
    The total detention related costs to Rio Arriba County for adult 
males--as reported in the body of this document--of substance abuse and 
mental health related charges, as well as projected medical costs for 
these inmates, are summarized and reported in the table below.

Rio Arriba County Costs to Rio Arriba County Originating from Detention 
of Adult Male Inmates Due to Substance Abuse and Mental Health Related 
Charges and Costs Related to Medical Care of these Inmates--June 1997 
through May 1998

        Source of Cost                                              Cost

Rio Arriba County Detention Center............................  $457,674
Santa Fe County Detention Center..............................    38,684
San Miguel County Detention Center............................    27,392
Colfax County Detention Center................................    11,787
City of Espanola Detention Center.............................    25,495
La Clinica del Pueblo de Rio Arriba...........................     3,230
Health Centers of Northern New Mexico.........................     2,109
Other Health Care Providers...................................     4,443
                    --------------------------------------------------------------
                    ____________________________________________________

      GRAND TOTAL.............................................   570,814

    As is clear from this table, the financial costs to Rio Arriba 
County, through detention, for substance abuse and mental health 
related charges are substantial.
            Recommendations
    Shaening and Associates recommends that a computerized data system 
be put in place in the Rio Arriba County Detention Center to track, in 
an integrated fashion, all cost and assessment data, including charge, 
length of stay to date, bond and sentence information, medical 
assessment information as reported by inmate, medical costs for each 
inmate, and the many other items of use to Detention Center 
administrators and the County. It is recommended that this system be 
linked to a similar system in the Magistrate Court that tracks court 
proceedings and outcomes. A similar linkage to the County's main office 
may serve the interests of all by making the accounts payable function 
automated for reporting and record-keeping functions of these large 
sums of dollars.
    Information on underlying charges and remand to custody status can 
be automatically added to client records through an integrated computer 
system linked to Magistrate Court. Until this is a reality, Shaening 
and Associates recommends that this information be recorded on a 
centralized or master list of inmates that does not otherwise add to 
the record-keeping burden of detention staff. This will allow the 
collection of not only the kinds of information in this report, but 
will have other uses as well.
    Shaening and Associates recommends that incident data for 
protective custody and mental hold cases, without identification of 
individuals, be kept by the detention center so that costs associated 
with these situations can be determined in the future.
    Shaening and Associates recommends that the County request other 
detention centers that bill Rio Arriba County for housing inmates to 
include information on charges as a routine part of the monthly billing 
process. No data on criminal charges for inmates held in other 
detention centers, male or female, are currently available to the Rio 
Arriba County Detention Center. It is possible that this information is 
available manually from Magistrate Court, but even so, an automated 
listing from other detention centers requires only a different report 
format. It is unknown whether there is a reason to also request further 
information from Santa Fe County Detention Center on juvenile 
detainees, but this should be considered as to pro's and con's, as well 
as the legal and confidentiality issues this would create.
    As noted previously, there were many observed substance abuse 
related narratives in the arrest reports of individuals not otherwise 
counted in these data. The data reported here for detention costs 
relate to specific criminal charges only, and are therefore quite 
conservative in relation to the true impact of substance abuse and 
mental health related costs. To obtain a true picture of the impact of 
substance use on the County budget for detention, it would be necessary 
to read the arrest and assessment documents for a large sample of 
inmates. However, this is a large undertaking and probably is not 
necessary for the present project.

    Senator Domenici. Thank you very much. I must confess to 
you all that having been a Senator for 26 years, it means that 
I am showing my age, and so we are going to have you talk, but 
first we are going to have a recess, and if any of you needs a 
recess, you can avail yourself of it. If not, we will start 
back up in about eight or nine minutes. We are in recess.
    [A brief recess was taken.]
    Senator Domenici. We are going to proceed now with your 
talk about the plan. Can you do that in 10 minutes?
    Ms. Reichelt. Yes.
    Senator Domenici. I would appreciate it very much. We are 
going to start. We have 10 minutes remaining with this panel, 
and then we will go with your State witnesses. Will you please 
proceed.
    Ms. Reichelt. Senator, I thank you for the opportunity to 
testify and, like our county manager, I have never even talked 
to a Senator, let alone testified, so it's a real honor and 
very intimidating.
    Senator Domenici. You talked to me before. You didn't seem 
intimidated.
    Ms. Reichelt. Right. I am the Director of County Health and 
Human Services Department for the County of Rio Arriba, and 
it's my job to try to assist our health and human-service 
providers to coordinate their activities. Originally we didn't 
start out to address the substance abuse problem. We began with 
the project called ArribaCare, which was an attempt to create a 
county-wide health care financing system, probably insurance, 
to finance primary health care for the medically indigent. What 
we very quickly found was we were looking at the indigent funds 
as a course of money for this, but we found that we could not 
even begin to think about using the indigent funds to finance 
primary care until we addressed the substance abuse problem. 
The reason for this is that the bulk of--we don't know the 
exact number. I am just guessing--it's just almost all of the 
hospital's unreimbursed costs are due to substance abuse, and 
so if we do that, we would cause a collapse of the hospital, 
which certainly wasn't our intent. I would just like to say 
that ArribaCare is a project of Robert Johnson--the policies 
and the funding. Robert Johnson was down here for this event.
    So as a result of that, we felt we had to create a 
secondary objective to ArribaCare, which is create an 
integrated prevention and treatment system, which is needed for 
emergency care, and which is totally relevant. We began by 
addressing the issue of planning around substance abuse. The 
planning method that we used was unique in that instead of 
beginning with activities to address need or demands, we began 
with creating outcomes or measures of success, and I would like 
to say right off the bat that this was an extremely 
participatory process, especially for the short period of time 
that we had to do it. We convened two workshops where we had 
all of our major providers represented, and just interested 
parties as well. We disseminated the plan to about 300 people 
with instructions for how to proceed. We went to different 
areas of the county and made the plan available for comment to 
the Chama Valley Health Coalition and to the DWI Counsel to 
include law enforcement and the people from the north. The 
final result was approved by the County last week.
    When we say we began with the indicators, what we did was 
we asked the participants to set criteria for success around 
the strategy that we targeted what we wanted to work with. So 
one of the problems that we have had with substance abuse and 
substance abuse treatment and prevention in Rio Arriba County 
is we've been spending a lot of money because we don't have 
evaluation in many cases as part of the program, and we don't 
exactly know what outcomes we are striving to achieve. The 
providers set very clear targeted outcomes, and I believe that 
this is really going to improve the quality of services in Rio 
Arriba County. I would like to say a little bit about the 
content of the plan.
    Senator Domenici. What kinds of services will they improve?
    Ms. Reichelt. It will improve both prevention and treatment 
services, and if I can expand on that a little bit by turning 
to the plan, for example, and this is on page 16 under 
``Education and Information Dissemination.'' Some of the 
outcomes that were created were improvement in academic 
performance of participants in substance abuse education 
programs. In other words, what we are asking for the State and 
the Federal Government to do is to look at that criteria when 
they fund the program. If it is not actually improving the 
behavior of the participants in the program, as opposed to just 
self-reporting that they feel better, then it's not an 
effective program. Let's see if I can find another one in here.
    There is quite a lot, I think, in terms of outcomes that we 
listed under treatments. Primarily under treatment, we really 
looked at access and creating a scope of treatment and that 
speaks more to coordination and availability of services.
    So if I skim just a little bit to the contents of the plan, 
what the providers agreed upon is that there are three 
strategies that we want to target for new activities and new 
funds this year. They want to fund treatment identification and 
referral and environmental strategy. What this means, treatment 
means treatment for substance or alcohol abuse, and we really 
have a poly-substance problem. We don't want to look at it as a 
heroin problem or an alcohol problem. We want to look at it as 
a substance dependency problem because we are finding that most 
of the people who present with poly-substance symptoms and----
    Senator Domenici. What if they're just heroin users and not 
alcoholics?
    Ms. Reichelt. If they are just heroin users, they can be 
treated simply for heroin, but in terms of funding it, one of 
the problems we have right now is a lot of the funding is 
categorical. For example, we have an alcoholism treatment 
center, that if they want to treat heroin addicts, they have to 
first prove that the patients are alcoholics. We want to get 
away from the problem and just be able to treat individuals for 
substance abuse problems, whether it's alcohol or heroin, 
whether they are youth or whether they are older.
    Senator Domenici. Well, that sounds great, but treating 
alcoholics is different than treating heroin addicts, and 
whenever you have a program to treat heroin, then you are 
suggesting that won't work unless it was poly--whatever you 
called it?
    Ms. Reichelt. No, I am not suggesting that. What we need to 
do is to create more of, I think, a continuum of treatment so 
that whatever somebody has, they can be treated for it. We want 
to eliminate the gaps in services, and to have the treatment 
providers coordinate with one another so that individuals do 
not have to go to a different place to be treated, say, for 
heroin than treated for alcohol. Or at least it's nearby, so 
that if someone does present with both problems, that it's 
possible to treat them for both problems.
    Senator Domenici. Do we have some kind of a problem here 
where the people who treat for alcoholism are concerned that 
they won't be funded, because we are going to fund heroin 
treatment?
    Ms. Reichelt. I would actually like to refer that one, if 
you don't mind, to Lorenzo as a former treatment provider.
    Senator Domenici. Let's don't do that. Let me just do this. 
We are going to make your plan a part of the record, as you 
say, but your time is very close. I want to ask a couple of 
very practical questions of any of the three of you. You know I 
have spent a great deal of time, whether I am right or wrong, I 
don't know, trying to get the Feds and State to focus on making 
available, consistent with the local needs, the maximum 
resources to help address this issue. Now frankly, I think we 
are in a position where when you finish hearing from the 
cabinet people, and you have heard the Federal people, I think 
they are going to say we are ready to do that. Now, what I am 
now beginning to worry about is are you ready for them to do 
that? I think it's very important that you all decide who it is 
that is going to be in charge of this program, and if it's more 
than one entity, then at least there ought to be somebody that 
recognizes that there's more than one. They are all trying to 
do the same thing. They are not trying to double up, and you 
already have a competition between two countywide planning 
organizations. It's not for me to decide, but you have Rio 
Arriba Family Care Network and you have La Vision del Valle, 
and frankly, sooner or later it seems to me somebody has to 
decide if the Feds and the State are going to be saying ``We 
want to come down here and work with you to get the resources 
in,'' they have to know with whom to deal. I think being a good 
manager, you know that, and I don't care if you tell me today, 
but I want to make the point that sooner or later, that must 
happen.
    Mr. Valdez. We are local government. We have our 
responsibilities to create plans for all manner of activities 
in the County, including land use, health, everything that 
impacts the health, safety and welfare of our community. We are 
not giving our responsibility to anyone. I have attended 
meetings with La Vision del Valle. There are a lot of good 
people there. I am aware of RAFCN--same thing there.
    The Board of County Commissioners, before this issue arose 
2 years ago, signed and passed the resolution designating Rio 
Arriba Family Care Network (RAFCN) as the health care council 
to the Commission. At that time, La Vision was not organized, 
and we were encouraging everyone to come to the table to help 
us plan, excluding no one.
    Ms. Reichelt. I would also like to say something about the 
structure of the relationship between the County and Rio Arriba 
Family Care Network. The Rio Arriba Family Care Network has 
members which pay a member fee and belong to a particular 
category, so we know there is commitment, and 51 percent of 
their government board has to be made up, at any time, of local 
resident direct service providers, which means that they must 
have an office in Rio Arriba, provide services in Rio Arriba 
and 69 percent of their government body must be residents in 
Rio Arriba. The reason why this arrangement has worked out with 
the providers was, first of all, the providers do not want to 
come under the County because they are afraid of patronage, and 
this was an arrangement the County worked out to ease their 
concerns, and secondly, because we need to have an entity that 
the Commission feels sure is responsive to the people of Rio 
Arriba County.
    [The information follows:]
 Adoption of Rio Arriba Strategic Plan for Substance and Alcohol Abuse 
                             and Treatment
                           resolution 1999-61
    Whereas, the Rio Arriba Maternal Child Health Council listed 
substance and alcohol abuse and their corollary impacts as the greatest 
threat to the health of the residents of Rio Arriba County in their 
most recent county-wide needs assessment.
    Whereas, the Rio Arriba Family Care Network has determined that 
ArribaCare cannot be successfully implemented without reducing un-
reimbursed hospital costs, and has determined that substance and 
alcohol abuse are the greatest contributors to that cost.
    Whereas, the State of New Mexico leads the nation and the County of 
Rio Arriba leads the state for per capita deaths attributed to heroin 
overdose.
    Whereas, the incidence of deaths attributed to homicide for both 
men and women leads New Mexico at over three times the statewide rate.
    Whereas, cirrhosis in men is a leading cause of death at over three 
times the statewide rate.
    Whereas, Rio Arriba ranks third among New Mexico counties in deaths 
of men from alcohol-related accidents and fourth in suicide.
    Whereas, Rio Arriba County ranks ninth for alcoholism, diabetes and 
HIV-AIDS related deaths, primarily from injection-drug use.
    Whereas, the Rio Arriba Years of Potential Life Lost (YPLL) index 
surpasses the state by 116.0 to 81.5. Three of the top four causes of 
death in Rio Arriba resulting in the highest YPLL are accidents, 
homicide and suicide.
    Whereas, these corollary impacts of substance and alcohol abuse 
both increase the cost of health care and decrease the quality of life 
for all Rio Arribans.
    Whereas, the County of Rio Arriba spent a minimum of $570,814 
housing inmates for crimes directly related to substance abuse over a 
one-year period from June, 1997 to May 1998.
    Whereas, the County of Rio Arriba is currently spending $2,965,975 
out of a total operating budget of $10,186,875 on enforcement. It is 
likely that tax-payers are spending at least $1,143,383, or 10 percent, 
of the County's operational budget, and probable that they are spending 
$2.2 million, or 20 percent, on substance and alcohol abuse-related 
enforcement costs.
    Whereas, The United States loses $37 billion per year from alcohol-
related illnesses and injuries, and $8 billion per year to illness and 
injury caused by drugs. Approximately $11 billion of total U.S. health 
care costs are the result of alcohol abuse. Another $4 billion are 
caused by the abuse of other drugs. In addition, we spend $16 billion 
on crimes related to property loss caused by alcohol abuse and $46 
billion on crimes related to property loss caused by other drugs. The 
County of Rio Arriba spends proportionally more per capita on substance 
abuse than the national average.
    Whereas, a recent report by the California Department of Alcohol 
and Drug Programs showed that for each dollar spent on substance and 
alcohol abuse treatment, seven dollars is saved in crime and health 
care costs. California has spent $209 million on treatment and has 
estimated savings of $1.5 billion. Studies in Oregon have showed that 
once treatment was initiated, arrest rates dropped, as did use of the 
welfare and food-stamp systems. In fact, the study showed that wages 
increased by 65 percent as a result of treatment. Medical costs 
decreased simultaneously. Thus, every tax dollar spent on treatment 
produced $5.60 in avoided costs to the tax-payer. Similarly, Minnesota 
found that introduction of substance abuse treatment resulted in a 65 
percent decrease in cost to the state through decreased utilization of 
health care facilities and prisons.
    Whereas, according to the New Mexico Department of Health, local 
providers received $780,448 for prevention of substance and alcohol 
abuse in fiscal year 1997-98, a per capita expenditure of $20.77. This 
represents the third highest per capita expenditure on substance abuse 
prevention in the state of New Mexico. Rio Arriba also surpasses the 
state-wide average for treatment services.
    Whereas, at the same time, according to the New Mexico Department 
of Health, in fiscal year 1997-98 Rio Arriba's outcome indicators for 
substance abuse (mortality, DWI and Crashes/Fatalities) were the second 
worst in the State.
    Whereas, all major Rio Arriba providers of substance and alcohol 
abuse prevention and treatment, as well as Rio Arriba providers of 
primary and emergency care gave generously of their time to participate 
in the County's planning effort.
    Whereas, representatives of justice and law enforcement were also 
included in the planning process through the DWI council, and 
representatives of the North County were included through the Chama 
Valley Health Coalition.
    Whereas, the process was science-based and comprehensive and 
participants were able to reach consensus on the need for improved 
coordination of prevention and treatment services as well as on the 
contents of a plan.
    NOW, THEREFORE, BE IT RESOLVED that The Board of Rio Arriba County 
Commissioners, representing the tax-payers and citizens of Rio Arriba 
County, has determined that addiction has become an epidemic in Rio 
Arriba County and must be addressed as an emergency using the 
principals of public health and epidemiology. This entails an inclusive 
planning process leading to a system of substance and alcohol abuse and 
prevention which is integrated into primary and emergency care. The 
Board of Rio Arriba County Commissioners adopts the Rio Arriba 
Substance and Alcohol Abuse Prevention and Treatment Plan as its 
official county plan for purposes of all health and human planning 
efforts and for coordination of new and existing services. The Board of 
Rio Arriba County Commissioners strongly urges relevant state and 
federal agencies and private foundations to require conformance with 
this plan as a condition of funding for substance and alcohol abuse 
prevention and treatment in the County of Rio Arriba.
    Passed, adopted and approved this 25th day of March, 1999.
                             Board of County Commissioners,
                                     Rio Arriba County, New Mexico.
                                   Alfredo L. Montoya,
                                             Chairman, District II.
                                   Moises A. Morales,
                                        Commissioner, District III.
                                   Ray R. Tafoya,
                                          Commissioner, District I.
    ATTEST: Fred Vigil, County Clerk.
 Rio Arriba Strategic Plan for Substance and Alcohol Abuse Prevention 
                             and Treatment
                           executive summary
    Providers agreed to target three strategies for new activity. These 
include Environmental, Treatment, and Identification & Referral. We are 
requesting your assistance locating funding for these strategies.
    We agree that consensus and coordination are essential to our 
success. We request that future funding be dependent upon our ability 
to demonstrate that: (1) the proposed activity addresses an actual 
need; (2) that the activity is an effective activity; and (3) that the 
activity is in conformance with the County's strategic plan.
    We agree that Rio Arriba must establish formal protocols and 
procedures for future planning efforts. Protocols must include the 
County's efforts at community planning, as well as provider attempts to 
initiate activities that impact one or more local governments. The 
County is working with the community and its providers to establish 
internal protocols. The County will work with local school boards, 
neighboring counties, local municipalities, tribes and regional 
entities such as the Regional Care Coordinators to establish multi-
entity protocols.
    We request that state and federal funding agencies uphold 
protocols. We have agreed to hold off on creating new alternative 
activities until protocols are in place since these activities 
frequently impact more than one local government, and are resource-
intensive. We exempt after-school care from this category as it usually 
falls under the auspices of a single entity such as a school district, 
and is sorely needed. We do request assistance locating resources for 
quality after-school care and child care.
    We recognize the need to evaluate educational prevention 
activities. We request federal assistance conducting this evaluation. 
We also request that either the county or its local health council 
conduct the evaluation in order to insure both local control and 
neutrality.
    We recognize the need to distribute educational prevention 
activities fairly throughout the County. We request the assistance of 
state and federal funding agencies in this matter.
 Rationale for a County-Wide Substance Abuse Prevention and Treatment 
                 Plan in Rio Arriba County, New Mexico
    In 1996, the Rio Arriba Maternal Child Health Council (RAMCHC) 
identified substance abuse and its corollary impacts as the greatest 
threat to the health of County residents. The incidence of deaths 
attributed to homicide for both men and women leads New Mexico at over 
three times the Statewide rate. Cirrhosis in men is also a leading 
cause of death, again at triple the state rate. Rio Arriba ranks third 
among New Mexico counties in deaths of men from alcohol-related 
accidents and fourth in suicide. Alcoholism, diabetes and HIV-AIDS 
related deaths, primarily from injection drug use, all ranked ninth. 
Besides homicide and cirrhosis, the greatest incidence of death for 
women is diabetes mellitus, which is related to poverty and lack of 
access, but which can be exacerbated by substance and alcohol abuse.
    Many years of potential life are lost due to conditions related to 
substance and alcohol abuse. Rio Arriba years of potential life lost 
index (YPLL) surpasses the state by 116.0 to 81.5. The top three causes 
of death in Rio Arriba resulting in the highest YPLL are accidents, 
homicide, suicide and malignant tumors. Rio Arriba is the second 
highest county for DWI deaths. New Mexico leads the nation in per 
capita deaths from heroin overdose, and Rio Arriba leads New Mexico.
    The Rio Arriba Maternal Child Health Council (RAMCHC) recently 
commissioned a study to determine the cost of substance abuse to tax-
payers in Rio Arriba County. Shaening and Associates examined the costs 
of adult males incarcerated for charges directly related to substance 
abuse and behavioral health such as DWI, narcotics trafficking, 
domestic violence, etc. They considered only that data which was housed 
at the TA detention center. They did not look at data for females or 
juveniles since it was not locally available. They also did not 
consider data for charges indirectly involving substances such as 
breaking and entering, since that data is housed elsewhere as well. The 
most conservative possible estimates were used in all cases. Hence, it 
can be assumed that our figures are the lowest possible estimate of the 
cost of substance/alcohol abuse to the County of Rio Arriba.
    Shaening and Associates determined that 38.55 percent of all inmate 
days at the T.A. detention center are the direct result of substance/
alcohol abuse and other behavioral health problems, resulting in a cost 
to the County of $570,814. This does not include administrative costs 
associated with holding these inmates, nor does it include the cost of 
their apprehension. The RAMCHC studied the period from June 1, 1997 
through May 31, 1998.
    The Rio Arriba County Sheriff's Departmental budget for the current 
fiscal year is $1,108,426. Detention center costs for the current 
fiscal year are $1,857,549. This means that the County is spending a 
total of $2,965,975 out of a total operating budget of $10,186,875 on 
enforcement. In other words, Rio Arriba, an impoverished County, is 
forced to spend 29.1 percent of its total operating budget catching and 
locking up criminals. If we estimate that 38.55 percent of the 
enforcement budget is the result of substance/alcohol abuse, we can say 
conservatively that local taxpayers are spending $1,143,383 or 10 
percent of the County's operational budget holding substance abusers. 
This is money that cannot be used for schools, economic development, 
health care, roads, etc.
    Because this study is preliminary, and we still lack data about 
juveniles, women and other offenses, it is safe to assume that our 
figures are extremely low. It is likely that the true figure is closer 
to 20 percent, or approximately $2.2 million.
    According to the New Mexico Department of Health, local providers 
received $780,448 for prevention of substance and alcohol abuse in 
fiscal year 1997-98, a per capita expenditure of $20.77. This 
represents the third highest per capita expenditure on substance abuse 
prevention in the state of New Mexico. Likewise, Rio Arriba County is 
outspending the rest of the state in substance abuse treatment. At the 
same time, in fiscal year 1997-98 our outcome indicators for substance 
abuse (mortality, DWI and Crashes/Fatalities) were the second worst in 
the state. High expenditures and poor outcomes indicate a lack of 
planning and oversight within this area.
    The Board of Rio Arriba County Commissioners believes that 
addiction has become an epidemic in Rio Arriba County, and that we can 
only end the epidemic through a public health approach. This entails an 
inclusive planning process leading to a system of substance and alcohol 
abuse and prevention which is integrated into primary and emergency 
care. A coordinated service delivery system will result in a reduction 
in substance abuse rates in Rio Arriba County.
    All of Rio Arriba's constituents are adversely impacted by this 
epidemic. Substance abuse depresses the local economy, impedes learning 
in the schools, decreases safety on the roads and in communities, and 
drives up the cost of health care astronomically. The Board of Rio 
Arriba County Commissioners believes it must provide leadership and 
direction to attack the epidemic.
                          the planning process
    The County of Rio Arriba has conducted its strategic planning 
process in collaboration with its designated local health council, the 
Rio Arriba Family Care Network (RAFCN). RAFCN contracted all 
facilitators, provided meals, equipment and materials, and prepared 
packets and mailings for all meetings. Beth Leopold of the Northern New 
Mexico Health Care Alliance, and Ron Hale of Hale and Associates, were 
contracted by RAFCN to lead Rio Arriba providers through a ``Systems 
Thinking'' process. We were also assisted by Christino Griego, the San 
Miguel DWI Coordinator.
    The object of Rio Arriba's planning process has been to assist 
providers to develop a science-based substance abuse prevention and 
treatment plan. The plan should aid us to integrate prevention and 
treatment into the primary and emergency care system.
    Before embarking upon any planning activities, RAFCN and the 
District II Public Health Office jointly encouraged potential 
participants to attend the New Mexico Department of Health Behavioral 
Service Division (BHSD) Espanola workshop on effective prevention 
strategies. Participation in the BHSD workshop was heavy and included 
many of the planning partners.
    Our planning tool made use of eight potential strategies: 
Environmental, Community Processes, Identification and Referral, 
Alternative Activities, Education and Information Dissemination, 
Treatment, Sustained Coordinated Effort, and Youth Development as 
Primary Prevention. The first five strategies are CSAP (Center for 
Substance Abuse Prevention) strategies, and are listed in order of 
proven effectiveness. Three more strategies were added because research 
has consistently proven their necessity: Treatment, Sustained 
Coordinated Effort, and Youth Development as Primary Prevention. In an 
ideal world, the CSAP strategy Community Processes would encompass 
Sustained Coordinated Effort. Similarly, the strategy Youth Development 
as Primary Prevention could be subsumed under the CSAP strategies 
Education and Information Dissemination, and Alternative Activities. We 
added these categories because Rio Arriba has not yet approached the 
ideal, and we wished to emphasize the purpose of the CSAP strategies. 
In other words, we wished to emphasize that Community Processes should 
lead to Sustained Coordinated Effort. Alternative Activities and 
Education/Information Dissemination should lead to Youth Development as 
Primary Prevention.
    Initially, we convened a small group of providers to set the 
workshop agenda. We then convened larger groups of providers, 
representatives of community organizations and interested citizens for 
two full-day workshops. In the first workshop we established a common 
aim: to reduce substance and alcohol abuse in Rio Arriba County, New 
Mexico. We then examined current substance abuse reduction activities 
(the resource assessment) and current gaps in services (the needs 
assessment). Finally, we began to work with participants to describe 
and identify outcome indicators.
    The systems thinking approach to strategic planning is unique 
because it encourages the group to identify measures of success before 
activities. First we all reached consensus regarding our group 
definition of success. We agreed upon outcome indicators to measure our 
success. Only then did we begin to ask ourselves what sort of 
activities would move the outcome indicators, or produce success.
    Focussing on the indicators before discussing activities insures 
that two things will happen: (1) The group will select activities 
designed to improve outcomes rather than competing over pet projects; 
and (2) the group will be encouraged to engage in continuous evaluation 
and adjustment instead putting off evaluation until project completion 
(the usual scenario).
    In our second workshop, we established general criteria for a good 
plan. We then identified criteria for selecting our target strategies 
and selected those strategies. Finally, we re-visited our outcome 
indicators for those strategies, and selected activities designed to 
move those indicators.
    A wide variety of providers attended our workshops. This included 
representatives of two school districts (Mesa Vista and Espanola), the 
Espanola Hospital, Hoy and Rio Grande Treatment Centers, Delancey 
Street, Pinon Hills, all three Rio Arriba Clinic systems, private 
practitioners, JPO, Rio Arriba DWI, North Central Community Based 
Services, Hands Across Cultures, Chimayo Crime Prevention Organization, 
Rio Arriba Works, The RAMCHC, the National Association for the Mentally 
Ill, the Welfare Reform Council, the Rio Arriba Detention Center, Las 
Cumbres and the Public Health Office. Representatives of the Pueblos 
chose not to participate as they preferred a Native American carve-out. 
The County of Rio Arriba agrees to support this alternative.
    In order to insure that the planning process is inclusive, reaching 
rural communities, law enforcement, youth and other populations, we 
will conduct mini-workshops allowing for refinement of the plan. Mini-
workshops and presentations will be conducted for the Rio Arriba DWI 
Council, the ArribaCare Steering Committee, the Chama Valley Health 
Coalition, and for youth. The Board of Rio Arriba County Commissioners 
considers this plan to be an evolving document, and will refine and 
revise it frequently.
                   the prevention/treatment continuum
    The New Mexico Department of Health (DOH) defines the substance 
abuse service delivery continuum in the following manner:
  --Prevention--Universal: services are aimed at the entire population; 
        Selective: services target subgroups of the general population 
        that are determined to be at risk for substance abuse; and 
        Indicated: services target individuals who are identified as 
        at-risk.
  --Treatment.
  --Maintenance.
    The DOH recommends that a full continuum of services be made 
available to the community. We summarized this information at the 
beginning of our planning workshop and posted it on the wall. An 
examination of the needs and resource assessments accompanying the 
strategic plan reveals huge gaps in selective and indicated prevention 
as well as treatment and maintenance. Examination also reveals an 
overabundance of universal strategies being applied in the schools, 
especially in and around Espanola. The indicators and activities 
selected under two strategies, Identification and Referral, and 
Education, are specifically designed to focus attention on selective 
and indicated prevention while discouraging the multiplication of 
universal services.
                           other doh criteria
    The DOH has identified the following components as essential to 
effective prevention strategies:
  --They reduce risk factors for substance abuse while increasing 
        protective factors.
  --They target all substances.
  --They are based on an assessment of the problem and the population.
  --They vary in intensity based on the type of problem.
  --They are interactive (for youth).
  --They are culturally appropriate.
  --They are science-based.
  --They have specific, realistic goals.
  --They have buy-in from key players and decision makers.
  --They are monitored and evaluated.
  --They involve families.
  --They build skills.
    These components were summarized prior to the workshops and posted 
on the wall. They are consequently reflected in the Rio Arriba 
Strategic Plan.
                     criteria for a successful plan
    The following criteria was selected by participants as essential 
for a successful Rio Arriba plan:
  --Applicable to diverse communities.
  --Possible, realistic, attainable.
  --Inclusive (e.g. youth, law enforcement, people in the north).
  --Language has to make sense to the community; can't be just jargon.
  --Process for local participation, continuous feedback and revision
  --Process for cooperation with RCC, Santa Fe, Taos and other 
        neighboring counties, City of Espanola and Village of Chama.
  --Continuous tracking of progress in measurable terms.
  --Culturally appropriate.
                           target strategies
    We asked the group first, to select criteria for target strategies. 
They chose the following criteria:
  --Strategy must be a foundation strategy upon which others are built.
  --Should build upon and improve what is in place.
  --Must be collaborative with broad impact.
  --Must be flexible, able to change and refine activities (without 
        bailing out too soon).
  --Must be comprehensive to include prevention, treatment and 
        maintenance.
    They then used these criteria to select target strategies. 
Environmental, Identification and Referral, and Treatment were selected 
as high priority ``foundation'' strategies. The group agreed that there 
were significant gaps in these areas that must be addressed before 
other strategies could be made successful. In addition, the group 
selected two strategies for refinement. These were Community Processes 
and Education and Information Dissemination. It was agreed that there 
is a great deal of current activity in these areas that needs 
evaluation, improvement and direction.
    The group agreed that Sustained Coordinated Effort should be 
included with Community Processes. The group also agreed to include 
Youth Development as Primary Prevention under Education.
    Two CSAP strategies, Education (which is primarily interactive) and 
Information Dissemination (which is not interactive) had been combined 
into a single strategy. The group agreed to focus on Education because 
it has been shown to be more effective than Information Dissemination, 
and to discourage Information Dissemination as the least effective of 
all CSAP strategies. It was agreed that resources are not fairly 
distributed throughout the County, resulting in too many uncoordinated 
activities in the Espanola Schools and a lack of activity in rural 
districts. The County is therefore requesting assistance from state and 
federal granting agencies to redistribute those activities.
    Finally, it was agreed that Alternative Activities, although 
exceedingly important, should not be targeted during the current fiscal 
year for several reasons:
  --Research has repeatedly demonstrated that alternative activities 
        are only effective in combination with other strategies. It was 
        therefore agreed that these activities should be addressed 
        after other strategies.
  --Research has demonstrated that alternative activities are often the 
        most expensive prevention strategies, diverting funding from 
        more effective measures.
  --The most important ingredient of successful alternative activities 
        as prevention is adult supervision. It was suggested that we 
        consider piloting small, affordable educational projects 
        involving adult-child interaction that can possibly be expanded 
        later.
  --No formal protocol currently exists to facilitate collaboration 
        amongst local governments on large projects resulting in 
        frequent project failure. This problem is especially acute in 
        the south, since the Espanola Valley straddles two counties, 
        one municipality, and several pueblos and school districts. It 
        was agreed that the community should wait to address large-
        scale alternative activities until protocols have been 
        established for inter-governmental agreement.
                              time frames
    The timeline for the Commission's initial approval of this plan is 
extremely short due to Federal and State funding time frames. A 
preliminary plan must be presented to Senator Domenici's office no 
later than Wednesday, March 24 for inclusion in testimony of the March 
30 Senate Subcommittee hearing. Procrastination beyond this date will 
prevent the Senator from working to insure that potential federal 
resources are targeted for substance abuse in Rio Arriba County in the 
coming fiscal year.
    A preliminary plan must be submitted to the Secretary of Health at 
the end of the same week. The Secretary has stated repeatedly that no 
new funds for prevention or treatment will be allotted to Rio Arriba 
County until it produces a plan.
    The County Commission will officially hear the plan at its regular 
March meeting. The official plan will then be put before other local 
governments and boards of directors for dialogue, continuing 
refinement, and ratification.
    Aim: To reduce substance and alcohol abuse in Rio Arriba County and 
its adjacent communities.
Current Substance Abuse Reduction Activities in Rio Arriba County, New 
                                 Mexico
                       (assessment of resources)
Environmental \1\
---------------------------------------------------------------------------
    \1\ Indicates that this strategy is identified as a CSAP (Center 
for Substance Abuse Prevention) strategy. CSAP strategies are listed in 
order of proven effectiveness. The three non-CSAP strategies listed in 
this section of the plan were included because research has shown them 
to be effective if not essential for the reduction of substance abuse.
---------------------------------------------------------------------------
    Presumptions: alcohol not a drug; DENIAL.
    What's really going on? Inconsistent law enforcement; 
intergenerational drug & alcohol use; lack of employment.
    What's improving? Collaboration between providers.
Community Processes \1\
    Rio Arriba Family Care Network: Coordination and improvement of 
health and behavioral health services in Rio Arriba County.
    Rio Arriba Maternal Child Health Council: Improved outcomes for 
mothers and children in Rio Arriba County.
    Rio Arriba DWI Planning Council: Reduction of DWI incidents in Rio 
Arriba County.
    Northern Neighbors Network: Substance abuse prevention in Dulce, 
Northern Rio Arriba County and Los Alamos.
    Chama Valley Health Coalition: Provider networking in Chama Valley.
    Healthier Communities ENIPC: Building a healthier community for 
Eight Northern Indian Pueblos.
    UNM CASAA: Case management and advocacy for Eight Northern Indian 
Pueblos.
    La Vision del Valle: Reduction of substance abuse in Espanola and 
Pojoaque Valley.
    North Central Providers: Networking for behavioral health providers 
in Rio Arriba and Santa Fe Counties.
    Espanola Domestic Violence Task Force: Reduction of domestic 
violence in Espanola Valley.
    Chimayo Crime Prevention Organization: Crime reduction in Chimayo.
    UNM Environmental Health Project: Improve environmental health in 
rural north central New Mexico.
    Minesterial Alliance: Networking for Churches in Rio Arriba and 
surrounding areas.
    Partnership for Raising Healthy Kids: Improved environment for kids 
in El Rito area.
    Parent/Teacher Organizations.
Identification and Referral \1\
---------------------------------------------------------------------------
    \1\ Indicates that this strategy is identified as a CSAP (Center 
for Substance Abuse Prevention) strategy. CSAP strategies are listed in 
order of proven effectiveness. The three non-CSAP strategies listed in 
this section of the plan were included because research has shown them 
to be effective if not essential for the reduction of substance abuse.
---------------------------------------------------------------------------
    NOT consistent across county or over time!
    Community advisory teams, SAT Team, hospital, police ID children at 
risk.
Alternative Activities \1\ (Times of day, county, accessibility, age 
        groups, program, youth/adult, drop-outs)
    School: County-wide.
    Day care: Some center-based services available in Espanola, Tierra 
Amarilla and Canones.
    After-school care: Very few programs available; almost non-existent 
in rural areas.
    Sports: Activities available through organized leagues such as Pop 
Warner and Little League. League activities are sporadic in rural 
areas. Limited access due to fees. Activities available through schools 
county-wide including organized team sports, swimming, and skiing. All-
day summer sports program through NNMCC in Espanola.
    Community Centers: Pueblos, Jicarilla, NNMCC, Lucero Center.
    La Clinica del Pueblo: Americorps, Academic tutoring.
    Cruise-No-Booze and Alcohol-Free Dances: County-Wide through County 
DWI.
    Natural Helpers: Building youth leadership skills in Chama Valley.
    4-H: Youth experiential learning county-wide through NMSU Rio 
Arriba County Extension Network.
    Boys and Girls Clubs: Available in Espanola Valley.
    Lunch Buddies: Mentorship program in Espanola Schools.
    Cultural Awareness Camps: County-wide through Hands Across 
Cultures, North Central Community-Based Services.
    Sky's the Limit: Youth leadership activities in Espanola and 
Pojoaque Valley.
Education and Information Dissemination \1\ (Teaching New Skills and 
        Behaviors, Information Dissemination, Press and Mass Media 
        Campaigns)
    Synar, ATOD Awareness: Espanola and Pojoaque Valley (HACC), Chama 
Valley and Dulce (NCCBS).
    ASSIST, Smoking Cessation: Espanola and Pojoaque Valley (HACC), 
(Hospital), (NCCBS).
    AA, Alanon, NA, Twelve Step Groups: Available through providers 
county-wide.
    DWI Impact Panels: Available County-wide through Rio Arriba DWI.
    Parenting Classes: Las Cumbres Learning Center (County-wide with a 
concentration of activity in Espanola Valley), NMSU County Extension 
Service (County-wide), Rio Arriba Works (for Works clients only), and 
La Clinica del Pueblo (Chama Valley).
    School Programs including Healthier Kids 2000 and Character Counts 
Hoy Alcoholism, Inc: Educational activities in the community county-
wide with a concentration of activity in Espanola Valley.
    La Clinica del Pueblo: Two Licensed Alcohol and Drug Abuse 
Counselors on staff serving Chama Valley.
    NCCBS, La Clinica del Pueblo: Family Preservation Services in Chama 
Valley.
    HACC, La Vision del Valle: Media Campaigns in Espanola Valley.
    Technical Training: UNM, NNMCC (Concentrated primarily in Espanola 
Valley).
Treatment
    Hoy Alcoholism, Inc: 12 available beds for community integration 
program (inpatient substance and alcohol abuse treatment); intensive 
outpatient treatment in Espanola and Chama; anger management and other 
groups; facilities in Espanola, branch office in Chama. Serves Region 
2.
    Rio Grande Alcoholism Treatment Program: 36 available beds for 
intermediate alcohol and substance abuse inpatient treatment for Region 
2. Facility located in Embudo.
    Pinon Hills: Inpatient Behavioral Health Services.
    Ayudantes: Methadone treatment.
    Una Ala Clinic: Methadone treatment for 125 clients.
    Esperanza: Shelter and counseling services for victims of domestic 
violence; counseling services for perpetrators.
    Crisis Center of Northern New Mexico: Shelter and counseling 
services for victims of domestic violence; counseling services for 
perpetrators.
    DWI Program: Mandatory DWI treatment for offenders.
    St Francis Academy: Counseling and case management services.
    Las Clinicas del Norte: Suicide prevention counseling.
Sustained, Coordinated Effort
    County-approved planning and policy-making bodies: County Health 
and Human Services Department, Rio Arriba Family Care Network (county-
wide coordination of health and human services), ArribaCare and 
ArribaCare Steering Committee (health care), Rio Arriba DWI Council 
(DWI enforcement and prevention), Rio Arriba Maternal Child Health 
Council (coordination of health promotion activities), Chama Valley 
Health Coalition (networking and coordination in Chama Valley).
                Youth Development as Primary Prevention
    Need to target high-risk kids, drop-outs, throw-away kids for 
services, intervention.

   DIAGRAM OF EXISTING GAPS IN DRUG AND ALCOHOL ABUSE RELATED SERVICE
                DELIVERY IN RIO ARRIBA COUNTY, NEW MEXICO
                          (Assessment of Needs)
------------------------------------------------------------------------
                 Strategy                                Gap
------------------------------------------------------------------------
Environmental.............................  Apathy
                                            Denial
                                            Youth participation in
                                             leadership
                                            Adult support
                                            Lack of adjudication;
                                             offenders are not
                                             sentenced, or are sentenced
                                             leniently; Sentences are
                                             not enforced
                                            Need to re-establish work
                                             ethic
                                            Not enough opportunity for
                                             legal economic activity
Community Processes.......................  Inconsistent distribution of
                                             information
                                            Need to consistently define
                                             membership vs.
                                             participation across
                                             coalitions
                                            Joint goals
                                            Common indicators
                                            Common language to describe
                                             treatment and prevention
                                            Need to track stability of
                                             coalitions over time
Identification and Referral...............  Teacher training around
                                             behavioral issues linked to
                                             ID and referral
                                            Process for follow-up for
                                             referrals
                                            Lack of intervention
                                             programs to refer kids to:
                                                Families of inmates
                                                Indicated intervention
                                             for at-risk youth
                                                Drug and alcohol
                                             treatment, especially for
                                             youth
                                                Counseling programs in
                                             general
                                                Counseling for families
                                             of known alcohol and
                                             substance abusers
                                                Services for children 0-
                                             5 and their families
                                            Opportunity for regularly
                                             discussing ID and referral
                                             processes
                                            Opportunity for teachers to
                                             regularly discuss drug and
                                             alcohol related problems
                                            Cannot access confidential
                                             data such as results of
                                             employer drug testing for
                                             purposes of referral.
                                            Byzantine and incomplete
                                             state welfare-to-work
                                             structure makes it
                                             impossible to refer Works'
                                             clients for DOH-sponsored
                                             welfare-to-work substance
                                             abuse treatment services
                                            Drug court.
                                            At-risk youth don't know
                                             normal emotions.
Alternative Activities....................  Few drug and alcohol-free
                                             community events and
                                             activities
                                            Lack of safe outdoor
                                             recreational equipment in
                                             schools makes it hard to
                                             start-up after-school and
                                             other programs
                                            Difficult to access
                                             community buildings such as
                                             senior centers, churches
                                             and schools
                                            Lack of access to activities
                                             because of lack of
                                             transportation
                                            No incentives for alcohol-
                                             free family celebrations
                                             such as weddings
                                            Resources unevenly disbursed
                                             throughout county; lack of
                                             activities in rural areas
                                            Lack of access to some
                                             activities because of fees,
                                             equipment costs
Education.................................  Resources, programs unevenly
                                             disbursed across County.
                                             Not enough activity in
                                             remote rural areas.
                                            Too much focus on
                                             information dissemination
                                             county-wide.
                                            Too many activities in
                                             schools take away from
                                             students' academic
                                             activities in Espanola
                                             Valley
                                            Not enough focus on families
                                             or on younger children
                                             (ages 0-5, 6-12).
Treatment.................................  Lack of financial access to
                                             existing treatment services
                                             due to:
                                                Lack of insurance/
                                             financial access
                                                Inconsistent MCO
                                             requirements for youth
                                             treatment
                                                Lack of transportation
                                             to services
                                                Laws and regulations
                                             prevent youth from
                                             accessing treatment for
                                             narcotics
                                            Women's services
                                            In-patient treatment
                                             facilities for youth
                                            Treatment for youth
                                             offenders in detention
                                             centers, ESPECIALLY for
                                             rural youth
                                            Services for families of
                                             inmates
                                            Services for families of
                                             known alcohol and substance
                                             abusers
                                            Indicated intervention for
                                             at-risk youth
                                            Indicated intervention for
                                             young children, especially
                                             ages 0-5
                                            Drug and alcohol IOP
                                             services
                                            Drug court
                                            Case management or
                                             supervised probation
                                            Follow-up--enforcement and
                                             completion of sentencing,
                                             especially around community
                                             service requirements
Sustained, coordinated effort.............  Need to develop community
                                             prevention plan
                                            Develop clear lines of
                                             leadership; who's in charge
                                             of plan development?
                                            Need to regularly evaluate
                                             progress against plan
                                            Need to update plan
                                             regularly independently of
                                             funding sources and
                                             deadlines
                                            Develop clear lines of
                                             communication with state,
                                             county and local providers
Youth Development as primary prevention...  Youth participation in
                                             leadership
                                            Alternative activities for
                                             youth
                                            Consistent youth development
                                             in and across schools
                                            Family activities
                                            Consistent standards for PTO
                                             involvement, encouragement
                                             and activity across schools
                                             and districts
------------------------------------------------------------------------


 DIAGRAM OF SELECTED STRATEGIES, INDICATORS AND ACTIVITIES FOR 1999 FOR THE REDUCTION OF SUBSTANCE ABUSE IN RIO
                                            ARRIBA COUNTY, NEW MEXICO
                                                (Strategic Plan)
----------------------------------------------------------------------------------------------------------------
             Strategies                            Indicator                             Activities
----------------------------------------------------------------------------------------------------------------
Environmental......................  Get current baseline measure of        County-wide community-based judicial
                                      attitudes regarding what is            oversight. Must include community
                                      acceptable with respect to use of      education regarding oversight
                                      alcohol, drugs and tobacco.            process.
                                     Increased rates of self-referral for   Sting operations and education aimed
                                      treatment.                             at vendors of legal substances
                                     Increased rate of adjudication/         (alcohol and tobacco).
                                      conviction for drug, alcohol-related  Educate community about what its
                                      offenses.                              norms are AFTER researching them.
                                     Increased employment levels of known   Employment assistance for recovering
                                      abusers.                               addicts.
Community Processes................  Numbers and diversity of participants  Identify central county-wide
                                      in community based planning            coordinating council.
                                      processes.                            Establish formalized structure and
                                     Existence of plan with regular          procedures to insure continuing
                                      updating.                              planning process.
                                     Services provided are in conformance   Establish standards and policy in
                                      with plan strategies and accepted      Rio Arriba County for substance
                                      standards.                             abuse prevention.
Identification and Referral........  Percentage of primary health patients  Training for school personnel and
                                      presenting substance abuse problems    providers in identification of at-
                                      who receive a referral.                risk behavior and referral process.
                                     Increase in number of referrals of     Multiple points of entry into a
                                      children from age 0 and youth to       single, coordinated intervention
                                      service providers by schools and       and treatment system.
                                      other sources.                        Train primary, emergency and
                                                                             behavioral health providers, and
                                                                             other agencies to systematically
                                                                             assess families of children age 0-5
                                                                             for behavioral health problems and
                                                                             to refer.
                                                                            Identify statutory changes necessary
                                                                             to improve referral system and
                                                                             advocate for these changes.
Alternative Activities.............    ...................................  Suspend new large-scale activities
                                                                             until protocols for inter-
                                                                             governmental cooperation have been
                                                                             established.
Education and Information            Increase in numbers of participants    Establish glossary of terms.
 Dissemination.                       in interactive education programs     Teach emotion management to children
                                      that involve families.                 and families.
                                     Increase in self-reported changes in   Indicated intervention with families
                                      knowledge, attitudes and behavior      of children 0-5.
                                      (outcomes) as a result of             Educate communities to create a
                                      involvement in substance abuse         community environment supportive of
                                      education programs.                    recovery.
                                     Improvements in academic performance   Conduct thorough assessment of
                                      and reduction in anti-social           current education and prevention
                                      behavior of participants in            services.
                                      substance abuse education programs.   Redistribute activities evenly
                                                                             across county.
Treatment and Intervention.........  Full and effective scope of treatment  Thorough needs and resource
                                      services available in community for    assessment regarding treatment
                                      all age groups.                        continuum not to exclude children
                                     Access to treatment services.........   ages 0-5.
                                                                            Increase direct intervention and
                                                                             treatment services to youth and
                                                                             families for substance abuse based
                                                                             on needs/resource assessment.
                                                                            Develop outcome tool to measure
                                                                             quality of new and existing
                                                                             services.
Sustained, Coordinated Effort......  .....................................  ....................................
Youth Development as Primary         .....................................  ....................................
 Prevention.
----------------------------------------------------------------------------------------------------------------

                   The Participatory Planning Process
    In 1997, the Rio Arriba Maternal Child Health Council compiled Rio 
Arriba's first comprehensive county-wide needs assessment. They 
identified Substance and Alcohol Abuse and its corollary impacts as the 
top threat to public health in Rio Arriba. The Board of Rio Arriba 
County Commissioners decided as a result to prioritize substance abuse.
    The Board of Rio Arriba County Commissioners was asked by the 
Secretary of Health to assist local providers to develop a coordinated 
substance abuse treatment and intervention plan. Coincidentally, our 
county-designated health council, the Rio Arriba Family Care Network, 
was funded by the Robert Wood Johnson and Kellogg Foundations to create 
ArribaCare, a county-wide health care financing system for the 
medically indigent. It was determined that ArribaCare must prioritize 
substance abuse in order to bring down high-end health care costs.
    RAFCN agreed to supply the County with professional facilitators to 
improve our planning efforts. We have prioritized the need for planning 
which emphasizes:
  --A process that insures broad involvement and consensus-building
  --A plan which is based upon sound outcome measures agreed to in 
        advance by the community
  --Activities that have been proven to work
  --A plan that calls for ongoing evaluation of all activities
  --A process that will improve coordination amongst providers.
    We held two all-day workshops (on 1/22 and 2/22) facilitated by 
individuals trained in the ``Systems Thinking'' method of planning. We 
requested that participants also attend an all-day training workshop 
sponsored by the Behavioral Health Services Division of the NMDOH in 
order to insure that all participants would have some knowledge of best 
prevention practices.
    A draft of the plan was widely disseminated to the community, at 
the request of participants, prior to the second workshop. 
Approximately one hundred copies were mailed to the community along 
with instructions for submitted verbal or written comment. Another two 
hundred copies were passed out to attendees of Senator Domenici's town 
hall along with an announcement of the next meeting and instructions 
for comment. The intent and importance of the plan were explained as 
part of the County's presentation. A number of interested citizens 
attended the February planning workshop as a result.
    The planning method itself required participants to establish 
outcome measures, or measures of success, prior to identifying 
activities. The purpose of this exercise was to insure that 
participants focus on outcomes, not on pet projects. Once outcomes were 
established, we asked participants to identify specific activities that 
would cause those outcomes to improve.
    Several complaints were raised in the workshops that there was not 
enough participation from the North, from youth, and from law 
enforcement. As a result, we placed ourselves on the agendas of the DWI 
Council, the Chimayo Crime Prevention Organization and the Chama Valley 
Health Coalition. All three entities were extremely supportive of our 
efforts. We have not yet presented the plan to youth.
    We approached Eight Northern Pueblos and were informed that they 
preferred a Native American carve-out and would prefer not to 
participate. We chose to honor their request by not soliciting other 
input from Pueblo providers.
    Currently, there is no established protocol for this type of 
planning. At each stage of the process, we asked participants, ``How 
can we do this better the next time around?'' We are incorporating 
their advice into a protocol for county-directed community health and 
human service planning efforts.
    Finally, no protocol currently exists for the planning of projects 
that involve or impact multiple local governments. The County is 
attempting to define an inter-governmental protocol. In the interim, we 
will systematically present our approved strategic plan to the 
appropriate local governments, such as school boards, municipal 
governments and neighboring counties, for ratification.
    It is the opinion of The Board of Rio Arriba County Commissioners 
that the degree of disruption our planning process has caused is the 
result of a lack of defined protocol rather than a lack of effort to 
involve the community.
    We appreciate the support you have extended to us in our efforts to 
remedy this situation.

    Senator Domenici. OK. We are going to close this part, and 
once again, I really mean this, I thank Rio Arriba County, 
under your leadership, Mr. Chairman, and you, Mr. Valdez, your 
excellent management for getting involved and taking a position 
that we have to work together and get something done. While I 
agree with Mr. Valdez, and never said anything to the contrary, 
that there has been some kind of a relationship between heroin 
and some parts of Northern New Mexico as far back as you have 
said, I will stand by the proposition that we, nonetheless, did 
not have an epidemic during all those years. And I don't know 
what that is, but I tell you what we have got is certainly 
defined as something rare and different than when it was mildly 
used by people here, and we have to unite to do something about 
it. All I am suggesting is that I don't know anyone else to 
turn to, when I leave here today and say, ``I believe we have 
got commitments from those people with resources,'' and I am 
looking for you all----
    Mr. Valdez. I think you can rest assured that we are 
working with you and the State at every level.
    Senator Domenici. And to the extent that you have got to 
resolve issues between so-called competitors for services, you 
will do it in your way. You wouldn't say it that way, but I 
will say it another way.
    Mr. Valdez. We will work with all of them.
    Senator Domenici. Thank you very much. The next panel is 
the State panel. I want to thank all three of you for your 
patience. We have to choose some order of priority, and I guess 
I chose to have you here later, with the hope that you too 
would learn something, like I did, from the testimony. Let me 
welcome you. I know all of you are very busy, but I would like 
to summarize my views for you right now and that should leave 
you with the belief that the Governor, and you all, as his 
cabinet of people, are very important to the Federal Government 
in terms of solving the problem that we are talking about. I 
think you only have to read the way we have handled a lot of 
resources to know that we send them to the State, and I think, 
Mr. Secretary, you are totally familiar with that. The fact 
that you have devoted so much time to this County and this 
problem would indicate to me that you are aware that that block 
grant money that you received--that you clearly have to find a 
way to make it do something positive here. And the same holds 
true for you, Deputy Secretary Dodson, in terms of you having 
expertise. Clearly it goes without saying, Secretary Darren 
White, that you have a big responsibility too, because 
everybody knows interdiction is part of the three legs of this 
stool, and we thank you for reminding us about getting the 
money that we hope will make your job somewhat easier. We are 
going to proceed with you, Secretary White, because you have a 
number of very important issues in New Mexico, and I want to 
make sure you get to leave here as soon as practical. Will you 
proceed, and we will make your testimony part of the record, so 
you can abbreviate it and just share with us what you would 
like everybody here to know.
STATEMENTS OF:
        DARREN WHITE, CABINET SECRETARY, NEW MEXICO DEPARTMENT OF 
            PUBLIC SAFETY
        DORIAN DODSON, DEPUTY SECRETARY, NEW MEXICO CHILDREN, YOUTH AND 
            FAMILIES DEPARTMENT
        ALEX VALDEZ, CABINET SECRETARY, NEW MEXICO DEPARTMENT OF HEALTH 
            AND HUMAN SERVICES

    Mr. White. Thank you, Chairman. I might note that visiting 
us from Las Cruces is Mr. James Jennings, who is our director 
from New Mexico HIDTA [high intensity drug trafficking area]. I 
asked him to be with us so he could hear the remarks, and I 
know we extend our gratitude for all the work that you have 
done to bring a HIDTA to Northern New Mexico where it's much 
needed.
    Mr. Chairman, even though we have been working hard to 
lessen the stranglehold of drugs in this area, there is still a 
lot of important work to be done. For too long Northern New 
Mexico has been held hostage by the trafficking and use of 
drugs in a wide variety of crimes that precipitate from drug 
activity. I believe that the combined Federal and State efforts 
represented here today marks an important breakthrough in our 
attempts to finally regain some level of peace and improved 
quality of life for this community.
    The Department of Public Safety serves as the State's 
administrator for the Federal Edward Byrne Formula Grant 
Program. This program was created by Congress in the Anti-Drug 
Abuse Act of 1988, and places emphasis on reducing violent and 
drug-related crime through the development of multi-
jurisdictional and multi-state efforts that support national 
drug-control priorities. The Department's administrative 
responsibility is to achieve this goal of interagency 
cooperation by funding such efforts with a portion of the 
State's annual Federal award.
    For a state like New Mexico, this Federal assistance is 
essential to our law enforcement efforts. Without this support, 
we could not coordinate the multiple jurisdictional task forces 
and allow us to pool our resources and intelligence for more 
effective crime fighting. And yet with the understanding that 
we will never be able to arrest our way out of this crime 
problem, we also fund local initiatives that address issues 
such as youth and gang violence, treatment for offenders, and 
domestic violence.
    These initiatives could not necessarily meet the usual 
definition of law enforcement, but they represent the important 
evolution in our understanding of law enforcement's 
responsibilities. I am talking about what is commonly referred 
to as community policing. And though it does not take a great 
deal of thought and/or planning, it is really very simple. It's 
a return to recognizing that police officers must be fully 
vested members of the community so that they can use their 
firsthand knowledge of the causes and effects of crime to do 
their job more effectively.
    So even at the risk of using a somewhat over-used phrase, I 
will say that we are ``putting our money where our mouth is.'' 
Or more specifically, when reviewing applications for these 
grant monies, the Department gives preference for those 
initiatives that foster interagency collaborative efforts to 
address prevention and intervention as well as enhanced 
enforcement. We are in the final year of a 3-year strategic 
plan and will soon begin developing the task of developing 
another multi-year strategy to reflect the priorities of the 
Department of Justice and law enforcement in New Mexico. We 
will complete a comprehensive threat assessment and then use 
this information to name the major priority issues for law 
enforcement in the coming years.
    The Department plans to complement these funded 
initiatives, which is to continue the cooperation with local 
groups such as the Chimayo Crime Prevention Organization. This 
group was formed a few years ago when a group of citizens 
decided that they could no longer accept the escalating crimes 
in their community and decided to do something about it. They 
reached out to the Department of Public Safety, and I am happy 
to say that through a joint effort by the community and the 
State police, crime in Chimayo dropped an astounding 65 
percent. We look at this partnership as a telling example of 
what can be accomplished when law enforcement and communities 
come together for a common cause, and we thank the Chimayo 
group for their tireless efforts to inform and support our 
enforcement efforts.
    Yet even with this level of success, the reality is that 
there is still much more to be done. This is why I am so 
pleased to be here today to discuss the unique opportunities 
made possible by the involvement of Senator Domenici, the 
Senate Appropriations Committee, and the Department of Justice. 
With their help, I believe we can achieve even greater success 
in Northern New Mexico. I believe we can return communities to 
their law-abiding citizens and restore a sense of hope to our 
people. And instead of Northern New Mexico serving as the 
example of drug problems, we can help make Northern New Mexico 
an example of the solutions. Thank you, Mr. Chairman.
    [The statement follows:]
                   Prepared Statement of Darren White
    Good morning. I'm glad to be here today with Senator Domenici and 
representatives from the Senate Appropriations Subcommittee on 
Commerce, Justice, State, and the Judiciary because even though we have 
been working hard to lessen the stranglehold of drugs in this area, 
there is still a lot of important work to be done. For too long, 
northern New Mexico has been held hostage by the trafficking and use of 
drugs and the wide variety of crimes that precipitate from drug 
activity. I believe that the combined federal and state effort 
represented here today marks an important breakthrough in our attempts 
to finally regain some level of peace and improved quality of life for 
this community.
    The Department of Public Safety serves as the state's administrator 
for the federal Edward Byrne Formula Grant Program. This program was 
created by Congress in the Anti-Drug Abuse Act of 1988 and places 
emphasis on reducing violent and drug-related crime through the 
development of multi-jurisdictional and multi-state efforts that 
support national drug-control priorities. The Department's 
administrative responsibility is to achieve this goal of inter-agency 
cooperation by funding such efforts with a portion of the state's 
annual federal award.
    For a state like New Mexico, this federal assistance is essential 
to our law enforcement efforts. Without this support, we could not 
coordinate the multi-jurisdictional task forces that allow us to pool 
resources and intelligence for more effective crime fighting. And yet, 
with the understanding that we will never be able to ``arrest'' our way 
out of our crime problem, we also fund local initiatives that address 
issues such as youth and gang violence, treatment for offenders, and 
domestic violence.
    These initiatives don't necessarily meet the usual definition of 
law enforcement but they represent an important evolution in our 
understanding of law enforcement's responsibilities. I'm talking about 
what is now commonly referred to as ``community policing.'' And, though 
it does take a great deal of thought and planning, it's really very 
simple. It's a return to recognizing that police officers must be fully 
vested members of the community so that they can use their firsthand 
knowledge of the causes and effects of crime to do their job more 
effectively.
    So, even at the risk of using a somewhat over-used phrase, I'll say 
we've ``put our money where our mouth is.'' Or more specifically, when 
reviewing applications for these grant monies, the Department gives 
preference to those initiatives that foster inter-agency collaborative 
efforts to address prevention and intervention as well as enhanced 
enforcement. We are in the final year of a three-year strategic plan 
and will soon begin the task of developing another multi-year strategy 
to reflect the priorities of the Department of Justice and New Mexico 
law enforcement. We will complete a comprehensive threat assessment and 
then use this information to name the major priority issues for law 
enforcement in the coming years.
    The past year has been spent educating applicants about our plans 
to increase the focus given to prevention efforts. As a result, each 
initiative requesting money for the next funding cycle will have to 
identify a specific prevention component of their program. Then, to be 
considered for continued funding, their efforts will be subject to 
specific performance-based evaluations to determine the success of 
their drug abuse and crime prevention measures.
    The Department plans to complement these funded initiatives by 
continued cooperation with local community groups such as the Chimayo 
Crime Prevention Association. This group was formed a few years ago 
when a group of citizens decided that they could no longer accept the 
escalating crimes in their community and decided to do something about 
it. They reached out to the Department of Public Safety and I am happy 
to say that through a joint effort by the community and the State 
Police, crime in Chimayo has dropped by an astounding 65 percent. We 
look at this partnership as a telling example of what can be 
accomplished when law enforcement and communities come together for a 
common cause and we thank the Chimayo group for their tireless efforts 
to inform and support our enforcement efforts.
    Yet, even with this level of success, the reality is that there is 
still much more to be done. This is why I am so pleased to be here 
today and discuss the unique opportunities made possible by the 
involvement of Senator Domenici, the Senate Appropriations Committee, 
and the Department of Justice. With their help, I believe we can 
achieve even greater success in northern New Mexico. I believe we can 
return communities to their law-abiding citizens and restore a sense of 
hope to our people. And, instead of northern New Mexico serving as an 
example of drug problems, we can help make northern New Mexico an 
example of solutions.

    Senator Domenici. Thank you very much. Secretary Valdez, 
could I indulge you and just ask Secretary White a couple of 
questions and then let him leave? He has informed me he is 
supposed to be in the other side of the State. Secretary White, 
we have a Byrne Grant Fund, and the grants are awarded annually 
by the department. The grants are named after a victim of high 
visibility for whom great empathy and sympathy was aroused, and 
we named it after that person. What portion of the State's 
Byrne Grant funds are used specifically for anti-drug programs, 
if you know?
    Mr. White. Mr. Chairman, we receive $4 million each year. 
Sixty percent of those funds, roughly $2.4 million have been 
awarded for several regional programs for funding the 14 
different narcotics task forces across the State. They include 
operation supervisor, contract accounts, confidential funding, 
overtime, and operating costs of those task forces. About 9 
percent, roughly $362,000 was awarded to the New Mexico Gang 
Task Force, local agencies for youth and gang involvement. 
Those are for training school resource officers, so that's more 
of the prevention component of that program, sir.
    Senator Domenici. Well, we now know that Northern New 
Mexico has a very severe and serious problem proportionately 
speaking, worse than any other county, and this region will be 
affected soon. Is sufficient of the Byrne funds, whatever it 
can be used for, coming to this area? Are you putting enough 
resources in here, in your opinion?
    Mr. White. No, Mr. Chairman, we were not, to this point, 
putting in the resources necessary, and I think that goes to 
what we have been talking about with the designation of a HIDTA 
and how important that will be to us.
    Senator Domenici. So that may be corrected in the next 
month?
    Mr. White. Mr. Chairman, that is our hope.
    Senator Domenici. All right. A little bit about community-
based law enforcement. I have not been a very big advocate of 
the Federal Government telling us how to do community policing. 
Nonetheless, the Federal Government put some money into 
community policing. What are the components of a successful 
community program, if you were to have one in New Mexico?
    Mr. White. Well, Mr. Chairman, I would only reflect on the 
crime prevention organizations.
    Senator Domenici. That is kind of one with----
    Mr. White. That is, absolutely, and one of those components 
of that program was, when it was first introduced, Mr. 
Chairman, we had to recognize that we had limitations, that the 
community has limitations, as well as law enforcement. I think 
we talked--we have to talk about first that old adage, Mr. 
Chairman, that we all had to recognize that we had a problem. 
That's the first step, and I'm not saying that the community 
had a problem. It's been acknowledged that law enforcement has 
a problem as well, because if there is an epidemic of the 
proportion in Rio Arriba County with heroin, that it was not 
just a community problem, that it is a law enforcement problem 
as well.
    Senator Domenici. Well, let me move for a minute to 
prevention, and you know well the DARE Program, I assume we 
still have it in some places. Strangely enough, while it 
appears on the surface, if you attend these DARE classes and 
saw the promotional aspects of it, one would conclude that it 
is very effective. It seems like the Federal Government's 
evaluation of it is that it's not very effective in that we had 
two budgets where the President vetoes it out, I assume not 
because he didn't like DARE, but because he funded something he 
thought might be more effective.
    What do you suggest with reference to law enforcement 
officials being involved in prevention, or would you rather 
just wait for the plan to evolve and see how law enforcement 
gets into the plan?
    Mr. White. Mr. Chairman I don't think we can take a back 
seat. I think we have to be pro-active in that arena as well. I 
do know that the DARE program has been a very good public 
relations tool for law enforcement across this county, but as a 
means of reducing drug use and discouraging drug use in our 
country, I don't think it's actually met up to that goal. I do 
see some programs throughout New Mexico, such as some of the 
PAL programs, the Camp Courage Program that is put on, which 
has the direct involvement of law enforcement, these are a few 
programs that I think are successful, and again, it goes back 
to, Mr. Chairman, of again recognizing the limitations. We 
would like to be the be-all, end-all, the panacea to all the 
problems, but we cannot be that.
    Senator Domenici. I have no further questions. If I have 
anything else, I will submit them and you can answer them for 
the record. You are excused. Thank you very much for your 
patience in being with us today.
    Mr. White. Thank you very much for this opportunity.
    Senator Domenici. Secretary Valdez, I assume you are in a 
position of statewide concern, but you have special concern 
since you live here with your beautiful and wonderful wife, 
Rosemary, who worked in my office while you went to school. Now 
your four daughters, who are grown up, live here, and we are 
prepared to say that you are going to work very hard to make 
the State money do something positive in this county. Could you 
share with us your remarks.
    Mr. Valdez. I will, Senator. Senator Domenici, 
distinguished guests and members of the public, I thank you for 
taking great interest in Northern New Mexico, and in a serious 
problem which we have inflicted on our great State and our 
great country. This problem is the use, dependency, and 
addiction to illegal and legal drugs. Before I discuss 
strategies to address this most critical of problems, I want to 
discuss what this problem means to me as a New Mexican and a 
native of Espanola, NM.
    We are gathered here in Espanola, my hometown, where I was 
born and raised and where I have chosen to raise my family. I 
have always cherished my upbringing in this valley with its 
grand vistas, wonderful cultures and rich history. Anyone who 
enters this valley need only look to the Sangre de Cristo 
Mountains, with their snow caps, to our centuries old churches, 
to our Rio Grande River, to understand what this valley means 
to its inhabitants. Throughout history many have been 
captivated by its beauty, people, and way of life, and have 
elected to stay. We welcome all who come and who will bring 
good will. New Mexico is known as the Land of Enchantment. When 
you look out upon this valley, it is a microcosm of all that 
this State has to offer.
    As a parent, I know what I want for my four daughters. I 
want them to grow up safe. I want them to be kind and 
understanding. I want them to be well-educated and successful. 
I want them to love our Lord. I want them to be proud of their 
community. I am sure that every other parent in this valley and 
in this State wants the same for their family.
    What a contrast to be gathered here today not to celebrate 
our great fortunes but to discuss the tragedy inflicted on our 
children, families, and friends as a result of substance abuse. 
There is a pale cloud hanging over the Land of Enchantment 
which threatens to undermine the very fabric which holds our 
community together and makes us a great State. That is the 
havoc inflicted on persons, families and communities when 
heroin, cocaine and amphetamines and other drugs are imported, 
manufactured or grown in this state, and sold for a tremendous 
profit without consideration for the resulting trail of 
destruction. This occurs while the profiteer of the drug trade 
lives among us and enjoys this Land of Enchantment.
    As Cabinet Secretary for the Department of Health and Human 
Services in New Mexico, I am able to witness firsthand the 
effects of substance abuse on our State. Many people who find 
themselves in a state of poverty find an outlet through the use 
of illegal drugs. The use of illegal drugs lead to further 
degradation of the family structure, abuse and neglect of 
children, and a continual downward spiral for every person in 
the family. The state of poverty for many becomes a way of life 
rather than a temporary condition. Substance abuse leads to low 
birth weight babies whose lives are continually challenged. 
When we look at many children who are developmentally delayed, 
we can attribute the developmental delay to substance abuse. 
When we consider the abuse and neglect of children, we know 
substance abuse is a contributing factor. When we look at 
children with behavioral problems, who act out through violence 
and crime, drop out of school, and have low self-esteem, we 
know they are 2 to 6 times more likely to use alcohol and drugs 
than their peers. When we look at people with other mental 
health problems, we know that as drug use increases, the level 
of depression increases, and self-esteem decreases. Hepatitis B 
and C, which are rampant in New Mexico, HIV, AIDS, and other 
infectious diseases can find themselves spreading, particularly 
through a needle-exchanging, drug-using population. Let us 
spend a Friday or Saturday night at the local emergency room in 
our community, and we will see firsthand the effects of an 
overdosing segment of our population and the stresses it places 
on our health care delivery system.
    Senator, it is important that we send clear messages about 
the public policy we are going to pursue when addressing 
substance abuse. As Secretary of Health, I am a strong 
proponent and supporter of our interdiction efforts to reduce 
the supply of drugs. I want to thank you and others for your 
efforts in increasing the Federal presence in New Mexico in 
protecting our borders and looking inwardly to reduce the 
supply of drugs. Our understaffed law enforcement agencies have 
an incredible and often dangerous challenge in confronting the 
interdiction of drugs. A Federal response, well-coordinated 
with our local law enforcement agents, will only serve to 
improve our interdiction efforts. As we step up our 
interdiction efforts, we must also support our prosecutor and 
court system as well as our corrections systems to assure 
speedy and long-term punishment for the drug profiteer.
    I believe our response to illicit drug use must be like a 
three-legged stool. The first leg is interdiction. The second 
leg of this stool must be a well-coordinated and financed 
prevention strategy to employ with our youth. The State of New 
Mexico recently received a State incentive grant from the 
Department of Health and Human Services to improve our 
prevention strategies in our community. Prevention specialists 
must be well-coordinated in their approach to children in our 
communities. Their efforts must be outcome based with the 
ultimate outcome being a measurable reduction in the use of 
drugs within a reasonable time frame. We, as legislators, 
administrators, providers and the taxpaying public should not 
settle for anything less.
    A request for proposals, Senator, for this grant was issued 
last week. It is a $2.4 million grant which is well-coordinated 
through the Governor's office prevention activities throughout 
the State. The various State agencies that are represented on 
the coordinating agreement advisory committee established by 
Governor Johnson represents over $10 million that flow into the 
State already for purposes of substance abuse prevention. The 
SID grant, which will be given to providers or entities in 
communities, will be used to address prevention strategies, 
assure that they are well-coordinated in our communities, and 
assure that there are measurable outcomes that are coming from 
the strategies. It's very important that we convey the matter 
to the treatment provider and communities that they are 
employing tactics which are not effective, and we will cease 
funding those tactics. We also need to be scientific-based and 
look for the best strategies possible and the SID grant allows 
us to do that.
    Senator Domenici. Mr. Secretary, the three Federal 
witnesses are involved in prevention and treatment. Two of them 
spoke about scientific information, with reference to both 
prevention and treatment. This is now a critical mass of how to 
do things that might work because they've been tried, and there 
is experimentation and research, but now I am fully aware that 
we cannot have the same prevention program that Concord, NH has 
(where the chairman of this subcommittee comes from). Are you 
suggesting that it would be the prerogative of you, as a 
representative of the Governor, as far as this $2.4 million, 
and what portion we may get up here, to determine in some way 
an effective program with reference to prevention? Who is going 
to make those kinds of decisions?
    Mr. Alex Valdez. Senator, the coordinating entities which 
have been established will be making these decisions.
    Senator Domenici. Is Rio Arriba represented on that?
    Mr. Alex Valdez. Senator, I don't believe that Rio Arriba 
is represented as a county, although I am a member of that 
coordinating committee.
    Senator Domenici. Well, I think it's very important, Mr. 
Secretary. And I want to tell you I think that drug problems 
exist everywhere in New Mexico, but if we are going to have a 
comprehensive program here then we end up trying to say, 
``Look, it's a pilot, it's going to work, and I have got a 
better chance than we thought 6 months ago.'' You know, we have 
to have some assurance that every graphic of this situation is 
going to be called to the attention of this group, and I assume 
you are telling us publicly you will see to that?
    Mr. Alex Valdez. Senator, what we will see to is that we 
get sound proposals coming out of Rio Arriba so that we can 
consider those proposals at the State level, but it will 
receive very, very sound scrutiny, and, I am sure, a lot of 
importance.
    Senator Domenici. All right. Thank you.
    Mr. Alex Valdez. Senator, the third leg of this stool is 
treatment. Treatment has been underfunded in this country and 
in this State for a number of years. We must all agree that if 
we do not treat the drug user, he or she will continue to 
present a demand for drugs. As long as there is a demand for 
drugs, someone, someplace will figure out how to provide the 
supply. As long as there is a demand and thus a need for 
supply, the drug user will continue to commit crimes and bring 
harm to the citizenry of our county, State and Nation. Once 
again, we all have a responsibility to convey clear messages 
that for the majority of drug users, we expect to see an 
improvement in their condition to the point where they are drug 
free. We should not settle for anything less. To accept, for 
instance, that maintenance through methadone is a goal to be 
achieved for the heroin addicted user is to send the message to 
our youth that: ``you can become addicted and we will then 
figure out how to maintain you for the remainder of your 
life.'' I believe we must accept strategies that recognize that 
being drug free is the goal. While we are cognizant that people 
will relapse, we must also accept that relapsing is a temporary 
condition, and we will try again for a drug free lifestyle.
    In terms of treatment, Senator, the New Mexico State 
Legislature just passed this legislative session authorizing 
legislation to allow the Department of Health to organize, on a 
regional basis, our regional care coordination. We see the 
establishment of a regional solution with a regional care 
coordinating entity, one who will address issues within that 
region in terms of eligible determination, in terms of making 
the process as streamlined as possible to get people into 
treatment.
    Senator Domenici. Is that bill going to be signed?
    Mr. Valdez. Yes, it's going to get signed. This is an 
assurance, Senator, that our treatment is appropriate for the 
needs in our community. If there is a demand for more bed 
space, we measure that and we fund that. If there is a demand 
for sounder after-care programs, we develop those with our 
provider communities, and see those types of activities locally 
driven, regionally driven with our providers, our counties and 
other workers to see as sound a system develop as is possible 
for the region. Our providers in Rio Arriba are participating 
in that effort, and we look forward to seeing them continue 
with that participation.
    Senator Domenici. Mr. Secretary, might I ask, with 
reference to treatment, you also heard those who have spent a 
great deal of time and resources, that were on the first panel, 
talking about kinds and quality of treatment where successes 
are more apparent, and there are ways to do it better than 20 
years ago. I understand that in this County, there are far more 
alcohol treatment beds than there are treatment beds for 
heroin; is that correct?
    Mr. Alex Valdez. Yes, Senator, that is correct. Once again, 
one of our previous speakers alluded to categorical funding 
under the Federal block grant. It's broken down in terms of how 
you designate a portion of that dollar, and historically it's 
been designated more on the alcohol side of the equation. The 
State has funded more treatment beds for alcohol in Rio Arriba 
County, in fact, than any other part of the State.
    Senator Domenici. What about treatment beds for heroin?
    Mr. Alex Valdez. Senator, there are available resources and 
treatment beds can be utilized, even here in Rio Arriba County, 
for purposes of heroin. We also have treatment beds at 
Turquoise Lodge in Albuquerque. It's our intent to see that we 
work to fund and establish more treatment beds for heroin and 
some of the other harder drugs as we proceed forward.
    Senator Domenici. Mr. Secretary, I want to make a point 
with you, if I might, and then I surely will let you finish. I 
am sorry for interrupting, but let me suggest that if we are 
going to put together a comprehensive program here that people 
will support, it's quite obvious to me that it has to be taken 
very seriously and looked at very seriously. If we are very 
serious about all three of the legs of the stool, as you 
adequately called it, then whether the treatment center works 
and is ultimately 100 percent successful, or 50, may not be the 
question. The question may be are we doing the best job to pick 
the best treatment, and then are we trying to provide 
treatment? I think the people are saying we want that as a 
component of this, because while we know this is bad stuff, we 
have a great deal of empathy for those who are already victims. 
I don't see us succeeding if we aren't making an effort there 
that is very visible and can be looked at and observed and say, 
``We are really trying.''
    So do you gather that from your meetings up here and your 
participation?
    Mr. Alex Valdez. Yes, Senator, I do. I think to a certain 
extent the fact that the Federal dollars flow down in a 
categorical fashion. There are ways, there are means, and it 
shouldn't be looked at as a prohibitive factor to keep us from 
being able to expand our treatment beds for purpose of heroin 
addiction. Second, we've commenced the process of working on 
the education component and the training component from the 
local providers. In fact, we brought a researcher out of the 
University of Austin on Friday to this same campus to hold a 
day-long seminar with all of our treatment providers about what 
is some of the most recent and cutting-edge form of treatment 
that we can possibly do. We absolutely need to continue 
enhancing the skills and abilities of our treatment providers 
to make sure that we are as effective as quickly as possible 
with the population that we are serving.
    Senator Domenici. You understand, Mr. Secretary, that this 
morning both NIDA and SAMHSA pledged their expertise and 
assistance to you, and I assume that you would avail yourself 
of that, if needed, am I correct?
    Mr. Alex Valdez. That is correct. Senator, we've already 
taken advantage of one of the technical assistance grants 
coming out of SAMHSA. That's a $60,000 grant, and we had a 
function here in Rio Arriba at this campus, I believe, about a 
week and a half ago, on that technical assistance grant. We are 
also preparing proposals for the statewide prevention needs 
assessment through SAMHSA, as well as looking for a capacity 
expansion grant which will be targeted for purposes of Northern 
New Mexico.
    Senator Domenici. Thank you very much.
    Mr. Alex Valdez. Our prevention and treatment providers 
must also be well-educated and trained in terms of the latest 
and most effective strategies for prevention and treatment. 
Thus scientific-based practices with continual research 
activities are necessary to assure we are employing the most 
sophisticated practices in our work.
    Lastly, we must recognize that government neither has all 
of the solutions nor does it have the sole responsibility for 
addressing these matters. Personal responsibility for our own 
actions and family responsibility for our families is where 
this matter is ultimately going to be addressed. We have 
responsibilities as adults to not abuse drugs and alcohol 
ourselves. We have a responsibility to not look lightly on 
those among us who do. We have a responsibility to be 
accountable for our own actions. Parents have a responsibility 
to educate our children as to the ill effects of drugs. We have 
a responsibility to seek treatment for our loved ones who are 
engaged in the use of illicit drugs. We have a responsibility 
to our communities to make sure that we testify and cooperate 
with those who are trying to rid our communities of illicit 
drugs.
    I want to close by commending the citizens of Rio Arriba 
and Northern New Mexico. We recognize we have a problem. We are 
gathered today to continue our efforts to address this problem. 
We are proud of our State and citizens of the Espanola Valley. 
Through the concerted efforts of those you see gathered today, 
we will rid our community of this great cloud hanging over us. 
With your assistance, we will continue to be the Land of 
Enchantment. Thank you, Senator.
    [The statement follows:]
                   Prepared Statement of Alex Valdez
    Mr. Chairman, Senators, distinguished guests and members of the 
public, I thank you for taking great interest in New Mexico, in 
Northern New Mexico, and in a serious problem which we have inflicted 
on our great state and our great country. This problem is the use, 
dependence and addiction to illegal and legal drugs. Before I discuss 
strategies to address this most critical of problems, I want to discuss 
what this problem means to me as a New Mexican and a native of 
Espanola, New Mexico.
    We are gathered here in Espanola, my home town, where I was born 
and raised and where I have chosen to raise my family. I have always 
cherished my upbringing in this valley with its grand vistas, wonderful 
cultures and rich history. Anyone who enters this valley need only look 
to the Sangre de Cristo Mountains, with their snow caps, to our 
centuries old churches and to our Rio Grande River to understand what 
this valley means to its inhabitants. Throughout history many have been 
captivated by its beauty, people and way of life and have elected to 
stay. We welcome all who come and who will bring good will. New Mexico 
is known as the Land of Enchantment. When you look out upon this 
valley, it is a microcosm of all that this state has to offer.
    As a parent, I know what I want for my four daughters. I want them 
to grow up safe. I want them to be kind and understanding. I want them 
to be well educated and successful. I want them to love our Lord. I 
want them to be proud of their community. I am sure that every other 
parent in this valley and in this state wants the same for their 
families.
    What a contrast; to be gathered here today not to celebrate our 
great fortunes, but to discuss the tragedy inflicted on our children, 
families and friends as a result of substance abuse. There is a pale 
cloud hanging over the Land of Enchantment which threatens to undermine 
the very fabric which holds our communities together and make us a 
great state. That is the havoc struck on persons, families and 
communities when heroin, cocaine, amphetamines and other drugs are 
imported, manufactured or grown in this state and sold for a tremendous 
profit without consideration for the resulting trail of destruction. 
This occurs while the profiteer of the drug trade lives among us and 
enjoys this Land of Enchantment.
    As Cabinet Secretary for the Department of Health and Human 
Services in New Mexico, I am able to witness first hand the effects of 
substance abuse on our state. Many people who find themselves in a 
state of poverty find an outlet through the use of illegal drugs. The 
use of illegal drugs leads to further degradation of the family 
structure, abuse and neglect of children and a continual downward 
spiral for the person and the family. The state of poverty for many 
becomes a way of life rather than a temporary condition. Substance 
abuse leads to low birth weight babies whose lives are continually 
challenged. When we look at many children who are developmentally 
delayed, we can attribute the developmental delay to substance abuse. 
When we consider the abuse and neglect of children, we know substance 
abuse is a contributing factor. When we look at children with 
behavioral problems who act out through violence and crime, drop out of 
school and have low self esteem, we know they are two to six times more 
likely to use alcohol or drugs than their peers. When we look at people 
with other mental health problems, we know that as drug use increases 
the level of depression increases and self esteem decreases. Hepatitis 
B and C, HIV/AIDS, and other infectious diseases can find themselves 
spreading particularly through a needle exchanging drug using 
population. Let us spend a Friday or Saturday night at the local 
Emergency room in our communities and we will see first hand the 
effects of an overdosing segment of our population and the stresses it 
places on our health care delivery system.
    It is important that we send clear messages about the public policy 
we are going to pursue when addressing substance abuse. As Secretary of 
Health, I am a strong proponent and supporter of our interdiction 
efforts to reduce the supply of drugs. I want to thank Senator Domenici 
and others for their efforts in increasing the Federal presence in New 
Mexico in protecting our borders and looking inwardly to reduce the 
supply of drugs. Our understaffed law enforcement agencies have an 
incredible and often dangerous challenge in confronting the 
interdiction of drugs. A Federal response, well coordinated with our 
local law enforcement agencies, will only serve to improve our 
interdiction efforts. As we step up our interdiction efforts we must 
also support our prosecutorial and court system as well as our 
corrections systems to assure speedy and long term punishment for the 
drug profiteer.
    I believe our response to illicit drug use must be like a three 
legged stool. The first leg is interdiction. The second leg of this 
stool must be a well coordinated and financed prevention strategy to 
employ with our youth. The State of New Mexico recently received a 
State Incentive Grant from the Department of Health and Human Services 
to improve our prevention strategies in our communities. Prevention 
specialists must be well coordinated in their approach to children in 
our communities. Their efforts must be outcome based with the ultimate 
outcome being a measurable reduction in the use of drugs within a 
reasonable time frame. We as legislators, administrators, providers and 
the tax paying public should not settle for anything less.
    The third leg of this stool is treatment. Treatment has been under 
funded in this country and in this state for a number of years. We must 
all agree that if we do not treat the drug user, he or she will 
continue to present a demand for drugs. As long as there is a demand 
for drugs, someone, someplace, will figure out how to provide the 
supply. As long as there is a demand and thus a need for supply, the 
drug user will continue to commit crimes and bring harm to the 
citizenry of our state and nation. Once again, we all have a 
responsibility to convey clear messages that for the majority of drug 
users we expect to see an improvement in their condition to the point 
where they are drug free. We should not settle for anything less. To 
accept, for instance, that maintenance through methadone is a goal to 
be achieved for the heroin addicted user is to send the message to our 
youth that you can become addicted and we will then figure out how to 
maintain you for the remainder of your life. I believe we must accept 
strategies that recognize that being drug free is the goal. While we 
are cognizant that people will relapse, we must also accept that 
relapsing is a temporary condition and we will try again for a drug 
free life style.
    Our prevention and treatment providers must also be well educated 
and trained in terms of the latest and most effective strategies for 
prevention and treatment. Thus, scientific based practices with 
continual research activities is necessary to assure we are employing 
the most sophisticated practices in our work.
    It is not enchanting that New Mexico leads the nation in drug 
related deaths and alcohol related mortality. This county leads the 
state in drug related deaths. In fact, New Mexico's illicit drug death 
rate has doubled in the last nine years. Eighteen percent of our eighth 
graders report using illegal drugs other than Marijuana as compared to 
12 percent nationally.
    Last summer, two young men murdered a youth of this community by 
throwing him over the Rio Grande Gorge bridge in order to steal his car 
so they could sell it for drugs. It impacted the victim's family with 
the grief and tragedy of the loss of a son with a bright future, the 
judicial and corrections system who must deal with the perpetrators, 
and all of us who must pay for the system. We are all the losers, the 
addicted who perpetrate the crimes to feed their addictions, the 
families who must live the dehumanizing cycle addiction brings to their 
family members, those families and individuals victimized by the crime 
and trafficking of drugs, and all of us who must pay to cope with this 
ever increasing problem in our hospitals, emergency medical systems, 
courts and prisons.
    Lastly, we must recognize that government neither has all of the 
solutions nor does it have the sole responsibility for addressing these 
matters. Personal responsibility for our own actions and family 
responsibility for our families is where this matter is ultimately 
going to be addressed. We have responsibility as adults to not abuse 
drugs and alcohol ourselves. We have a responsibility to not look 
lightly on those among us who do. We have a responsibility to be 
accountable for our own actions. Parents have a responsibility to 
educate our children as to the ill effects of drugs. We have a 
responsibility to seek treatment for our loved ones who are engaged in 
the use of illicit drugs. We have a responsibility to our communities 
to make sure that we testify and cooperate with those who are trying to 
rid our communities of illicit drugs.
    I want to close by commending the citizens of Rio Arriba and 
Northern New Mexico. We recognize we have a problem. We are gathered 
today to continue our efforts to address this problem. We are proud of 
our state and being citizens of the Espanola Valley. Through the 
concerted effort of those you see gathered today we will rid our 
community of this grey cloud hanging over us. With your assistance, we 
will continue to be the Land of Enchantment.

    Senator Domenici. Thank you very much. I want to raise one 
other issue.
    [Clapping in background.]
    Go ahead and clap. I would say to you that's normally not 
permitted, but it's fine with me if you give a big round of 
applause to Alex. He is doing a splendid job, and I will 
participate with you in applauding him.
    Mr. Secretary, before we move to our next witness, I 
suggest to you that one of the dimensions in the prevention 
area that we are finding across this land as working, is to 
find some things for the young people, that have nothing 
whatsoever to do, to do after school hours. In fact, that might 
apply to both of you. If it fits you, you can respond to my 
observation also.
    You know, we all look around for activities and activity-
type institutions that can do this and provide opportunities 
for our young people. We, in Congress, have grown so weary of 
putting aside money for cities and counties and saying, ``Here, 
do a program where the children can participate,'' only to find 
they are not really capable of doing that. They are not really 
in that business. We tried something very different. We tried 
funding--with nobody filing any lawsuits--we funded directly 
Boys and Girls Clubs. And frankly, I was part of a couple of 
Senators that said, ``Why don't we put even more in than 
that?'' And last year, I recall, we put $40 million directly 
into Boys and Girls Club facilities. New Mexico is getting its 
share of those. I understand we have a Boys and Girls Club 
facility at Santa Cruz, but we don't have one here in this 
county because it appears that there are more than one 
competing for doing this activity, and I surely don't want to 
put you in the middle of this. This is local, but I really 
believe Congress has found something here, and that is, there 
is a method to the Boys and Girls Clubs that is consistent, 
reliable, and it works. We are probably going to continue to 
fund more and more of them. I wish in your efforts here that 
you would join, not by way of indicating which one of the 
people or the entities' choosing (trying to get funding here 
prevails), but rather that Boys and Girls Club will probably 
have more resources over time, and we ought to surely attempt 
to do something here in this county to do that. If either of 
you wants to comment, I would appreciate hearing from you on 
that issue.
    Mr. Alex Valdez. Senator, you are exactly right in terms of 
the need for us to make sure that our children are engaged as 
much as possible while in school as well as after school, and, 
indeed getting their homework done in the evenings and things 
of that nature. Anything we can do after school to see that 
kids are active in a positive sense, whether it be sports or 
music or arts, is only going to benefit those children. It's 
absolutely necessary that we quickly resolve whatever conflicts 
and challenges we have in our community to see that we are 
moving quickly and expeditiously to receive the funding and get 
the services to provide to kids in the after-school arena, and 
we will support efforts, particularly efforts that are going to 
reach conclusion quickly.
    Senator Domenici. Secretary Dodson, would you care to 
provide us with your testimony at this point? Your written 
remarks will be made a part of the record. If you want to 
abbreviate, that would be helpful.
    Ms. Dodson. Thank you, Senator. I am here representing the 
secretary, Deborah Hartz, who deeply regrets that she could not 
be here today. She cares very much about this issue. The 
mission of the Children, Youth, and Families Department is to 
enhance the safety, dignity and well-being of children, youth, 
and families in New Mexico. We provide a variety of services 
designed to protect children and adults from abuse, neglect, 
and exploitation, to hold juvenile offenders accountable for 
their actions and rehabilitate them; to prevent abuse, reduce 
juvenile crime, promote quality child care and support healthy 
families.
    How does this relate to substance abuse, specifically 
heroin abuse, and specifically in Rio Arriba County? We know 
that many of the families we serve have multiple problems and 
that substance abuse is one of them. Substance abuse is a 
contributing factor too, as well as a symptom of the stress and 
problems facing these families. To address heroin abuse, 
therefore, we must put it in the context of all the factors, 
problems, and issues that keep families from being healthy.
    Like the Department of Health and Public Safety, the 
Children, Youth, and Families Department addresses this and all 
the problems in our mandate on two fronts. We have heard 
prevention and intervention over and over again today. Both are 
essential components of our services. If we don't prevent, 
children, youth and their families become addicts and abuse 
each other or get in trouble with the law, and they even lack 
the basic brain development that we now know must happen in the 
early years of a child's life.
    If we don't intervene, those already affected by addiction, 
abuse, neglect, those in trouble with the law, and those 
forever disenfranchised because some critical bonding or 
development didn't take place in early years, will develop more 
problems and problems of even greater magnitude. And of course, 
heroin abuse is one of those problems that we see in families 
with these problems where there was no prevention or 
intervention. Heroin addiction and other substance abuse and 
their underlying causes and effects, obviously, must be 
prevented and treated--but we all know that. We've been saying 
that.
    In Rio Arriba County, my Department provides over $1 
million for direct services in areas of counseling for high 
risk youth, non-secure alternatives to detention, preschool 
programs, domestic violence shelter care, child care, mentoring 
and many, many others. And of course, we have field officers 
for protective services for children and adults and juvenile 
probation as well as child care services. So given the 
resources provided to Rio Arriba by CYFD and its sister 
agencies, coupled with the other funding streams and program 
initiatives, why don't we solve the problem? Why is the 
problem, as we've already heard, becoming worse?
    Through our own staff and contract providers, we have 
learned a lot about the heroin addiction in Rio Arriba County. 
We have learned that the traditional treatment model, such as 
methadone, while somewhat successful for some adult 
populations, is not as successful with the adolescents in Rio 
Arriba County. Providers are researching other effective 
treatment methods for juveniles. Model programs with success in 
other states offer intensive outpatient programs combining 
education, psychological, and medical treatment for 
adolescents. The key of the success of these models appears to 
be that they address both the physical and emotional issues of 
the client and work extensively with the family, but I think 
anyone in this room who has worked with these clients could 
have told us that a long time ago.
    It is our responsibility to support treatment providers in 
Rio Arriba County with the necessary child and family support 
services. We know there's an increase in the number of women 
and juveniles with heroin addiction in Rio Arriba County. Some 
women who need our domestic violence services appear to be 
using heroin as a means of self-medicating to cope with violent 
home situations. Therefore, it is our responsibility to assist 
service providers for victims of domestic violence in Rio 
Arriba County who help them regain their sense of self-worth 
and to become emotionally self-sufficient. This is the first 
stop in becoming financially self-sufficient and capable of 
making major life choices for themselves.
    More and more adolescents are being referred to our service 
providers after discharge from a residential treatment center 
for heroin addiction. One agency reported to us recently a 
notable lack of success with this population due to the multi-
generational aspect of addiction, and we heard some of that 
discussion earlier. Adolescents go back into families which are 
using and into communities where drug dealers pursue them to 
resume drug usage. It is therefore our responsibility to 
continue to enhance and augment the services to adolescents, to 
provide them with choices, skills and support systems to resist 
these terrible pressures.
    Of course, every agency and group represented here today 
cannot, in isolation, solve this problem. Coordination of and 
communication amongst the various services and programs related 
to substance abuse in Rio Arriba is essential, and I would like 
to answer one of your earlier questions. Secretary Valdez has 
brought that group together that is coordinating substance 
abuse prevention grants and has really insisted upon and made 
sure a lot of different players got to the table, and it's very 
important that we do so. We have learned from each other in 
that process.
    Finally, and of course, none of these outside-looking-in 
coordination efforts will work without the willingness and 
guidance of the County, comprised of its many distinct and 
unique communities, leaders and citizens in acknowledging, 
recognizing and addressing the underlying problems and custom-
designing the strategies and programs to combat and prevent 
drug abuse and addiction. Without a total system commitment to 
address the underlying problems, including poverty, 
unemployment, school dropout rates, all of the things we have 
heard here today already, we are not going to be able to get 
rid of heroin abuse. Each of us represented here today, 
including the leaders, parents, teachers and youth of Rio 
Arriba, has a right to name its problem and, of course, to 
share responsibilities of solving it.
    CYFD has worked with the Department of Health, the Human 
Services Department, State and legislators and other State 
agencies, tribal representatives and many others to develop the 
Children's Health Insurance Program in New Mexico. In addition 
to expanding basic coverage for children up to 235 percent of 
poverty, which in and of itself is a very important step, the 
group has developed Phase II, which will, if approved, provide 
behavioral health and related services to vulnerable 
populations of children and youth. These services would 
increase the ability of all counties, including Rio Arriba, to 
meet the needs of children and youth at risk of using or 
abusing heroin.
    The focus of the service delivery network would be 
community determined and implemented. Rio Arriba would be able 
to target the services toward its most critical self-identified 
problems.
    Finally, we must seize every opportunity to make the best 
and highest use of the resources we administer and share to 
both solve heroin addiction and the underlying problems, 
including coordination with each other. Again, it means giving 
up sacred turf and territory we all hold so dear. We must think 
of each and every child and family in Rio Arriba as children 
and families worth working for, and perhaps most important of 
all, listening to. A true commitment to a full and equal 
partnership, with shared authority and responsibilities will 
allow us to succeed. Thank you.
    [The statement follows:]
                  Prepared Statement of Dorian Dodson
    The mission of the Children, Youth and Families Department (CYFD) 
is to enhance the safety, dignity and well-being of children, youth and 
families in New Mexico. We provide a statewide array of services 
designed to protect children and adults from abuse, neglect and 
exploitation; to hold juvenile offenders accountable for their actions 
and rehabilitate them; to prevent abuse, reduce juvenile crime, promote 
quality child care and support healthy families.
    How does this relate to substance abuse--specifically heroin 
abuse--in Rio Arriba County? We know that many of the families we serve 
have multiple problems, and that substance abuse is prevalent among 
these families. Substance abuse is a contributing factor to, as well as 
a symptom of the stresses and problems facing these families. To 
address heroin abuse, therefore, we must put it in the context of all 
of the factors, problems and issues that keep these families from being 
healthy.
    Like the Departments of Health and Public Safety, the Children, 
Youth and Families Department addresses this and all problems in our 
mandate on two fronts--prevention and intervention. Both are essential 
components of our services. If we don't prevent, children, youth and 
their families become addicted, or abuse and neglect each other, or get 
in trouble with the law and even lack the basic brain development that 
we now know must happen in the early years of a child's life.
    If we don't intervene, those already affected by addiction, abuse, 
neglect, those in trouble with the law and those forever 
disenfranchised because some critical bonding or development did not 
take place in the early years will develop more problems, and problems 
of even greater magnitude. Heroin addiction and other substance abuse, 
and their underlying causes and effects must, therefore, be both 
prevented and treated. But we all know that.
    In Rio Arriba County, Children, Youth and Families provides over 
one million dollars for direct services in the areas of counseling for 
high-risk youth, non-secure alternatives to detention, adult home care 
services, transitional living services, preschool programs with 
nutritional and family counseling and home visits, community/victim 
restoration services, domestic violence shelter care, child care, 
client service management, therapeutic pre-school services, family 
preservation and support, mentoring, clinical assessment and mental 
health counseling. We also have field offices for protective services 
for children and adults, juvenile probation and parole and child care 
services. Finally, CYFD has a range of statewide services that also 
work for Rio Arriba County, including evaluation and training to assist 
in the development of a continuum of quality care.
    So, given the resources provided to Rio Arriba by CYFD and its 
sister agencies, coupled with other funding streams and program 
initiatives, why haven't we solved the problem? Why is the problem, as 
we have already heard, becoming worse?
    Through our own staff and contract providers we have learned a lot 
about the heroin addiction in Rio Arriba County. We know that substance 
abuse in general, and heroin use specifically, is a multi-generational 
problem. It appears to affect several generations, and is often very 
ingrained in the culture of family, as well as in specific communities 
in the County.
    Based on provider experience, we also believe that traditional 
treatment models, such as methadone, while somewhat successful with the 
adult population, is not successful with adolescents in Rio Arriba 
County. Providers are researching other effective treatment options for 
juveniles. Model programs with success in other states offer intensive 
outpatient programs combining education, psychological and medical 
treatment for adolescents. The key to the success of these models 
appears to be that they address both the physical and emotional issues 
of the client and to work extensively with the family. It is, 
therefore, CYFD's responsibility to support treatment providers in Rio 
Arriba County with these necessary child and family services.
    We know that there is an increase in the number of women and 
juveniles with heroin addiction in Rio Arriba county. Some women who 
need our domestic violence services appear to be using heroin as a 
means of ``self-medicating'' to cope with violent home situations. It 
is, therefore, CYFD's responsibility to assist service providers for 
victims of domestic violence in Rio Arriba County who help them regain 
their sense of self-worth and to become emotionally self-sufficient. 
This is the first step in becoming financially self-sufficient and 
capable of making major life choices for themselves.
    More and more adolescents are being referred to our service 
providers after discharge from a residential treatment center for 
heroin addiction. One agency reported a notable lack of success with 
this population due to the multi-generational aspect of the addiction: 
adolescents go back into families which are using, and into communities 
where drug dealers pursue them to resume drug usage. It is, therefore, 
CYFD's responsibility to continue, enhance and augment the services to 
adolescents, to provide them with choices, skills and support systems 
to resist these pressures.
    Of course, every agency and group represented here today cannot, in 
isolation, solve this problem. Coordination of, and communications 
among the various services and programs related to substance abuse in 
Rio Arriba is essential. CYFD is involved in many groups, including the 
DWI Interagency Task Force; the Cooperative Agreement Advisory 
Committee, led by the DOH Substance Abuse Program; the Juvenile Justice 
Advisory Committee, and the Juvenile Accountability Block Grant 
Coalition. Representatives on these groups come from various other 
state agencies, law enforcement, the judiciary, providers and 
advocates.
    Finally, and of course, none of these ``outside-looking-in'' 
coordination efforts will work without the will and guidance of the 
County--comprised of its many distinct and unique communities, leaders, 
and citizens--in acknowledging, recognizing and addressing the 
underlying problems and in custom-designing the strategies and programs 
to combat and prevent drug usage and addiction. Without a total system 
commitment to address the underlying problems, including poverty, 
unemployment, school dropout rates, teen pregnancy and family violence, 
all of the program-specific funding in the world is not going to get 
rid of heroin use in this County. Each agency, group and advocate 
represented here today, including the leaders, parents, teachers and 
youth of Rio Arriba, has a right to name the problem and the shared 
responsibility of solving it.
    There are specific intervention strategies that all of us, 
regardless of our role, can pursue together. Some are not as directly 
related to the mission of the Children, Youth and Families Department, 
but require our participation and support. For example, sustained and 
targeted traffic enforcement has been shown to decrease drug and 
violence related activities, especially when combined with community 
policing efforts that involve neighborhoods or subsections of a 
community. In working with youth in our juvenile justice system, we can 
reinforce these efforts.
    Other strategies directly relate to our mission and services. We 
should and will be part of all public information campaigns and efforts 
to inform the public of enforcement efforts, and we should provide 
information on the support services we fund in Rio Arriba for children, 
youth and families to prevent and combat drug abuse.
    CYFD has worked with the Department of Health, the Human Services 
Department, state legislators, other state and local agencies, tribal 
representatives, clinicians, providers and advocates to develop the 
Children's Health Insurance Program for New Mexico. In addition to 
expanding basic coverage for children up to 235 percent of poverty, 
which has already been implemented as Phase I, this group has developed 
Phase II which will, if approved, provide behavioral health and related 
services to vulnerable populations of children and youth. These 
services would increase the ability of all counties, including Rio 
Arriba, to meet the needs of children and youth at risk of or using 
heroin.
    The focus of the service delivery network would be community 
determined and implemented. Rio Arriba would be able to target the 
services toward its most critical self-identified problems.
    Finally, we must seize every opportunity to make the best and 
highest use of the resources we administer and share to solve both 
heroin addiction and the underlying problems. This includes 
coordination with each other--even if it means giving up sacred turf 
and territory. We must think of each and every child and family in Rio 
Arriba as children and families worth working for and, perhaps most 
important of all, listening to. Without a true commitment to a full and 
equal partnership, with shared authority and responsibilities, these 
efforts will never succeed.

    Senator Domenici. Thank you. Madam Secretary, I just 
generally want to ask you, are you satisfied now that whatever 
your Department has to do in this area with reference to this 
problem that we are here discussing today, that you will 
coordinate that with other agencies and that it will be 
maximized as you see it in terms of the assets being made 
available for the population here that needs it?
    Ms. Dodson. Senator, I think that we are making every 
effort to do that, but I think it is axiomatic that every time 
you think you are coordinating enough, there is more that you 
can do. I think that that is what we need to continue to do, 
that is, never assume that there is enough coordination; always 
assume that we need to work together, and always put our money 
where our mouth is, in terms of a full partnership with the 
local counties.
    Senator Domenici. Well, I whole-heartedly agree, but I do 
believe there comes a time that I think coordination has to 
stop and has to follow. I assume that's still consistent with 
your last statement; is that correct?
    Ms. Dodson. Absolutely, Senator.
    Senator Domenici. I just want to make a point for the 
record. I'm informed that the chairman of this subcommittee, 
Senator Judd Gregg, who I already described for you, intends to 
put more than $40 million into Boys and Girls Clubs for the 
year 2000. I think that's very exciting. It probably means that 
we need to get together here in Rio Arriba, and with a little 
push, we might be one of the new starts for Boys and Girls 
Clubs. I don't know how that sits with the community, but I 
think in most places, it's welcome news, and I hope it is here. 
To both of you, and to the Governor whom you represent, 
Governor Johnson, I thank you very much for your concerted 
efforts to address this problem. I am there to be helpful, if I 
can, and if I ask you from time to time what's going on, I hope 
you will assume it's because I am concerned, not because I am 
trying to meddle in your affairs.
    Mr. Alex Valdez. Senator, you have been very helpful. Thank 
you.
STATEMENTS OF:
        DR. FERNANDO BAYARDO, M.D., CHIEF OF STAFF AND MEDICAL DIRECTOR 
            OF THE EMERGENCY ROOM, PRESBYTERIAN HOSPITAL, ESPANOLA
        BRUCE RICHARDSON, PRESIDENT, CHIMAYO CRIME PREVENTION 
            ORGANIZATION
        TESS CASSADOS, EXECUTIVE DIRECTOR, LA CLINICA DEL PUEBLO
        S.S. MUKTA KAUR KHALSA, SECRETARY OF FOREIGN AFFAIRS, CHIEF 
            RELIGIOUS AND ADMINISTRATIVE AUTHORITY FOR SIKH DHARMA FOR 
            THE WESTERN HEMISPHERE

    Senator Domenici. Our next witnesses then--thank you both--
and this is our last panel, after which I will go visit 
Delancey Street Treatment Facility. Dr. Fernando Bayardo, Chief 
of Staff and Medical Director of the Emergency Room at 
Presbyterian Hospital here in Espanola; Bruce Richardson, 
Chimayo Crime Prevention Organization, the president of this 
group; Tess Cassados, Executive Director of La Clinica del 
Pueblo; and S.S. Mukta Kaur Khalsa, Secretary of Foreign 
Affairs, Chief Religious and Administrative Authority for Sikh 
Dharma for the Western Hemisphere. We get all four of you, and 
we will start with Dr. Bayardo. Doctor, thank you very much for 
taking your valuable time to be here. We look forward to 
hearing from you. If you want to make your statement part of 
the record and want to abbreviate, whatever you choose, would 
be fine with me.
    Dr. Bayardo. Thank you for the opportunity to go ahead and 
address this issue. Both I and everyone here, I, unfortunately, 
have had the opportunity to do it several times, and it's 
unfortunate, to represent the size of our problem and what is 
going on in this county, and I think not just the county but 
statewide. I think it also reflects what's going on nationwide.
    I will apologize for probably repeating some things that 
have probably been said throughout the day, but as you know, we 
do have some very terrible things going on that is a serious 
problem, which is illicit drug use in Rio Arriba County.
    I personally do not have a solution to this problem, but I 
do feel strongly that as a health care professional and 
representative of our local health care facility that we do 
play and can play a vital role in addressing the issues and, 
hopefully, resolve it as well.
    Briefly, the State Department of Health Statistics from 
1993 to 1995 ranked New Mexico as the number one State in 
illicit drug overdose deaths in the country. That was a typo I 
gave, just so you know that we probably do have more deaths per 
100,000 population here in this State. That's 11.16 per 
100,000, but Rio Arriba is 18.3 per 100,000, more than any 
other county that at least was looked into in the Nation. And I 
have included a figure in the packet that you all may or may 
not have yet.
    One other thing that I would really like to point out 
though, in terms of drug-induced deaths, that's not what I am 
seeing. Most of those people do not make it to my emergency 
department. What I am seeing is morbidity, fatalities related 
to substance abuse, including overdose, and I really think when 
we speak of overdose as a whole, we are only addressing the tip 
of the iceberg. I have mentioned in the past some issues, and 
briefly I will mention them here. Talking about Hepatitis B and 
C, and it's defined as inflammation of the liver due to virus. 
We are talking about cellulitis; how often do I see people with 
cellulitis, which is inflammation under the skin or connective 
tissues? Things which are due to infection from shooting up, 
for example, abscesses, and we are talking about people coming 
in covered with abscesses. They are collection pockets, pockets 
of pus, on arms and legs. It's something you would expect to 
see in a picture in a medical book of some rare tropical 
disease. Unfortunately, we are seeing it here due to substance 
abuse. That says we are talking about sepsis, which is 
widespread tissue destruction caused by bacteria in our 
bloodstream, and people are dying from this as well.
    Pneumonia we are seeing--we have to understand that 
substance abuse or alcoholics, people who are frequently 
immunodeficient, they don't have the safety resistance you and 
I do, so pneumonia is seen more in these people.
    Where are they injecting? Are they injecting heroin, are 
they injecting baby powder, we don't know, and these go into 
the lungs, et cetera. We are talking about brain damage, we are 
talking about these drugs that unfortunately down their 
respiration and cause lack of oxygen to the brain. This is 
basic CPR lifesaving procedures. Finally a major factor of this 
is we are also talking about violent acts, such as stabbings, 
shootings. I rarely see a violent act that winds up in my 
emergency department which does not involve some type of 
substance abuse.
    Senator Domenici. Say that again.
    Dr. Bayardo. I rarely see a violent crime that occurs and 
results in a visit to my emergency department that does not 
involve substance abuse of some kind. We are also talking about 
motor vehicle accidents. We are talking direct injury. We are 
talking about deaths associated with them, and we are also 
talking about long-term sequela and disability and direct 
injury due to accidents due to substance abuse.
    I think that the State Department of Health has done a good 
job at breaking motor vehicle accidents, in terms of--they use 
standard mortality ratios. Where we stand is the State of New 
Mexico is compared with our nationwide statistic, I think it's 
1 in 5, and I believe Rio Arriba County is 1 in 3 for motor 
vehicle accidents. How many of those are related to substance 
abuse? I think that I do believe we are quite probably in the 
top three, if not number one for drug-related motor vehicle 
accidents.
    The other dimension of other things that may or may not be 
a primary cause here in this county is we have heard about HIV 
and AIDS. Right now in this county HIV and AIDS probably is not 
secondary to substance abuse in terms of exchanging needles, 
but it may be. This is how other people get HIV, as well as 
through intercourse, but it could easily be spread that way as 
well and may well hit our local area as well. In the same way, 
I also think that it's important to try to manage the dollars 
associated with the treatment and impacts of preventable 
disease in this county.
    I also think it's important to mention other factors that 
affect our county. That is, for example, a recent Health and 
Human Services Department study mentioned that 38.6 percent of 
all inmates, in a recent 12-month study, were attributable to 
substance abuse in this county. Over $1 million of our county 
budget were felt to be used toward law enforcement alone in 
substance abuse related issues in our county. This was felt to 
be a very conservative effort.
    Substance abuse also affects the attraction of new 
businesses to our community, industry, and also influences 
strongly on their successes once they are here, and of course, 
the desire to stay here. It also impacts our own personal and 
home security, learning in schools and low performance in 
school. We are talking about petty thefts, shoplifting, home 
robbery.
    Focusing on education, along with other social problems, I 
think that--and I was going to mention before, I apologize--a 
recent Rio Arriba Maternal and Child Health Care Council report 
from March 1997 pointed out that substance abuse is the number 
one health threat to Rio Arriba County. It's also affected many 
people for many years. Personally, I have patients tell me they 
have used a substance, heroin, for example, for 30 years. We 
put a lot of time in on the issue of resolving it, but keep in 
mind that people really have been around that substance for a 
long time.
    I also think it's important to understand that we cannot 
fix some of our gradient problems in addressing the most basic 
needs in our community. I think that it's not just heroin 
abuse, but also an issue of economic development. I also think 
it's an issue of quality of local primary and secondary 
education. I also think it's an issue of early parenthood, 
accessibility, and transportation issues. I also think it's an 
issue of adequate law enforcement, and I do not see enough 
about helping them have DRE, as we call it, drug recognition 
experts, enough patrols, community and judicial support, 
enforcement of existing laws, and funding.
    I also think that we also need to encourage positive family 
role models. There are certain traditions that exist in our 
homes, and role models, mentoring, all those things really can 
make a difference and probably make the biggest difference. I 
mentioned intervention services for young children. I have 
Deborah Harris from the school district to thank for this. 
Thinking in terms of focusing on our youngest victims, which 
has been mentioned earlier, that without a doubt, and I agree 
with this 100 percent, is that the brain develops most rapidly 
in the first 3 years of life. We are talking about emotional, 
physical, and cognitive development as well, and it's really 
dependent on what a child experiences within his first 3 years 
of life. So I can not mention enough what in-utero exposure, as 
well as environmental exposure, either during pregnancy or 
shortly after, the first years of life have on a child, 
especially when we have to deal with domestic violence, 
homicides, child abuse and neglect, poor nutrition, all which 
can be secondary to substance abuse.
    The other thing to keep in mind is this is one hundred 
percent preventable. I cannot say enough for outreach regarding 
education, prenatal care, early detection and intervention with 
regard to this. I also cannot say enough regarding the cost 
effectiveness of dealings with prevention rather than dealing 
with problems in substance abuse in adolescent and adult care. 
Again, we are talking about education, health care, and 
identification of substance abuse early, early on and referrals 
of treatments in the meantime. I also think that as has been 
mentioned before, that as young children grow older, they may 
be prone to criminal activity, repeated patterns of abuse, 
self-destruction and problems secondary to nonintervention when 
things were preventable.
    I would also like to make very, very clear that in my 
practice in the emergency department here in Espanola Hospital, 
on a daily basis, I deal with people like you, your neighbors, 
citizens like you, and it is a pleasure to do so. I am not 
seeing necessarily the picture of one drug abuser after another 
that some people may or may not imagine. I see generally these 
hard-working people and people who care about how this issue 
impacts them, whether they use substances or not. I think that 
it's also heartbreaking to see how devastating the affects of 
such a health problem, a social problem, has on the public. I 
also believe that despite this talk today, that all of us do 
not know how much of a problem this really is, and we are only 
beginning to touch upon it.
    I ask the support of those today in addressing this threat 
to our community, by helping with law enforcement, its 
barriers, its costs and, of course, recognizing their 
successes. I am sure this has been said before, we may or may 
not be able to arrest ourselves out of this condition, but at 
the same time, it's of vital importance and does not stop being 
a crime to use or sell drugs.
    I also seek help with coordination, development of local 
efforts and organizations involved in the prevention of and 
treatment of substance abuse, and I also ask you and your 
committee to set an example for us and also to work together at 
your level so that we can do the same. I also seek help 
regarding development of strategies to counsel members of our 
community to reduce and stop demands for current drug abuse. 
And more than anything else, I would like our community to help 
develop strategies to support healthy norms, those behaviors 
and beliefs that have made this the Land of Enchantment.
    [The statement follows:]
                 Prepared Statement of Fernando Bayardo
    Proceeding talks today have probably been reflective of grim 
statistics that seem to reflect a serious prevalence of illicit drug 
use in the County of Rio Arriba.
    I clearly do not have a solution to this serious problem, but feel 
strongly that as a health care professional and representative of the 
local health care facility that we can play a vital role in this issue.
    New Mexico State Department of Health Statistics for 1993-95 ranked 
New Mexico as the number one state in illicit drug overdose deaths in 
the country. (More deaths per 100,000 people in this state than any 
other state--18.3 per 100,000) See attached Figure #2.
    In addition Rio Arriba Statistics for alcohol present in deaths 
significantly surpass those for the state average as noted in Figure 
#2b.
    Though the preceding figures are quite grim, I can only suspect 
that the noted mortality rates are only the tip of the iceberg. 
Substance abuse related morbidity and mortality figures probably rise 
dramatically when one takes into account not only overdoses but also:
  --Hepatitis B and C--inflammation of liver due to virus
  --Cellutis--inflammation of connection tissue (such as skin and 
        surrounding organs)
  --Abscesses--localized collection of pus
  --Sepsis--widespread tissue destruction from disease causing bacteria 
        in blood stream.
  --Pneumonia--lung infection
  --Brain damage--from hypoxemia (lack of oxygen), accidents and direct 
        effects of substance abuse
  --Violence--assaults, stabbings, shootings, etc.
  --Domestic violence, abuse and neglect
  --Motor Vehicle Accidents--Direct Injury, Deaths, Long term sequelae 
        and disability
Statement on Effects of Substance abuse on preventable disease
    My point in mentioning the above list only touches on the impact of 
substance abuse on a wide array of preventable disease and injury. The 
impact of substance abuse devastates a large percentage of families in 
this area as throughout the state with the above effects. I also must 
mention HIV/AIDS, as we know an incurable and fatal disease.
    In addition to the cost and value of human health, there is also 
the dollar cost one must consider in addressing all of the above 
effects of substance abuse. It is necessary to include substance abuse 
related liver disease and its associated diseases (gastrointestinal 
bleeds, cirrhosis, hepatitis, etc.) We can only begin to imagine the 
impact of all the substance abuse related disease and the health care 
dollar spent.
Statement of Substance abuse and related healthcare issues impacting 
        economic, social and criminal justice factors
    38.6 percent of all inmate days in a 12-month study were 
attributable to substance abuse according to a recent Rio Arriba Health 
and Human Services Department study. Over 1 million dollars of county 
budget were felt to be used towards law enforcement alone in substance 
abuse related issues in our county (note that this is felt to be a very 
conservative figure.
    Substance abuse and related issues also affects the attraction of 
new business and industry to our community as well as influencing 
strongly on their success and desire to stay in our community. In 
addition, these issues also impact on our own personal and home 
security, learning and overall performance in out schools.
Statement of Effects of Substance abuse on Family Health
    I recently spoke to many of this group regarding the effects of 
substance abuse on family health and as of yet it is hard to figure out 
where to begin. I would like to point out that the county of Rio Arriba 
Maternal and Child Health Care Council in their March 1997 report 
listed substance abuse as the number one health threat to Rio Arriba 
County residents. We are dealing with a problem that is entrenched in a 
significant number of our population and affecting some families for 
generations. I personally have had patients who tell me that substance 
abuse has been part of their lives for 30 years. At the same time some 
of our local physicians are seeing from one to two new young substance 
abusers a week in their practice. The issue of health and resolving 
some to the major threats against it is not substance abuse alone. This 
valley and adjacent areas lack many items, which contribute to our 
present social situation and problems. We cannot ``fix'' some of our 
greatest problems without addressing some of the most basic needs such 
as:
  --Economic Development
  --Quality of local primary education
  --Early parenthood
  --Accessibility/Transportation issues
  --Adequate law enforcement--Drug recognition experts (DRE), Enough 
        patrols, Community and judicial support for enforcement of 
        existing laws, Funding
Statement on substance abuse and early intervention services for young 
        children in Rio Arriba County
    To truly address the pervasive problem of substance abuse in Rio 
Arriba County it is imperative to focus on the very youngest victims in 
our communities. Research has shown that the brain develops most 
rapidly in the first three years of life. Emotional, physical and 
cognitive development is largely dependent upon what a child 
experiences during the first three years of life. Infants and young 
children are affected by parental and familial substance abuse in a 
multitude of ways. In-utero exposure, as well as environmental exposure 
to the sequlea of substance of substance abuse such as crime, domestic 
violence, homicide, child abuse and neglect, and poor nutrition--can 
produce life long developmental delays, disabilities and emotional 
disturbances. Fortunately, these consequences of substance abuse are 
completely preventable. Outreach and education, prenatal care, early 
detection, and early intervention efforts with prospective parents, 
pregnant mothers and young children are proven and effective means of 
intervention.
    Newborns and children with or at risk of, developmental or 
biological delays or disabilities, as well as those who suffer from 
delays and emotional disturbances induced by exposure to substance 
abusing adults, can be helped through a continuum of detection and 
prevention services. These early childhood prevention programs are 
considerably more cost-effective than dealing with the problems of 
substance abuse in adolescence or adulthood. Critical prevention and 
early intervention services for the unborn child and children up to the 
age of five include many components working in tandem. These include: 
education; health care; prenatal identification of substance abuse' 
referrals to treatment facilities and mental health services; 
developmental assessments for infants and children (to detect delays 
and disabilities); therapies for identified disabilities and delays, 
case management; prevention services for at-risk infants; regular 
health care for infants and young children; and behavioral health 
services for infants, young children and their families.
    When the total range developmental needs are not addressed early on 
in life, we see results in an increase in the number of young children 
in special education classes, behavioral problems, and psychiatric 
disorders. As they grow older, these children are prone to criminal 
activities and repeated patterns of abuse and self-destruction. The end 
result is a need for continued and prolonged involvement in government-
funded systems. Rio Arriba currently has sparse but high quality, 
collaborative programs that work with parents, guardians and infants 
and young children from birth to age five. Rio Arriba needs support, 
not only to maintain the model projects that exist, but also to 
strengthen and expand these services in order to eliminate waiting 
lists, so that all children who would benefit from early intervention 
and prevention can be reached. Parents must be educated about the long-
term effects on their children of substance abuse.
    Children who are in need, yet do not get referred or sewed because 
aid is lacking, are unnecessary victims in the state of New Mexico. We 
request support in order to most effectively help our youngest 
community members, and to intervene in the deadly epidemic of substance 
abuse that is killing our children's future.
Closing
    I would like to make it clear that my daily practice consists of 
dealing on a daily basis with people such as you, your friends and 
family. I am not seeing drug abusers one after another, but genuinely 
nice and hard working, caring people who may very well be impacted by 
this issue as all of us in this room are. It is a pleasure to work with 
and serve the vast majority of the members of this valley and 
surrounding area. I must say though, it is heartbreaking to see the 
devastating effects that a health and social problem such as this one 
has on the patient population I serve.
    I ask the support of those here today in addressing this threat to 
our community with support in:
  --Education in understanding what substance abuse is and its impact 
        on our community;
  --Law enforcement and its barriers, costs and successes;
  --Help with coordination and development of local efforts and 
        organizations involved in the prevention and treatment of 
        substance abuse;
  --Development of strategies to encourage the members of our community 
        to reduce and stop the demand for illicit drug use;
  --Help our community develop strategies to support healthy norms, 
        behaviors and beliefs that have made this the State of 
        Enchantment.
        [GRAPHIC] [TIFF OMITTED] T11MA30S.000
        
                               [Figure 2]
[GRAPHIC] [TIFF OMITTED] T11MA30S.001

                              [Figure 2b]

    Senator Domenici. Thank you very much, Doctor. I 
particularly appreciate your positive comments with reference 
to the practice of medicine as it impacts on you, and I assume 
you are speaking for many doctors.
    Dr. Bayardo. Yes, I am.
    Senator Domenici. It is not all this. There is a lot of 
great joy and satisfaction----
    Dr. Bayardo. And assurances.
    Senator Domenici. And we really appreciate your assessment 
of this problem. You are right, we don't know exactly how to 
fix it, but with people like you helping us, we are going to do 
our best to be aware of this. Thank you for what you do.
    Mr. Richardson, we have heard much about your organization, 
and we want to hear a little bit from you today about whatever 
it is you want to share with us.
    Mr. Richardson. Well, first of all, Senator, we would like 
to thank you for showing the leadership that's been lacking as 
far as we're concerned about this problem. We started on it 2 
or 3 years ago as a volunteer community action group, and we 
finally have gotten to the point where we have all the 
resources in this room to address the problem. It's just a 
matter of coordination, and I was going to harp upon that, but 
I think we have got that right. It sounds like the coordination 
will happen, and not only needs to happen within this 
jurisdiction but across other jurisdictions and counties.
    The county line up there is kind of killing us. Rio Arriba 
and Santa Fe County lines go right through Chimayo, and in our 
opinion, it creates a lot of problems. We thank Rio Arriba 
County for doing their health plan, but it just further 
institutionalizes the county line and makes a distinction. So 
we need to make sure that that gets coordinated across the 
county line as well, and I hope Santa Fe County is listening, 
that they deserve some credit or blame as the case may be.
    Senator Domenici. Very good.
    Mr. Richardson. I would also like to thank Secretary White 
for his kind statements. The Department of Public Safety has 
been more than just a partner and adviser, it's been an ally 
and our main source of satisfaction. We would like to thank all 
the law enforcement people and everyone else that's partnered 
with us. The list is too long to mention, but all those guys 
wear white hats, and we are very happy to have them.
    I would like to thank the Rio Grande Sun and New Mexican 
and Albuquerque Journal for continuing to bring attention to 
the issue that's been absolutely necessary. And now that we're 
here, I would like to thank all of the members of the Chimayo 
Crime Prevention Organization. These people are very dedicated, 
and we plan on being here for awhile, and whatever kind of 
community input we need on any initiative, we would be very 
happy to serve. I would like to request that you accept our 
written testimony into the record.
    [The statement follows:]
                 Prepared Statement of Bruce Richardson
    Mission statement.--Through public involvement, the citizens of 
Chimayo strive to improve the quality of life in the community by 
reducing the threat of crime.
    The Chimayo Crime Prevention Organization (CCPO), composed strictly 
of volunteers, was formed to address rampant crime in a small, rural, 
traditional community in north-central New Mexico. Property crimes such 
as larceny and burglary had reached epidemic proportions. These crimes 
were the by-product of other serious criminal activity, particularly 
illegal drug-trafficking in hard narcotics, mainly heroin and cocaine. 
The drug dealers are well-known in the community, with some families 
being involved for generations. In most cases, these families own their 
land and are not transient newcomers. This situation presents unique 
problems with regard to the potential solutions to the problems. As a 
result, concerned community members contacted local representatives 
including politicians, judges, law enforcement agencies and clergy to 
initiate discussions on how to effectively address criminal activity.
    CCPO has become a state and regional model of community policing. 
We have developed extremely productive relationships within the New 
Mexico Department of Public Safety, the State Legislature and the local 
Judicial District including the District Attorney's Office. The 
productiveness is apparent when crime statistics are analyzed comparing 
pre- vs. post CCPO creation. Our goals have expanded beyond crime 
prevention to addressing the adverse social conditions which exist in 
the area, such as providing options and opportunities to youth in an 
effort to improve the dysfunctional nature of their current situation.
    It was therefore necessary to create a strategic organizational 
plan in order to identify needs and priorities for both the short and 
long terms. The need to maintain a strong and effective organization 
which offers alternative solutions to complex problems will require the 
creation of partnerships to share responsibilities and resources. 
Funding such potential solutions will become a high priority to the 
organization. The plan identifies completed and/or anticipated tasks 
and will provide guidance to the CCPO, as well as information to 
partners on who we are, what we've done and where we hope to lead. This 
reiterative planning document is perceived to be central to achieving 
our mission as stated previously.
    History.--Chimayo is an unincorporated rural area with astounding 
natural beauty, a rich cultural and religious heritage, blessed with a 
relatively abundant water supply that is the valley's lifeblood. There 
is no elected leadership. CCPO has been the primary catalyst in 
improving the quality of life for its community members by initiating 
discussions with anyone and everyone who would listen. Crime prevention 
through community policing has always been, and will continue to be our 
focus. Community policing is in our view a cooperative effort between 
law enforcement and the community to address our common interests 
related to public safety. When honest, hard working, law-abiding 
citizens are living in fear with security bars on all their windows and 
doors, something is seriously wrong. We began struggling with the 
enormous scope of the problem three years ago and were repeatedly 
informed that our goals were unachievable. Many questioned our sanity. 
We aren't doing this because we wanted to, but because we had to. The 
problem is invasive to every quality of life issue imaginable (see 
supporting document: memo to Sen. Domenici). The first step in dealing 
with the problem has been taking responsibility for a solution, as a 
community. We have built upon every success and every failure to get to 
where we are today. The organization is working on formalizing and 
strengthening our relationships with all our partners in preparation 
for future funding and program initiatives. We are here for the long 
haul.
    Our success has resulted from refining the global issues to local 
initiatives which we feel could be achievable. We seldom fail to follow 
up on potential opportunities. We have learned to apply subtle yet 
relentless pressure in pursuit of our objectives. Initially, we engaged 
law enforcement and the criminal justice system in order to educate 
ourselves. The picture which emerged was that the entire system was 
broken: from inadequate police investigations at the crime scene, to 
lackadaisical prosecution by the District Attorney's office, to lenient 
sentencing by judges, to the revolving door at the State Penitentiary. 
We met with those involved, identified problems, provided initiative 
and demanded accountability. Consequently, the system began to work, 
but it's a long way from being functional on a self-regulating basis. 
Lack of coordination is the culprit here in our opinion.
    The coordination of community services is essential if any 
significant and lasting gains are to be made in Chimayo. In fact, the 
community is split down the middle by the Rio Arriba-Santa Fe county 
line. The presence of this political boundary is a nightmare with 
regard to any kind of coordinated effort, whether it be rural 
addressing and delivery of emergency services such as fire fighting and 
ambulance service, or planning and zoning. Local law enforcement is 
made basically ineffective in this regard, because they are never 
certain whether they are within their proper jurisdictions. This 
situation has contributed to the current conditions as much as any 
other, if not more, and has made the area conducive to the kinds of 
illegal activities we are experiencing today.
    Organizational vision.--To promote a vital and effective 
organization capable of capitalizing on opportunities by mobilizing and 
maximizing both financial and human resources in furtherance of the 
organization's mission.
    Accomplishments.--CCPO developed a strategic plan during 1997 which 
created an organizational structure and set priorities (see supporting 
document). Filing for non-profit organization status is presently 
underway. Organizational by-laws have been approved by the Board, 
chairpeople assigned to guide sub-committee initiatives and a community 
phone bank developed to mobilize community support. Standing committees 
include community policing, liaison legislative/judicial, youth 
services/education, membership and finance, as well as special and Ad 
hoc committees. Local actions have included organization of community 
meetings to facilitate communication between all interested parties, 
Summit Meetings held every six months to facilitate communication 
amongst criminal justice entities (see supporting document), and 
newsletters to inform and involve the public (see supporting document). 
CCPO most recently sponsored a meeting for the business community in 
the village to inform them of the issues relating to crime prevention 
and discuss a strategy to counter the negative publicity and impacts 
from decreased tourism dollars. Potential relationships between CCPO 
initiatives and economic development opportunities were also presented. 
Former Congressman Redmond submitted a funding request for a Boys and 
Girls club at our urging although its current status is unclear. A 
grant for $1,000 has been secured from the LANL Foundation to be used 
as seed money. Another grant application has been recently submitted to 
a private foundation for additional start-up funds which will be used 
towards initial staffing and implementation of a youth conservation 
corps program (see supporting document).
    CCPO was instrumental in influencing legislation during 1998 to 
increase the salaries and numbers of State Police officers. The 
organization assisted the Department of Public Safety in securing 
federal funds to pay officers overtime to conduct saturation patrols 
known as ``Wolf Packs''. These patrols were extremely effective in 
reducing crime rates in Chimayo. Continued funding for this program has 
been lacking recently. CCPO has mapped approximately 35 known drug 
trafficking locations in the village which have been provided to State 
Police/Narcotics personnel. A legislative funding request was sponsored 
by State Senator Carlos Cisneros during the 1999 session to rejuvenate 
this program and is pending approval. The interim use of DWI/
Transportation Safety funds to conduct saturation patrols and provide 
vital police presence within the area is underway.
    A liaison position through the Victim's Assistance Program within 
the First Judicial District Attorney's office has provided CCPO with 
the ability to track offenders through the judicial system and provides 
the community with the opportunity for input with Judges regarding bond 
and sentencing hearings. We have also arranged for the dissemination 
and posting of warrant lists in an effort to remove criminal elements 
from the community. In affiliation with the New Mexico National Guard-
Counter Drug Division and local School Board, CCPO will host a math and 
science/team building camp this summer. Implementing other National 
Guard programs within the schools is also being considered. Developing 
funding and program strategies is also ongoing with the U.S. Attorney's 
Office through the Department of Justice.
    Initiatives at the county level, both Santa Fe and Rio Arriba, have 
met with limited success. Initiatives with the local School Board are 
in their initial stages and appear very promising (see supporting 
document). Meetings have been conducted with Dr. Fernando Bayardo of 
Vision del Valle and the Espanola Hospital Emergency Services, Ms. 
Loren Reicheldt, Rio Arriba County Health Care Coordinator and the New 
Mexico Departments of Health and Environment (see supporting document) 
on public health issues and their relationship to crime prevention. We 
have provided advice and consultation to several neighborhood watch 
groups and the Village of Questa in northern New Mexico.
    In all cases, the lack of fiscal and human resources is cited as 
the primary barrier to progress. We believe that in almost every case, 
entities are doing what they can with what they have. Additional 
resources are sorely needed for undercover narcotics operations. Within 
State Police Narcotics Division, there are two agents responsible for 
the northern half of the state. This is not going to get the job done. 
Assistance from the Immigration and Naturalization Service was 
requested. Their response was they were only interested in business 
related issues. In addition, an inordinate amount of bureaucratic red 
tape makes their assistance too burdensome to be useful.
    Needs.--CCPO's most immediate needs involve securing start-up 
monies to establish and maintain an office location within the 
community. This would provide the organization with a physical and 
obvious presence in Chimayo which to date has been lacking. Office 
space and functioning computer equipment will be donated by members of 
the business community. Additionally, funds for staffing would allow 
the volunteer organization to move toward becoming a policy board as 
opposed to a working board.
    Recommendations.--CCPO realizes the equation for potential 
solutions is complex and involves law enforcement, education, public 
health and community participation. We intend to engage the educational 
and public health systems in the same manner we did the criminal 
justice system. We recommend formal coordination councils be created as 
prerequisites for funding law enforcement, public health and education 
initiatives. Coordination should occur not only within separate 
jurisdictions but across the political or jurisdictional boundaries. An 
essential element of the councils should be community representation to 
provide needed accountability and oversight. CCPO is willing and able 
to provide such a service. It is our position that funding law 
enforcement and the criminal justice system concurrently should be top 
priority. The reasoning being that law enforcement must effectively 
curtail the supply of drugs before education and public health 
professionals can be successful instituting demand reduction 
initiatives. Increased funding for law enforcement should increase case 
loads beyond what can presently be handled by D.A.'s, Judges and 
Corrections. Therefore, serious consideration should be given to 
funding all the links in the chain of criminal justice.
    Now that the problem has received the attention it deserves, it has 
become politically correct to be on board. This has begun to create 
problems in and of itself. It is as if our elected state politicians 
have been given open license to request half a million here, half a 
million there for well intentioned solutions without the least amount 
of foresight as to conducting consultations with the agencies affected 
or the constituents they mean to serve. We propose a multi-
jurisdictional Task Force to identify both long and short term program 
and funding needs to be prioritized according to immediacy of need and/
or impact, cost effectiveness, and be culturally appropriate. The task 
force should include federal, state, local and community 
representatives from law enforcement, education and the public health 
sectors as well as the community-at-large. This task force should be 
responsible for developing a comprehensive program and recommend 
priorities for funding to elected officials, thus preventing 
duplication of efforts while providing essential coordination 
functions.
    Finally, there is a strong and pervasive opinion within the 
community that we couldn't have degenerated to this stage without 
significant corruption and collusion occurring within the system. The 
fox is not guarding the hen house, he's inside. We have no proof or 
strategy to address such an issue, yet we are unwilling to abandon its 
plausibility.

    Senator Domenici. It will be done.
    Mr. Richardson. I am sure that you folks have probably 
heard a lot of information, been fed a lot of facts and figures 
on the extent of the problem. My premise is to try to give you 
a little bit more of a picture of what it's like to live in 
Chimayo at ground zero.
    Senator Domenici. All right.
    Mr. Richardson. I would like to agree with what Dr. Bayardo 
has said. It's not doom and gloom there. Some of the most 
wonderful people live in Chimayo. They are very concerned about 
this whole problem. We have identified probably 35 to 40 drug 
dealing locations in the community of about 4,100, so that's 
about one dealer per hundred people. We feel like the county 
line has somewhat made local law enforcement ineffective 
because of the jurisdictional boundary.
    Senator Domenici. How do they make a living?
    Mr. Richardson. Excuse me?
    Senator Domenici. How does that one in 100 make a living? 
That means they are selling to a lot of people.
    Mr. Richardson. Yes, sir, I believe that's true. We have 
heard things that Chimayo is kind of a local distribution 
center, and people come from Taos County, you know, they come 
from far and near to get their drugs.
    Senator Domenici. Some of them illegal from Mexico?
    Mr. Richardson. I think that's the case, and some instances 
also, but in many instances, they are--it has been an 
intergenerational problem that has been going on for 
generations. It's 30 years, and nothing seems to have been 
done. It's kind of sending a message to the youth that there 
are no negative connotations to these kinds of activities, and 
so the county line, I guess in our opinion, kind of makes it 
conducive for these kinds of activities to occur. So the state 
police has really stepped forward in taking the lead as far as 
law enforcement in the area.
    I would like to make a couple of points about the history 
of Chimayo and Santa Fe. Back in the late 1700s, people were 
sent from Santa Fe to Chimayo as punishment. It was an outlying 
community and subject to Indian attacks and very lacking of 
resources from the capital in Santa Fe. This has kind of 
continued to this day, and also there was a Chimayo rebellion, 
which has kind of perpetuated our reputation, you know, for 
being involved with a lot of illegal kinds of things. Again, I 
would like to say that there are some of the most wonderful 
people in Chimayo. They are not all that way.
    As far as the history of this organization, this is 
probably the fourth incorporation of this organization. These 
kinds of community policing attempts have been made in the past 
with limited success. A lot of it ends up going away as some of 
the criminals would threaten these individuals. It's going to 
be difficult going back up there and living in the community. 
We have never really been out in public like this before, so I 
would like to say, kind of reiterate also what Alex Valdez said 
about the beauty of the area. That's one of the reasons a lot 
of us have lived here and moved here and have continued to 
stay, but I would like to point out specifically my reason for 
getting involved. I would like to present a water quality 
sample to be an aggregate sample, but this is one that I got 
from the acequia along the bank. It is covered with hypodermic 
needles which is considered hazardous waste. I would like to 
submit that for the record.
    Senator Domenici. We won't be able to take it back to 
Washington. You might be able to use it again. Maybe somebody 
can take a picture of it, but thank you very much for your 
submittal.
    Mr. Richardson. At this point, I decided I am kind of a 
new-bee to Chimayo. I have only been living there since 1995. I 
decided if I was at risk for doing nothing, it would be just as 
good to be at risk for doing something. So I have a 12-year old 
that plays along the pasture and river and this is the reason 
that I got involved and why I'm here today. This is a public 
health issue, but we recognize that the three legs in the stool 
are correct: law enforcement, public health, education. But 
it's our opinion that law enforcement probably needs to be the 
number one priority, at least in the short term, because if we 
can't curb the supply, we don't really feel that demand 
reduction activities through education and public health are 
going to be as effective. Once some effect is made on the 
supply, then I think education and public health are well-
positioned to step in and be effective.
    Our accomplishments have been enumerated in our written 
statement, and I won't go into a great deal of detail, only to 
stay that we've involved everybody and anybody that would 
listen. Now that we're at this level, again, I feel we have the 
resources in this room to do what needs to be done, and we 
would be willing to serve and to work with any of those 
entities in any way possible.
    What we have done has been on a shoestring. We have done it 
with no resources, just volunteer work and a coordination, 
community policing-type of effort.
    Senator Domenici. What do you cite to the committee as a 
success, as a recorded success. Just tell us a little bit about 
that.
    Mr. Richardson. Well, we started conducting meetings just 3 
years ago with the community and law enforcement elected 
officials in general, and after about 5 years, I think we 
realized that we needed not only law enforcement in our 
activities, but to make the public education or public health 
and education issues also a part of it. We have worked on a 
youth conservation plan to provide for alternatives for our 
youth. We feel that a Boys and Girls Club or rec center would 
be appropriate up there and very much needed, although it 
seemed like it would be a long ways off, so we wanted to get 
something up and running right now. So that's why we decided to 
do the youths conservation project. We submitted for some 
grants for that, and we are waiting to see what is going to 
happen there. We feel if we could fund the Youth Corps program 
fully, it would need a long-term scope of work, and so we have 
been working on a voluntary, community-based land use plan, 
using the entire Santa Cruz River as river watershed, and 
working with the Federal entities and all the local 
jurisdictions, all the land ownership sectors, to come up with 
some management practices, implementation practices also that 
would provide the long-term scope work for the youth program. 
The Youth Corps program is envisioned to provide mainly 
vocational skills to the youth. There are educational assisted 
program components to that as well, with projects involving our 
water rights and some land use planning--to take responsibility 
up there for who we are and what we're doing. If we could get 
the Youth Corps program funded, we believe that we would be 
doing youth development, economic development, community 
policing or crime prevention and some environmental 
restoration, possibly spending $1 and getting numerous dollars 
back in return. It would also give ownership to those projects 
as they get off the ground. I think we can add some of our 
infrastructure needs in terms of paving roads and recyclable 
water system and groundwater contamination, those types of 
things. That's part of our vision, I suppose at this point. And 
we feel like the integration of those programs would be very 
cost-effective.
    Senator Domenici. Thank you very much. Are you finished?
    Mr. Richardson. Coordination has been well addressed. I 
would be happy to cooperate with anybody and everyone that's 
involved with this thing and, again, we need to stress in our 
opinion that law enforcement needs to be the priority in the 
short-term. Thank you.
    Senator Domenici. Thank you very much. I wonder if the 
staff would do something for the record, that it seems to me 
that we have a number of youth conservation-type programs that 
we fund, and I wonder if it might be possible to take a look 
and see if it would be feasible to address another ingredient 
to qualifying for that kind of activity by saying if it is part 
of a comprehensive drug prevention activity in an area that 
they would receive some priority for funding for youth 
conservation-type efforts. I think that might be an interesting 
thing, because we are doing youth conservation funding. If we 
chose to say well, if you submit an application and somebody 
will look at what you are doing, and it was a comprehensive 
effort to also reduce drug use, you might get some significant 
priority for that and that might be a way to open channels for 
funds. If the staff would do that, I would appreciate it and 
would you inform Mr. Richardson of either our success or 
failure, or what it is we find out. They are doing their job. 
We ought to try to see if we could do some of ours, and we will 
do that.
    Mr. Richardson. Senator, probably it will be significant to 
point out that as far as Federal land ownership in the 
watershed, it's probably 70 percent. We feel that not only 
would we work with the local water donor and Santa Fe 
Irrigation Districts, but that the benefit to those people 
would be if we funded the Youth Corps program, then the 
implementation plans that were created through the planning 
process would be fully funded so that these entities would not 
have costs associated with implementation of some of their 
needed projects. So given the Federal presence and that 
opportunity of assistance, I believe that we could do that.
    Senator Domenici. Thank you very much. Tess Cassados, 
Executive Director of La Clinica del Pueblo, would you like to 
talk with us for a few minutes, ma'am?
    Ms. Cassados. Thank you very much, Senator Domenici and 
staff. I very much appreciate the opportunity to testify on 
this panel. I need to remind everyone about the outlying, very 
rural areas of New Mexico and Rio Arriba County and unique 
problems that we face.
    La Clinica del Pueblo is housed in the Rio Arriba Community 
Health Center in Tierra Amarilla, NM. Tierra Amarilla is the 
county seat of Rio Arriba County, renowned nationwide for its 
natural beauty. La Clinica is the primary health care provider 
to our entire service area known as the Chama Valley. All of 
our clients are impacted by substance abuse problems that make 
our society and the Chama Valley in northern Rio Arriba County 
no exception. Through the years, our rural, isolated community 
was forced to address substance abuse issues on our own, with 
minimal resources that do not begin to cover all of the needs.
    La Clinica's personnel sees the problems firsthand. We 
address them as best we can with our mental health component. 
We are witness to the problems in the medical issues that are 
presented by the patient, like La Vision de Valle has also 
described. We also assist with emergencies in which DWIs or 
suicide attempts are the result of using substances. If the 
individual is lucky enough to survive the crisis, then we see 
them again, or we attempt to see them again, accessing our 
mental health and medical services.
    Overall, the community is impacted by the tremendous losses 
in terms of activities and medical costs. Over half of all 
families who access our services are affected by issues 
regarding substance abuse. The families, who are often the 
forgotten ones of those who are chemically affected, are 
impacted also, and they too access services. So our community 
is affected directly and indirectly as well.
    La Clinica del Pueblo is the first agency in the community 
to bring mental health services to the area. We have provided 
medical services since 1969. We celebrate our 30th anniversary 
this summer. In 1991, we recognized the need for mental health 
services, and brought the very first mental health service to 
our community. Our social workers estimate that 60 percent of 
the 100 active patients that they are currently treating have 
problems extending from substance abuse. Currently, our 
services to address these substance abuse issues are provided 
by two licensed clinical social workers at La Clinica. Services 
are provided in several settings, such as our clinic, the 
schools, and the detention center. Many of the referrals from 
the detention center are entangled with the legal system and 
present issues related to their drug use. The clinic also makes 
our building available for Alcoholics Anonymous meetings and 
Al-Anon meetings that are held weekly. These meetings are 
conducted by clinic and community members. The alcohol 
treatment center also sponsors similar groups in Chama.
    In recent years, North Central community-based services 
have joined in the community's fight against substance abuse 
through their preventive measures geared towards middle school 
and high school youth.
    Within the past couple of years, the Community Outreach 
Department of La Clinica del Pueblo have made a concerted 
effort to focus on early intervention. To truly address the 
basic problem of substance abuse in Rio Arriba County, it is 
imperative to focus on the very youngest victims in our 
community. Infants and young children are affected by parental 
and familial substance abuse in a multitude of ways. In-utero 
exposure, as well as the secondary results of substance abuse, 
such as crime, domestic violence, homicides, child abuse and 
neglect and poor nutrition can produce lifelong developmental 
delays, starting with developmental delays, disabilities and 
emotional disturbances. Fortunately, these consequences of 
substance abuse are completely preventable. Outreach and 
education, prenatal care, early detection and early 
intervention efforts are proven and effective means of 
intervention. While the clinic does see the problem as one that 
merits resources to address the issues, there is never quite 
enough that is done.
    Our community needs to recognize the problem as one worthy 
of additional resources. The problem needs to be recognized as 
a priority so that it can be addressed. While it does what it 
can, we as a community can do more. Resources for research-
based prevention programs are lacking. Comprehensive problems 
can be implemented in the schools where children can learn the 
consequences of substance abuse and seek help for themselves if 
they are impacted. Additional resources to address mental 
health needs can be incorporated into the plan for the future. 
Detox and residential services are virtually nonexistent, 
except for referral out of the community. Long waiting lists 
discourage those who want service and lack of insurance 
benefits can hinder the availability of services. The system is 
working against those who are seeking treatment. All of those 
factors need to be incorporated into planning for the future 
where the needs of the rural communities are not left out, and 
our needs can be seen as the priority that they truly are. They 
are very fortunate to have a well-established coalition of 
health service providers, called the Chama Valley Health 
Coalition, which has almost a 10-year history of collaboration 
and has made great impact throughout our community.
    We are also very pleased about the initiation of the 
county-wide plan to encompass substance abuse, and we expect 
the planning process to include the rural areas.
    We're all, of course, very interested in the well-being of 
all our families. We need all to work together to provide the 
resources that are needed to address them. Again, I very much 
appreciate, Senator Domenici, your effort in including the 
rural communities in this initiative.
    [The statement follows:]
                  Prepared Statement of Tess Cassados
            the substance abuse problem in the chama valley
    All communities are impacted by the substance abuse problems that 
plague our society. The Chama Valley in northern Rio Arriba County is 
no exception. We, as a rural isolated community, are left to address 
the issues on our own with minimal resources that do not cover all of 
the needs.
    The Clinic personnel see the problems first hand. We address them 
through our mental health component. We are witness to the problems in 
the medical issues that are presented by the patient. We also assist 
with emergencies in which DWI's or suicide attempts are the results of 
using substances. If the individual is lucky to survive the crisis, 
then we see them again accessing our mental health and medical 
services.
    Overall, the community is impacted by the tremendous losses in 
terms of lost productivity, and medical costs. Over half of all 
families who access our services are affected by issues regarding 
substance abuse. The families (often the forgotten ones) of those who 
are chemically affected are impacted also, and they too access 
services. So our community is affected directly, and indirectly as 
well.
                           what are we doing?
    The Clinic was the first agency in the community to bring services 
to the area. It has provided medical services since 1969. In 1991 it 
recognized the need for mental health services, and brought the first 
mental health services to the community. Currently services to address 
this issue are provided by 2 Licensed Clinical Social Workers. Services 
are provided in several settings, such as the clinic, the school, and 
the detention center. Many of the referrals from the detention center 
are entangled with the legal system and present issues related to their 
drug use. The Clinic also makes the building available for AA and 
Alanon meetings that are held weekly.
    Within the last couple of years, the Community Outreach Department 
of La Clinica del Pueblo have made a concerted effort to focus on early 
intervention. To truly address the pervasive problem of substance abuse 
in Rio Arriba County, it is imperative to focus on the very youngest 
victims in our communities. Infants and young children are affected by 
parental and familial substance abuse in a multitude of ways. In-utero 
exposure, as well as environmental exposure to the sequlea of substance 
abuse--such a crime, domestic violence, homicide, child abuse and 
neglect, and poor nutrition--can produce life long developmental 
delays, disabilities and emotional disturbances. Fortunately, these 
consequences of substance abuse are completely preventable. Outreach 
and education, prenatal care, early detection, and early intervention 
efforts are proven and effective means of intervention. While the 
Clinic does see the problem as one that merits resources to address the 
issues, there is never quite enough that is done.
                         what needs to be done?
    The community needs to recognize the problem as one worthy of 
additional resources. The problem needs to be recognized as a priority 
so that it can be addressed. While it does what it can, we as a 
community can do more. Resources for research-based prevention programs 
are lacking. Comprehensive programs can be implemented in the schools 
where children can learn the consequences of substance abuse, and seek 
help for themselves if they are impacted. Additional resources to 
address mental health needs can be incorporated into the plan for the 
future. Detox and residential services are virtually non-existent 
except for referral out of the community. Long waiting lists discourage 
those who want services, and lack of insurance benefits can hinder the 
availability of services. All these factors need to be incorporated 
into a plan for the future where the needs of the rural communities are 
not left out, and our needs can be seen as the priority that they truly 
are. We are interested in the well-being of all our families. Lets work 
together to provide the resources that are needed to address them!

    Senator Domenici. Thank you very much.
    Ms. Cassados. Thank you very much.
    Senator Domenici. May I ask, just by way of definition, as 
you spoke of the need for mental health treatment with social 
case workers and the like, are you equating that term with drug 
addiction?
    Ms. Cassados. In many cases we are, Senator. Again, just 
because the study of our active clients who come to us for 
mental health counseling revealed 60 percent of those clients' 
problems extend from drug abuse in one way or the other, 
whether through the family, significant other, through the 
children. Sixty percent of our active clients seeking mental 
health counseling feel that their problems come or are 
initiated through the drug abuse, substance abuse.
    Senator Domenici. But you can have mental illness, 
schizophrenia, manic depression, bipolar-like problems, and not 
have drug addiction. Conversely, you can have those illnesses 
and be addicted, too, so I imagine you distinguish that in 
terms of treatment and they're all lumped together, though, in 
your testimony regarding mental illness.
    Ms. Cassados. Absolutely, yes, sir.
    Senator Domenici. Thank you very much.
    I don't quite know what title to address you by. I am 
thinking that maybe it ought to be Madam Secretary. Is that 
fair enough?
    Ms. Khalsa. Thank you. Honorable Senator Domenici and 
esteemed Mayor and distinguished guests, and the public at 
large. It is my pleasure to be here with you today as a 
representative of a good friend of yours, Dr. Yogi Bhajan, who 
is the founder of our program 3HO SuperHealth, and I would like 
to just reference him by saying the program that I am going to 
speak of, which originates in Tucson, AZ can be reproduced here 
in Espanola or anywhere for that matter.
    Senator Domenici. Could I ask you, for purposes of our 
timing, since we are supposed to be somewhere, how long will it 
take you to make your presentation?
    Ms. Khalsa. Five minutes.
    Senator Domenici. You have seven minutes. I am going to be 
generous.
    Ms. Khalsa. 3HO Foundation, Healthy, Happy, Holy 
Organization which was founded in 1969 as a nonprofit 
organization dedicated to the advancement of the individual 
through education, science, and religion, and Dr. Yogi Bhajan 
serves as the Director of Spiritual Education and has done so 
since its inception.
    3HO provides various programs designed to help individuals 
alleviate and resolve social and personal problems, utilizing a 
yogic approach to live a healthy, happy, and productive life.
    In 1973, 3HO SuperHealth was founded in Tucson, AZ to help 
people suffering from addiction to drugs and alcohol. Since 
then the program has worked with thousands of clients in the 
residential program. The expanded services incorporated 
outpatient prevention, education and training located in 
schools, private corporations, and within the criminal justice 
system.
    The program has a remarkable success rate and is a tribute 
to yogic science and holistic integration of body, mind, and 
spirit. The Joint Commission of Accreditation of Healthcare 
Organizations accredited the program in 1978. It has received 
the highest commendation and distinguished itself by being 
rated in the top 10 percent of all residential programs 
throughout the United States.
    3HO is a perfect blend of East and West. It combines the 
ancient wisdom of the East with the sophistication and 
innovation of a quality care program. The 5,000-year-old 
science of yoga and meditations has proven highly successful as 
the backbone of the 3HO program.
    The science of SuperHealth technology is precisely applied 
to people with specific behavioral problems, including drugs, 
alcohol, depression, stress, and other dependencies plaguing 
our society.
    The program's belief is that the human potential of each 
individual is unlimited. Philosophy and specialized programs 
help each person achieve their highest potential. SuperHealth's 
innovative approach to health and healing acknowledge that each 
person is a whole being in which body, mind, and spirit are 
interconnected. Freedom from addictions occurs when each of 
these facets change together, and such change occurs most 
easily when one is in an environment and support system that is 
structured to guide integrated personal growth. It is this 
ongoing ability to exert impulse control over oneself that 
prevents recidivism.
    The program goal is to get one in touch with their inner 
strength so that they can conquer their problems. Practical 
techniques are given to eliminate addictions and methods to 
achieve self-discipline, inner fulfillment, and peace of mind.
    The root cause of why people use external stimuli is to 
fulfill shallowness and inner emptiness. Lack of stamina, inner 
strength, and the desire to face the nonfunctional personality 
of the self motivates one to escape as a productive, 
unfulfilled person of life.
    Students and dropouts, young and middle-aged alike, are 
being plagued by depression, loneliness, and unfulfillment. The 
program uses tools to gain the psychological edge necessary to 
remain calm and nonreactive under the most challenging 
situations. The process results in freedom from pain, fear, 
guilt, isolation, and resentment. It is here that true 
happiness lies and the mental traumas of everyday life slowly 
disappear.
    The SuperHealth program eliminates the physical, mental, 
and spiritual blocks that keep one from living a deeply 
satisfying life. These blocks are often demonstrated as lack of 
control over drugs and alcohol. At 3HO we believe that one has 
all that it takes to reach his full potential. We must help 
unlock the true self that is powerful and fully capable of 
resolving all issues.
    People may have spent their lives looking outside 
themselves for a quick fix in fads, trends, and addiction. The 
real answers lie within. At 3HO we give tools to discover one's 
inner self by building confidence and self-esteem. The need to 
abuse the self with drugs, alcohol, and other destructive 
behaviors is therefore eliminated.
    The treatment program encompasses a drugless, holistic 
technology that treats the whole person. This technology is 
designed to induce self-empowerment and includes yoga, 
meditation, nutrition, vitamin and herbal therapy, individual 
and group counseling and massage.
    Clinical yoga is the yoga of awareness. Yoga and meditation 
are the foundation of the program. It's therapeutic effect is 
designed to balance the demands so that they can secrete in 
proportion to each other allowing for optimum health. It also 
strengthens the nervous system which may have been weakened 
with substance abuse. This is not a permanent damage and the 
nerves can be rebuilt again. Yoga and meditation are an 
excellent tool to help to do this. A person cannot change and 
sustain change until awareness or consciousness is highly 
independent. The practice allows for the successful response to 
life's challenges and stresses with more flexibility, stamina, 
and confidence. Yoga helps reduce chronic tension, improves the 
circulatory system, and helps provide sound sleep.
    The meditation which deals with the psychological addiction 
helps calm the mind and creates clarity, perseverance, and 
mental concentration and greater self-control. These facets are 
essential to overcome the psychological addiction and 
destructive patterns of the mind. As awareness is heightened, 
insight is gained into the correlation between actions and 
behavioral conditioning. Through this process, one learns to 
cultivate the qualities necessary to change for the better. 
Specialized yoga and meditation sets are designed to eliminate 
blocks by creating greater self-awareness and discipline. Yoga 
is practiced throughout the treatment regimen and is 
instrumental as part of the discharge and aftercare planning to 
ensure drug-free living.
    Nutrition is one of the most important components of the 
SuperHealth experience. A carefully planned vegetarian diet 
balances the entire system during the detoxification and 
rehabilitation periods. The purpose is to strengthen the body 
and cleanse it of toxins from drugs or alcohol. The healing 
process is remarkably accelerated with specific foods and 
spices that are easily digestible and can be assimilated and 
quickly eliminated from the body. A therapeutic blend of fresh 
juices is provided that are rich in vitamins and restore 
nutrients that are absorbed and utilized by the body. These 
foods provided sustenance and restore vitality and health. The 
diet is highly nutritious and very delicious tasting.
    The intake of toxins and harmful substances, also stressful 
living and poor health and eating habits, cause imbalances and 
weaknesses in the body. A personalized program is designed to 
subtly heal deficiencies. An herbal and vitamin program 
rebuilds all of the body systems and optimum health.
    Counseling helps gain insight into addictive patterning and 
resolve inner conflicts which cause destructive behavior. 
Through individual and group counseling, each person learns to 
release stress, anger, insecurity, depression, and loneliness 
which inhibits fulfillment, happiness, effective communication, 
and personal and spiritual growth.
    Sessions provide opportunities to develop and enhance 
communication skills in an atmosphere of trust and safety. Each 
session builds awareness and self-respect. The integration of 
yoga and meditation supports the process to deal with personal 
issues so that one can learn from their past experiences free 
from guilt or blame.
    Counseling goals are to increase self-esteem, learn proper 
expressions of feelings and intuitive perceptions, develop 
honest and sincere relationships, improve body image and 
awareness, improve communication skills and enhance self-worth 
to strive for excellence.
    Therapeutic massage allows the physical body to relax. It 
soothes tired muscles and relieves the physical fatigue while 
alleviating tension, improving circulation, and promoting sound 
sleep.
    Senator Domenici. I wonder if you might summarize, please.
    Ms. Khalsa. I will. SuperHealth has received the highest 
commendation by the Joint Commission on Accreditation of 
Healthcare Organizations. It has been funded by all levels of 
government, including the Center for Disease Control, to 
operate a Better Health Through Awareness Program in the 
schools.
    For over 25 years, 3HO has perfected the program, and we 
take our high success rate seriously. Today many people are 
lost and depressed amidst a world of confusion and unknowns. It 
is our most heartfelt intent through the techniques in this 
program to give people an experience which could lead them back 
to themselves and their families. In that most precious 
experience, there is no better place to offer this than the 
Land of Enchantment in Espanola, NM.
    [The information follows:]
          3HO SuperHealth Drugless Addiction Treatment Program
incorporating a natural, holistic approach to addictive behavior based 
   on the teachings of yogi bhajan, ph.d., founder of 3ho superhealth
    3HO's technological system can be incorporated in a program for: 
Outpatient or Residential treatment; Prevention in schools; Corrections 
Department with incarcerated inmates; Education, training and staff 
development; and Aftercare and Follow-up.
                        organizational structure
    3HO Foundation, Healthy, Happy, Holy Organization, was founded in 
1969 as a non-profit organization dedicated to the advancement of the 
individual through education, science and religion. Yogi Bhajan serves 
as the Director of Spiritual Education, and has done so since its 
inception.
    3HO provides various programs designed to help individuals 
alleviate and resolve social and personal problems, utilizing a yogic 
approach to live a healthy, happy, and productive life.
    In 1973, 3HO SuperHealth was founded in Tucson, Arizona to help 
people suffering from addiction to drugs and alcohol. Since then, the 
program has worked with thousands of clients in its residential 
treatment program. Expanded services include outpatient, prevention, 
and education and training located in schools, private corporations and 
within the criminal justice system.
    The program has a remarkable success rate and is a tribute to yogic 
science and holistic integration of body, mind and spirit. The Joint 
Commission on Accreditation of Healthcare Organizations accredited the 
program in 1978. It has received the highest commendation and 
distinguished itself by being rated in the top 10 percent of 
residential programs throughout the United States.
    In May 1994, 3HO Foundation was approved as an NGO, Non-Government 
Organization, in Consultative Status (Roster) with the Economic and 
Social Council of the United Nations. 3HO serves as a consultant to the 
United Nations Secretariat on matters of mutual concern regarding 
topics of economy, women, social issues, human rights, cultural 
affairs, educational, health and related matters.
                               philosophy
    3HO is a perfect blend of East and West. It combines the ancient 
wisdom of the East with the sophistication and innovation of a quality 
care program. The 5,000-year-old science of yoga and meditation has 
proven highly successful as the backbone of the 3HO SuperHealth 
program.
    The science of SuperHealth technology, as taught by Yogi Bhajan, is 
precisely applied to people with specific behavioral health problems 
including drugs, alcohol, depression, stress and other dependencies 
plaguing our societies.
    The program's belief is that the human potential of each individual 
is unlimited. The philosophy and specialized programs help each person 
achieve their highest potential. SuperHealth's innovative approach to 
health and healing acknowledges that each person is a whole being in 
which body, mind and spirit are interconnected. Freedom from addictions 
occurs when each of these facets change together; and such change 
occurs most easily when one is in an environment and support system 
that is structured to guide integrated personal growth. It is this 
ongoing ability to exert impulse control over oneself that prevents 
recidivism.
    The program goal is to get one in touch with their inner strength 
so that they can conquer their problems. Practical techniques are given 
to eliminate addictions and methods to achieve self discipline, inner-
fulfillment, and peace of mind.
                                problem
    The root cause of why people use external stimuli is to fulfill 
shallowness and inner emptiness. Lack of stamina, inner strength and 
the desire to face the non-functional personality of the self, 
motivates one to escape as a product of an unfulfilled purpose of life.
    Students and drop-outs, young and middle-aged alike are being 
plagued by depression, loneliness and unfulfillment. The program gives 
tools to gain the psychological edge necessary to remain calm and non-
reactive under the most challenging situations. The process results in 
freedom from pain, fear, guilt, isolation and resentment. It is here 
that true happiness lies and the mental traumas of everyday life, 
slowly disappear.
    3HO SuperHealth helps eliminate the physical, mental and spiritual 
blocks that keep one from living a deeply satisfying life. These blocks 
are often demonstrated as lack of control over drugs, alcohol.
    3HO believes that one has all that it takes to reach his full 
potential. We help unlock the true self that is powerful and fully 
capable of resolving all issues.
    People may have spent their lives looking outside themselves for a 
quick fix in fads, trends and addiction. The real answers lie within. 
At 3HO, we give tools to discover ones inner self by building 
confidence and self esteem. The need to abuse the self with drugs, 
alcohol, and other destructive behaviors is therefore eliminated.
                              methodology
    The treatment program encompasses a drugless, holistic technology 
that treats the whole person. This technology is designed to induce 
self-empowerment and includes yoga, meditation, nutrition, vitamin and 
herbal therapy, individual and group counseling, massage.
    SuperHealth programs include treatment for the following: Alcohol & 
Chemical Dependency, Smoking, Stress, Eating disorders, Anxiety/
depression, and Co-dependency.
    The comprehensive treatment includes:
    Physical examination by a medical doctor as needed.
    Personal and psychological histories evaluated.
    Yoga:
  --Kundalini Yoga is the yoga of awareness as taught by Yogi Bhajan. 
        Yoga and meditation are the foundation of the program. Its 
        therapeutic effect is designed to balance the glands so that 
        they secrete in proportion to each other allowing for optimum 
        health. It also strengthens the nervous system which may have 
        been weakened by substance abuse. This is not a permanent 
        damage and nerves can be rebuilt with this excellent tool. 
        Kundalini yoga balances the neuron patterning of the 
        hemispheres of the brain which affects addictive behavior. A 
        person cannot change and sustain the change until his awareness 
        or consciousness is heightened. The practice allows for the 
        successful response to life's challenges and stresses with more 
        flexibility, stamina and confidence. Yoga helps reduce chronic 
        tension, improves the circulatory system, and helps provide 
        sound sleep.
    Meditation:
  --Meditation calms the mind and creates clarity, perseverance, mental 
        concentration and greater self control. These facets are 
        essential to overcome psychological addiction and destructive 
        patterns of the mind. As awareness is heightened, insight is 
        gained into the correlation between actions and behavioral 
        conditioning. Through this process, one learns to cultivate the 
        qualities necessary to change for the better. Specialized yoga 
        and meditation sets are designed to help eliminate blocks by 
        creating greater self awareness and discipline. Yoga is 
        practiced throughout the treatment regimen, and is instrumental 
        as part of the discharge and aftercare planning to ensure 
        sobriety and drug-free living.
    Nutrition Restoration:
  --Food is one of the most important components of the SuperHealth 
        experience. A carefully planned vegetarian diet balances the 
        entire system during the detoxification and rehabilitation 
        period. The purpose is to strengthen the body and cleanse it of 
        toxins from drugs or alcohol. The healing process is remarkably 
        accelerated with specific foods and spices that are easily 
        digestible and can be assimilated and quickly eliminated from 
        the body. A therapeutic blend of fresh juices is provided that 
        are rich in vitamins and restore nutrients that are absorbed 
        and utilized by the body. These foods provide sustenance and 
        restore vitality and health. The diet is highly nutritious and 
        very delicious tasting.
    Herbal & Vitamin Therapy:
  --The intake of toxins and harmful substances, stressful living, and 
        poor health and eating habits, all cause imbalances and 
        weaknesses in the body. A personalized program is designed to 
        subtly heal deficiencies. An herbal and vitamin program 
        rebuilds all of the body systems and optimum health.
    Counseling: Individual & Group Therapy:
  --Counseling helps gain insight into addictive patterning and resolve 
        inner conflicts which cause destructive behavior. Through 
        individual and group counseling, each person learns to release 
        stress, anger, insecurity, depression and loneliness which 
        inhibits fulfillment, happiness, effective communication, and 
        personal and spiritual growth.
  --Sessions provide opportunities to develop and enhance communication 
        skills in an atmosphere of trust and safety. Each session 
        builds awareness and self-respect. The integration of yoga and 
        meditation supports the process to deal with personal issues so 
        that one can learn from their past experiences free from guilt 
        or blame.
  --The counseling goals are: Increase self-esteem, learn proper 
        expressions of feelings and intuitive perceptions, develop 
        honest and sincere relationships, improve body image and 
        awareness, improve communication skills and enhance self worth 
        to strive for excellence.
    Massage:
  --Therapeutic massage allows the physical body to relax. It soothes 
        tired muscles and relieves physical fatigue while alleviating 
        tension, improving circulation and promoting sound sleep. 
        Massage assists the body in eliminating toxins and repairing 
        damage from chronic stress, poor nutrition, and self defeating 
        attitudes.
                             commendations
    SuperHealth has received the highest commendation by the Joint 
Commission on Accreditation of Healthcare Organizations and is 
distinguished as being in the top 10 percent of all residential 
treatment facilities in the United States. This is an American medical 
organization that maintains rigorous professional standards to assure 
the provision of quality heath care. 3HO SuperHealth has been well 
classified as a specialized hospital for drug, alcohol and mental 
health disorders.
    All levels of federal, state, city and county governments have 
funded the program. Private corporations including IBM, have funded the 
prevention program to help establish an educational system for students 
in elementary and secondary grades. The Center for Disease Control, 
supported a youth prevention program in the schools called ``Better 
Health Through Awareness.'' Various private companies have supported 
specialized programs for high risk populations for teen pregnancy and 
school drop-outs. 3HO has contracted for services with The Department 
of Corrections for services for inmates from maximum through minimum 
security. The Department also offered services as part of their staff 
development and training for correctional officers.
                       expertise and credentials
    3HO SuperHealth staff have been invited to make presentations 
throughout the United States and extensively worldwide. We have been 
invited as a joint venture by the government of Russia to assist with 
their very critical problem of alcoholism. We have provided 
international training and seminars to both staff and clients 
throughout Europe, Asia, Canada and Mexico.
    SuperHealth has been a member of the American Hospital Association 
and is currently on the International Council of Alcoholism and 
Addictions and the World Federation of Therapeutic Communities. This is 
a worldwide membership of treatment and prevention professionals that 
establish official liaison with international governments as well as 
professional and private bodies. This federation assist colleagues and 
health ministers to develop mutual understanding and partnership in 
health delivery with other specialists, education and government 
representatives.
    In the summer of 1998, Senator Pete Domenici was instrumental in 
designating New Mexico to conduct a pilot project with the United 
States Department of State with Drug Demand Reduction by President 
Clinton. Yogi Bhajan, Ph.D. conducted the training for the 43 officials 
from Honduras, Mexico and El Salvador in the field of health, 
corrections, psychology and educators. The training was a successful 
component of the Drug Demand Reduction experience in the United States.
                               conclusion
    For over 25 years, 3HO has perfected the program, and we take our 
high success rate seriously. Today, many people are lost and depressed 
amidst a world of confusion and unknowns. It is our most heartfelt 
intent, through the techniques in this program, to give people an 
experience which can lead them back to themselves and their families. 
In that most precious experience, there is no better place to offer 
this than the Land of Enchantment--Espanola, New Mexico.

    Senator Domenici. Thank you very much. I assume that as 
they proceed with the planning here, from what you are saying, 
you will be in touch with the people that are looking for more 
treatment facilities and see if you fit, and where you fit. I 
appreciate your comments today. Do any of you have any further 
comments?
    Doctor, I want to thank you. I know you are busy, and you 
took a lot of time out today, as you did the last time. I just 
hope that from you we have learned something and will justify 
all the effort you put forth.
    Mr. Richardson, we thank you for your efforts. We are 
hopeful we all learned from you, and we will do a better job.
    And, Ms. Cassados, we know you have a great clinic, and we 
know you serve a lot of people, and you have a hard job, but 
most of our clinics around the State are doing a wonderful job, 
and we have many of them. They have different foundations and 
different origins, but they are kind of moving toward the same 
basic format, and all of you know that in the last couple of 
years, you have been a provider for the Veterans. Most of the 
clinics in the north have become certified providers, so our 
Veterans don't have to go all the way to the hospital in 
Albuquerque for medicines and things of that sort. There's a 
big help if you do that, but many of the clinics do.
    Ms. Cassados. I would love to speak with you about that.
    Senator Domenici. We have had a lot of trouble with the VA. 
They've had lots of trouble, but surely eventually, clearly, 
there are a whole lot of them, and they are doing a good job. 
Let me see, we are going to wrap up this part of the hearing 
right now and visit Delancey Street.
    I want to thank everybody that participated and those of 
you who have spent a very long time here. Members of the media 
have given us a great deal of attention, and lastly but not 
least, the chairman of this committee, Senator Judd Gregg. This 
record will be transcribed and made a part of the record of the 
Appropriations Committee of the United States, which helps in 
all of these areas, and perhaps in due course, they will learn 
something from it or those of us who participated will learn 
from it.
    It's a privilege to participate. I think some good is going 
to come out of this, if we don't expect miracles, but rather go 
along with a community effort and build upon the three legs of 
this stool. As they become stronger, I think we are going to 
have some success.

                         conclusion of hearing

    I want to close this hearing and indicate that the hearing 
will not reconvene but rather will be closed now, and the 
record will be perfected and we stand in recess.
    [Whereupon, at 1:05 p.m., Tuesday, March 30, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
